<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         THURSDAY, MAY 12, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        CHRIS DOBY, FINANCIAL CLERK
        SHEILA DWYER, ASSISTANT SECRETARY

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order. Good 
afternoon, everyone, and welcome.
    My colleague Senator Hoeven has an Energy Task Force 
meeting at this point in time. We have a 2 o'clock vote. So, 
what will happen is, I will go until 2 o'clock, then we'll 
recess for however long it takes me to go and vote, and then 
hopefully the Senator will be able to join us after.
    We meet, this afternoon, to take testimony on the fiscal 
year 2012 budget request for the Secretary of the Senate, 
Senate Sergeant at Arms (SAA), and the U.S. Capitol Police 
(USCP). This is our fourth and final hearing for fiscal year 
2012.
    I want to welcome our three witnesses today: Nancy 
Erickson, Secretary of the Senate; Terrance W. Gainer, Senate 
Sergeant at Arms; and Phillip D. Morse, Sr., Chief of the 
Capitol Police.
    I want to start, today, by acknowledging the dedication and 
hard work of all of your staff. The services provided by many 
of your employees are rarely seen, but are highly relied upon 
for the day-to-day operation of the Senate. I know that the 
Senate is a very demanding place to work often requiring long 
hours, under extraordinary pressure. And we sometimes are 
accused of being high maintenance. But, I want you to know that 
we sincerely appreciate everyone's work, and we're grateful to 
all of the men and women who keep the Senate running safely and 
smoothly every day.
    I'd like to reiterate a few points that were made during 
our first three hearings this year. My goal, going into fiscal 
year 2011, was to hold the legislative branch flat; and I'm 
proud to say that, despite the challenges we face, we've 
surpassed that goal by cutting just more than $100 million 
below the fiscal year 2010 enacted level. Furthermore, we have 
accomplished this without requiring the agencies that assist us 
in our day-to-day operations to implement, ``reductions in 
force''. And, as you may have heard, in fiscal year 2012 I plan 
to cut even further below the fiscal year 2011 number so that 
we can lead by example on this subcommittee, when it comes to 
getting our fiscal house in order. Putting forth a reasonable, 
responsible budget for the legislative branch in fiscal year 
2012 is my number one priority.
    Ms. Erickson, we are pleased to have you here this 
afternoon. I look forward to hearing your testimony. For fiscal 
year 2012, your office is requesting a total of $32 million, 
which is the same level of funding recently provided to your 
office in the fiscal year 2011 continuing resolution. I realize 
this level of funding is a reflection of the transfer of a $4.2 
million Senate Information System (SIS), last year, to your 
office from the SAA. I look forward to hearing more about the 
specifics of your budget request and receiving an update on the 
progress of the new Senate payroll system.
    Mr. Gainer, first, I want to commend you for your smart 
thinking, earlier this year, when you hired Nancy Olkewicz.
    We've all benefited from her steadfast dedication and 
loyalty to the United States Senate. And we continue to get 
that now, as she works with the Appropriations Committee, and 
this subcommittee, in particular. I'm certain you've already 
benefited tenfold from the detailed knowledge and understanding 
of this institution that she has brought with her to the new 
job.
    We're still recovering from our loss of her here on this 
subcommittee, but Lila Helms is doing an outstanding job. It 
happens to be her birthday today. The SAA request for 2012 
totals $219 million, an increase of $214,000 more than the 
recently enacted fiscal year 2011 level. I look forward to 
hearing an update on the relocation of your printing, graphics, 
and direct mail shop, and any security-related updates that you 
may have to share with us.
    Finally, Chief Morse, your fiscal year 2012 request totals 
$387.6 million, which is an increase of $47 million, or 14 
percent, more than the recently enacted fiscal year 2011 level. 
I also want to note that, when it came to setting the fiscal 
year 2011 levels, every agency, with the exception of the USCP 
and the Congressional Budget Office (CBO), took a cut in 
funding. You received a $12 million increase more than the 2010 
funding level. Granted, much of this increase was to annualize 
the funding correction, due to a salary miscalculation at the 
department in fiscal year 2010. We will need to look carefully 
at this request, given just how tight budgets are going to be 
in fiscal year 2012. In particular, we'll be reviewing the 
seven or so new initiatives you've identified, to see where we 
might be able to realize some savings. I also look forward to 
receiving an update on the radio modernization project from 
you, as well.
    Now I'd like to begin with the witnesses. I'd appreciate if 
you might be able to keep your opening remarks to about 5 
minutes, and submit the rest of your statements for the record.
    Ms. Erickson, we'll start with you, and then we'll hear 
from Mr. Gainer, and then Chief Morse.

                  SUMMARY STATEMENT OF NANCY ERICKSON

    Ms. Erickson. Chairman Nelson, I appreciate this 
opportunity to provide testimony on behalf of the Office of the 
Secretary and its employees. I'm joined today by Sheila Dwyer, 
the Assistant Secretary, and Chris Doby, our Financial Clerk, 
who provides the steady hand in overseeing the Senate 
Disbursing Office.
    Since 1789, the Secretary of the Senate has been tasked 
with legislative, financial, and administrative 
responsibilities to support the Senate. I was reminded of our 
office's historic role in supporting the Senate during new 
Member orientation, when I had the opportunity to accompany our 
new Senators and their spouses to the National Archives 
legislative vault, where some of the Senate's earliest records 
are stored. We looked, in awe, at the very first Senate 
journal, and noted the Secretary's constitutional 
responsibility in documenting the Senate's very first day of 
business on March 4, 1789. Admiring the first Secretary of the 
Senate's beautiful handwriting, I must say that I'm grateful 
that this constitutional responsibility is carried out by our 
Senate Journal Clerks who can rely on laptops to compile the 
Senate Journal.
    This year, I'm requesting $31,990,000 to support the 
operations of the Office of the Secretary. This includes 
$25,790,000 for salaries, $2 million for operations, and $4.2 
million for the SIS program.
    I'd like to highlight three points. First, the budget 
request includes no increase for salaries or operations. 
Second, the operating budget for the administration of the SIS 
program, operations of which were assumed by this office last 
year, is also unchanged. Finally, I would be remiss if I did 
not point out that our 2012 budget request for operations is 
the same as our 2008 appropriation.
    Getting to this number has required careful assessments of 
not only how we use our financial resources, but also how we 
efficiently and effectively deploy our human resources. I'm 
very proud of our 26 department managers and our accounts 
administrator, who have been careful stewards of our resources, 
and who have committed themselves to rethinking how we work, 
with the goal of continuing superior service to the Senate.
    Compared to the budgets of our legislative branch partners, 
the Office of the Secretary's budget is small. However, we're 
fortunate that we're structured in a way that allows our office 
to operate efficiently. One example of this is our relationship 
with the Senate SAA in the area of information technology (IT). 
We rely on the SAA for our IT support requirements, ranging 
from the technical support for our payroll and financial 
systems to our enormous databases in the Office of Public 
Records, which includes Senate campaign reports, financial 
disclosure filings, travel reports, as well as registrant and 
lobbyist filings under the Lobbying Disclosure Act, as amended. 
We appreciate this relationship and underscore the importance 
of these systems in carrying out our congressional mandates.
    As you know, the SIS program was established by regulation 
by the Rules Committee in 1987 to provide all Senate offices 
access to online research services. During the past year, we 
focused our efforts on cost containment and gathered feedback 
from Senate staff on their research needs and the tools they 
use. On the cost-containment front, as a result of contract 
negotiations led by the Senate Librarian and procurement staff, 
SIS program costs in 2011 were held to 2010 levels. The 
successful negotiations, however, do not guarantee that there 
will not be future price increases and, potentially, hard 
decisions about what SIS services are added.
    Based on feedback from Senate staff, it's clear that online 
research plays a critical role in the daily work of the Senate. 
These resources are focused on real-time news, legislative, 
legal, and policy resources that are valued by staff. The 
online research industry is rapidly changing. And as we move 
forward in managing the SIS program, we will be vigilant in 
pursuing opportunities to maximize the Senate's investment 
while being mindful of costs.
    With respect to our financial responsibilities, the 
Disbursing Office, in tandem with SAA technical support, 
researched and procured a vendor to implement a new payroll 
system that met the Senate's unique requirements. We have a 
rigorous schedule to ensure a smooth implementation, including 
parallel testing with our current system before it's launched 
early next year. The next phase of the payroll project will 
include self-service options for employees.
    [The information follows:]

    As I mentioned in my testimony, the new payroll system will be 
implemented in three phases. Phase I will replace existing 
functionality. Phase II of the project will involve the implementation 
of self-service functions for employees, such as change-of-address 
requests, revising withholding amounts, and, eventually, making changes 
in benefit selections, and will allow for electronic payroll 
information notices to be sent, replacing the paper notices that 
employees now receive. Phase III, which is not yet funded, is the 
rollout of the new personnel system for Senate offices. When all three 
phases are implemented, we envision that offices will be able, pending 
approval of a digital signature format by the Committee on Rules and 
Administration, to submit payroll changes electronically.

    Ms. Erickson. As we've worked on the implementation of this 
enormous and complex payroll project, I'm reminded of a simpler 
time, when Senators and staff were paid with crisp $20 bills at 
the front counter of the Disbursing Office, a Senate practice 
until 1972.
    Our Disbursing Office and Senate Webmaster, in coordination 
with the Government Printing Office, are implementing a 
statutory requirement that the report of the Secretary be 
publicly posted on the Internet. The first posting of this 
report will occur at the end of November 2011 and will be 
available from a link on senate.gov in a PDF format.
    We will continue work on the paperless voucher initiative 
to reduce paper, streamline the voucher process, and for 
continuity-of-operation purposes. In the meantime, I'm pleased 
to report that paper vouchers were processed 10 percent faster 
than the previous year, which is good news for your office 
managers and your State vendors.
    Following past practice, I asked the Government 
Accountability Office (GAO) to audit the accounting books and 
inventory processes in our stationery room and gift shop. And 
I'm pleased to report that we received a positive audit with 
valuable feedback. In fact, the GAO singled out our inventory 
processes and warehouse operations as a model for other similar 
Government entities.

                           PREPARED STATEMENT

    I felt fortunate to be on the Senate floor to hear many of 
the farewell remarks of departing Senators this past December. 
And I was struck by a recurring theme in their recognition of 
the staff who work behind the scenes to support the Senate. Our 
staff, who have legislative, financial, and administrative 
responsibilities, take great pride in their historic role in 
serving the United States Senate, and we appreciate your 
subcommittee's recognition and support of their important work.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Nancy Erickson
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2012.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of each department of the office, 
their recent achievements, and their plans for the upcoming fiscal 
year.
    My statement includes:
  --presenting the fiscal year 2012 budget request;
  --implementing mandated systems--Financial Management Information 
        System (FMIS) and Legislative Information System (LIS);
  --Continuity of Operations Planning (COOP); and
  --maintaining and improving current and historic legislative, 
        financial, and administrative services.
    presenting the fiscal year 2012 budget request
    I am requesting a total fiscal year 2012 budget of $31,990,000. The 
request includes $25,790,000 in salary costs and $6.2 million for the 
operating budget of the Office of the Secretary. This request has been 
kept at fiscal year 2011 levels and represents a flat budget. No 
increase has been requested for salaries or operating expenses. In 
addition, the operating budget for the administration of Senate 
Information Services (SIS) program that was assumed by this office last 
year has not been increased.
    My total budget request for fiscal year 2012 is the same as last 
year. The balance of our request is consistent with the amounts 
requested and received in 2011 through the legislative branch 
appropriations process.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                  2011 (pending)       2012
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................             550             550  ..............
    Administrative services.....................................           5,590           5,590  ..............
    Legislative services........................................              60              60  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................           6,200           6,200  ..............
----------------------------------------------------------------------------------------------------------------

             implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the subcommittee for your ongoing support of both.
FMIS
    The FMIS is used by approximately 140 Senate offices. Consistent 
with our strategic plan, the Disbursing Office continues to modernize 
processes and applications to meet the continued demand by Senate 
offices for efficiency, accountability, and ease of use. Our goals are 
to move to an integrated, paperless voucher system, improve the WebFMIS 
system, and make payroll and accounting system improvements.
    During fiscal year 2010 and the beginning of fiscal year 2011, 
specific progress made on the FMIS project included:
  --WebFMIS was upgraded three times this year: in January 2010, August 
        2010, and November 2010. This system is used by administrative 
        managers, committee clerks, staff in the Sergeant at Arms 
        Office (SAA), and the Secretary's office to create vouchers and 
        manage their office funds, by the Disbursing Office to review 
        vouchers and by the Committee on Rules and Administration to 
        sanction vouchers. Additionally, it is used by staff who incur 
        official expenses, primarily staff who travel, to prepare their 
        Expense Summary Reports (ESRs). The releases provided both 
        technical and functional changes.
    --FMIS 2010-1 was implemented in January 2010. This release 
            included a small number of enhancements for WebFMIS users 
            including an automated password reset feature, a warning to 
            the ESRs user when their document violates the 60-day 
            election rule limitations, adding graphs to the WebFMIS 
            summary reports, and implementing a pilot of electronic 
            invoice (EI) functionality, which allows a user to easily 
            create credit card reimbursement vouchers based on invoices 
            received electronically from the Senate's credit card 
            vendor. A pilot of the EI functionality began in January 
            and was offered to all offices in June 2010. By the end of 
            2010, 33 offices were using the EI functionality.
    --FMIS 2010-2 was implemented in August 2010. This release included 
            a small number of enhancements for ESR users, but was 
            focused on implementing new functionality for the SAA 
            accounts payable (A/P) process. Processes were simplified 
            by automated retrieval of data from existing purchase 
            orders. An application, WebPICS provides pop-up windows 
            where users enter the required data which the system uses 
            to retrieve information from the purchase order. The users 
            verifies retrieved data and adds information necessary to 
            complete the process to create receiving reports, invoices, 
            and vouchers for payments against purchase orders.
    --FMIS 2011-1 was implemented in November 2010 and included two new 
            fields (invoice date and invoice receipt date) on the 
            WebFMIS document create page and the document search 
            criteria page for all users; it gives SAA users the ability 
            to search by project code and job code using the document 
            search criteria page and users using the EI functionality, 
            the ability to search by traveler's name. A new version of 
            the ESR, ``Line Item Entry'' was also introduced to a pilot 
            group. This enables users to select from 1 of 3 travel 
            types of the ESR; single trip, multiple trips, or 
            interdepartmental travel, requiring different types of 
            information based on the type selected. It is anticipated 
            that this new version of the ESR will reduce rekeying by 
            staff and reduce the corrections to itineraries made by 
            administrative mangers, chief clerks and Disbursing's A/P 
            staff. A pilot of 10 offices and committees began in 
            November 2010. This version was given to all new Senators 
            of the 112th Congress.
  --The computing infrastructure for FMIS is provided by the SAA. Each 
        year the SAA staff upgrades the infrastructure hardware and 
        software. During 2010 the SAA implemented two major upgrades to 
        the FMIS infrastructure. These included upgrading the database, 
        DB2, to version 9 in a two-step process, and upgrading the 
        mainframe operating system to version 1, release 11.
  --During 2008 Disbursing implemented a prototype imaging system in 
        which paper vouchers and supporting documentation were imaged 
        by Disbursing staff and routed electronically. The hands-on 
        experience of this prototype was especially useful in refining 
        system requirements. In 2009 and completed in 2010, the 
        software for the image database and image viewer was selected, 
        and imaging and electronic signature requirements were 
        finalized. This information was coordinated with a separate SAA 
        smart card ID project to be utilized for electronic signatures. 
        In October 2010, a task order for adding document imaging and 
        electronic signatures to WebFMIS was signed. This task order 
        outlines work to be completed in 2010 through the spring of 
        2013.
  --Finalized the selection of the PeopleSoft payroll system integrator 
        through a competitive bid process, signed the contract and 
        started with the fit gap sessions for the implementation of the 
        new system.
  --Implemented State tax remittances via direct deposit for six 
        additional States and updated our access to the Federal Reserve 
        Bank (FRB) due to a change in FRB-supplied equipment.
    During the remainder of fiscal year 2011 the following FMIS 
activities are anticipated:
  --Implementing WebPICS release for phase III which will focus on SAA 
        purchase order creation and approval;
  --Coordinating with SAA the timeframes for the implementation of the 
        smart card ID project for electronic signatures;
  --Implementing on-line distribution of monthly ledger reports using 
        Reveal via WebFMIS;
  --Implementing Automated Clearing House (ACH) payment for the 16 
        remaining State taxes jurisdictions which require a programming 
        change;
  --Participating in the yearly disaster recovery test; and
  --Implementing FMIS release 2011-2 during the spring 2011. This 
        release is expected to allow the SAA A/P group and the 
        Secretary's account administrator the ability to image and 
        attach supporting documentation to the documents created via 
        WebPICS or WebFMIS.
    During fiscal year 2012 the following FMIS activities are 
anticipated:
  --Continuing the implementation of online financial reports;
  --Implementing FMIS 2011-3, which includes the deployment of an 
        imaging and electronic signatures pilot by Senate office.
  --Implementing FMIS 2012-1 to include additional imaging features 
        from the pilot group requirements to support extended pilot 
        office participation.
  --Implementing FMIS 2012-2 to provide capacity and stability 
        enhancements to support rollout to all offices and committees, 
        as well as enhancements to the pilot functionality based on 
        feedback gained through user group meeting and training 
        sessions;
  --Continuing with the new payroll system implementation, conversion 
        and testing; and
  --Reviewing existing systems and developing a long-term modification 
        and replacement plan for key financial systems.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.
                  legislative offices
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of Members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, responsible for overall coordination, 
supervision, scheduling, and cross-training. The department consists of 
eight offices:
  --the Bill Clerk;
  --Captioning Services;
  --Daily Digest;
  --Enrolling Clerk;
  --Executive Clerk;
  --Journal Clerk;
  --Legislative Clerk; and
  --the Official Reporters of Debates.
Summary of Activity
    The Senate completed its legislative business and adjourned sine 
die on December 22, 2010. During 2010, the Senate was in session 158 
days and conducted 299 roll call votes and eight live quorum calls. 
There were 388 measures reported from committees and six special 
reports submitted to the Senate. There were 569 total measures passed 
or agreed to. In addition, there were 4,924 amendments submitted to the 
desk.
Cross-training and COOP Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately one-half of the legislative staff are 
currently involved or have recently been involved in cross-training.
    Each office and staff within the Legislative Department 
participated in numerous ongoing COOP discussions and exercises 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary, the U.S. Capitol Police 
(USCP), and the SAA.
Succession Planning
    The average number of years of Senate service among the Secretary's 
Legislative Department supervisors is 19 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors because of the unique nature of the Senate as a legislative 
institution. The arcane practices and voluminous precedents of the 
Senate make institutional experience and knowledge extremely valuable.
                      bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's staff keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices through the LIS. The Bill Clerk records 
actions of the Senate with regard to bills, resolutions, reports, 
amendments, cosponsors, Public Law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
Floor in written form within moments of the action involved, so the 
Bill Clerk's office is generally regarded as the most timely and most 
accurate source of legislative information.
Assistance From the Government Printing Office (GPO)
    The Bill Clerk's staff maintains an exceptionally good working 
relationship with the GPO and seeks to provide the best service 
possible to meet the needs of the Senate. The GPO continues to respond 
in a timely manner to the Secretary's request, through the Bill Clerk's 
office, for the printing of bills and reports, including the expedited 
printing of priority matters for the Senate Chamber.
Legislative Activity
    The Bill Clerk's staff processed 1,099 fewer legislative items than 
in the previous Congress for an overall decrease of slightly less than 
9 percent. For comparative purposes, below is a summary of the second 
sessions of the 110th and 111th Congresses, and then between the 
combined sessions of each Congress.

----------------------------------------------------------------------------------------------------------------
                                                                       110th           111th
                                                                   Congress, 2nd   Congress, 2nd    Percentage
                                                                      Session         Session         change
----------------------------------------------------------------------------------------------------------------
Senate bills....................................................           1,217           1,139           -6.41
Senate Joint Resolutions........................................              19              17          -10.53
Senate Concurrent Resolutions...................................              43              30          -30.23
Senate Resolutions..............................................             311             320           +2.89
Amendments submitted............................................           1,812           1,626          -10.26
House bills.....................................................             427             333          -22.01
House Joint Resolutions.........................................               4               6          +50.00
House Concurrent Resolutions....................................              93              51          -45.16
Measures reported...............................................             452             388          -14.16
Written reports.................................................             274             275          +41.61
                                                                 -----------------------------------------------
      Total legislation.........................................           4,652           4,298           -7.61
                                                                 ===============================================
Roll call votes.................................................             215             299          +39.07
House messages \1\..............................................             283             332          +17.31
Cosponsor requests..............................................           7,306           4,947          -32.29
----------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the
  Congressional Record. It excludes additional activity on these bills.


----------------------------------------------------------------------------------------------------------------
                                                                                                    Percentage
                                                                  110th Congress  111th Congress      change
----------------------------------------------------------------------------------------------------------------
Senate bills....................................................           3,741           4,059            +8.5
Senate Joint Resolutions........................................              46              42            -8.7
Senate Concurrent Resolutions...................................             107              78           -27.1
Senate Resolutions..............................................             729             707           -3.02
Amendments Submitted............................................           5,704           4,924          -13.67
House bills.....................................................             940             715          -23.94
House Joint Resolutions.........................................              13              16          +23.08
House Concurrent Resolutions....................................             186             118          -36.56
Measures reported...............................................             880             388          -55.91
                                                                 -----------------------------------------------
      Total legislation.........................................          12,346          11,047          -10.52
----------------------------------------------------------------------------------------------------------------

                  captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate Floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate Floor proceedings to Senate 
offices on Webster, the Senate Intranet.
General Overview
    Captioning Services strives to provide the highest-quality closed 
captions. For the 17th year in a row, the Office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports will be completed and archived in electronic form 
for the upcoming year.
    The real-time searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for all of the 
Senate community. Legislative floor staff, in particular, continue to 
depend upon its availability, reliability and contents to help them in 
the performance of their duties. Additionally, the Senate Recording 
Studio's complementary video component, Video Vault, adds searchable 
video to the audio and text and has proven to be a valuable new tool 
for Senate offices to utilize.
COOP Planning
    COOP and preparation continue to be a top priority to ensure that 
the office and staff are prepared and confident about the ability to 
relocate and successfully function from a remote location in the event 
of an emergency. Continual updates and review of the COOP plan and 
discussion with staff throughout the year prepare individuals to have 
confidence if called upon to execute the plan. The office also 
participates with the Recording Studio in an off-site location exercise 
of the COOP at least once a year.
                     daily digest
    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the second session of the 
111th Congress. First, a brief summary of a compilation of Senate 
statistics:
Chamber Activity
    The Senate was in session a total of 158 days, for a total of 1,074 
hours and 40 minutes. There were eight live quorum calls and 299 roll 
call votes. (See attachment for 2009 Year Comparison of Senate 
Legislative Activity).
Committee Activity
    Senate committees held a total of 827 meetings during the second 
session, as contrasted with 1,138 meetings during the first session of 
the 111th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on its Web site 
on Senate.gov, and entered in the LIS, the Web-based applications 
system. Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day and continuously updated on the Web site.
Computer Activities
    The Digest staff continues to work closely with Senate computer 
staff to refine the LIS/document management system (DMS), including 
further refinements to the Senate Committee Scheduling application 
which will improve the data entry process.
    The Digest office continues to electronically transmit the complete 
publication at the end of each day to the GPO.
GPO
    The Daily Digest staff work closely with the GPO on printing issues 
and are pleased to report that occurrences of editing corrections or 
transcript errors are infrequent.

                                                                      20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1991          1992          1993          1994          1995          1996          1997          1998          1999          2000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................           1/3           1/3           1/5          1/25           1/4           1/3           1/3          1/27           1/6          1/24
Senate adjourned....................................        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21         11/19         12/15
Days in session.....................................           158           129           153           138           211           132           153           143           162           141
Hours in session....................................      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"
Average hours per day...............................           7.6           8.5           8.3           9.0           8.7           7.8           7.1           7.7           7.3           7.2
Total measures passed...............................           626           651           473           465           346           476           386           506           549           696
Roll call votes.....................................           280           270           395           329           613           306           298           314           374           298
Quorum calls........................................             3             5             2             6             3             2             6             4             7             6
Public Laws.........................................           243           347           210           255            88           245           153           241           170           410
Treaties ratified...................................            15            32            20             8            10            28            15            53            13            39
Nominations confirmed...............................        45,369        30,619        38,676        37,446        40,535        33,176        25,576        20,302        22,468        22,512
Average voting attendance...........................         97.16          95.4          97.6         97.02         98.07         98.22         98.68         97.47         98.02         96.99
Sessions convened before 12 noon....................           126           112           128           120           184           113           115           109           118           107
Sessions convened at 12 noon........................             9             6             6             9             2            15            12            31            17            25
Sessions convened after 12 noon.....................            23            10            15            17            12             7             7             2            19            24
Sessions continued after 6 p.m......................           102            91           100           100           158            88            96            93           113            94
Sessions continued after 12 midnight................             4             9             7             3             1  ............  ............  ............  ............             2
Saturday sessions...................................             2             2             2             3             5             1             1             1             3             1
Sunday sessions.....................................  ............  ............  ............  ............             3  ............             1  ............  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2001          2002          2003          2004          2005          2006          2007          2008          2009          2010
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................           1/3          1/23           1/7          1/20           1/4           1/3           1/4           1/3           1/6           1/5
Senate adjourned....................................         12/20         11/20          12/9          12/8         12/22          12/9         12/31           1/2         12/24         12/22
Days in session.....................................           173           149           167           133           159           138           189           184           191           158
Hours in session....................................      1,23615"      1,04323"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"      1,42039"      1,07440"
Average hours per day...............................           7.1           7.0           8.7           7.7           7.7           7.4           7.2          5.37          7.44           6.8
Total measures passed...............................           425           523           590           663           624           635           621           589           478           569
Roll call votes.....................................           380           253           459           216           366           279           442           215           397           299
Quorum calls........................................             3             2             3             1             3             1             6             3             3             8
Public Laws.........................................           136           241           198           300           169           313           180           280           125           258
Treaties ratified...................................             3            17            11            15             6            14             8            30             1             6
Nominations confirmed...............................        25,091        23,633        21,580        24,420        25,942        29,603        22,892        21,785        23,051        23,327
Average voting attendance...........................         98.29         96.36         96.07         95.54         97.41         97.13         94.99         94.36         96.99         95.88
Sessions convened before 12 noon....................           140           119           133           104           121           110           156           147           148           116
Sessions convened at 12 noon........................            10            12             4             9             1             4             4             4             2             6
Sessions convened after 12 noon.....................            21            23            23            21            36            24            32            33            41            36
Sessions continued after 6 p.m......................           108           103           134           129           120           129           144           110           152           116
Sessions continued after 12 midnight................             3             8             2             3             3             4             4             2             2             1
Saturday sessions...................................             3  ............             1             2             2             2             1             3             5             2
Sunday sessions.....................................  ............  ............             1             1             2  ............             1             1             4             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Prepared by the Senate Daily Digest--Office of the Secretary.

                    enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
legislation passed by the Senate prior to its transmittal to the 
Secretary of the Senate, House of Representatives, the White House, the 
National Archives, and the United States Claims Court.
    During the second session of the 111th Congress the Enrolling 
Clerk's office prepared the enrollment of 78 Senate bills (transmitted 
to the President); 4 Senate enrolled joint resolutions (transmitted to 
the President); 7 Senate concurrent resolutions (transmitted to the 
National Archives); and 40 Senate appointments (transmitted to the 
House of Representatives). In addition, approximately 177 House of 
Representatives bills; 30 House Concurrent Resolutions; 5 House Joint 
Resolutions; and 2 conference reports, were either amended, passed, or 
acted on by the Senate requiring the Enrolling Clerk's office staff to 
work hundreds of amendments in a tightly managed schedule. In all there 
were 61 messages delivered to the Clerk's office and 84 to the House 
Chamber by the Enrolling Clerk's office relative to Senate action and 
passage of legislation. The office also handled the appropriate 
delivery to the House Clerk's office of approximately 248 House 
enrolled bills and 11 House joint resolutions (1 vetoed) after they had 
been signed by the President pro tempore.
    During the second session, the Enrolling Clerk's office was also 
involved in preparing and proofreading documents and taking messages to 
the House of Representatives relative to the impeachment of Judge 
Gabriel Thomas Porteous, Jr. of Louisiana. The Enrolling Clerk also 
assisted the Executive Clerk in putting together the official copy of 
the START Treaty agreement and helped organize Treaty amendments, in 
addition to proofreading the document. The office performance was 
successful, and all deadlines were met.
    A total of 569 pieces of legislation were passed or agreed to 
during the second session of the 111th Congress. Many other Senate 
bills were placed on the calendar, all of which were processed in the 
Enrolling Clerk's office including approximately 99 engrossed Senate 
bills, 4 joint resolutions, 15 concurrent resolutions, and 244 Senate 
resolutions. The office is also responsible for keeping the original 
official copies of bills, resolutions, and appointments from the Senate 
Floor through the end of each Congress. At the end of the second 
session, the Enrolling Clerk's office places all official papers in 
archive boxes where they are sent to the Senate Archivist for storage 
at the National Archives.
    The Senate Enrolling Clerk's is also responsible for transmitting 
to the GPO electronically, for overnight printing, copies of the 
original files of engrossed and enrolled legislation proofread and 
formatted accordingly in our office.
COOP
    In the second quarter 2010 the Enrolling Clerk attended two COOP 
exercises at the GPO to test a number of printers for the COOP fly-away 
kit designated to be available for the enrolling clerks in the event of 
a COOP situation. In addition to testing the printers, the exercise 
encompassed the important details of our operations necessary for the 
engrossment and enrollment of legislation involving the use of printers 
and specific paper stock supplied by the GPO.
Cost Savings
    The Enrolling Clerk has reduced printing requests by one-third over 
the past few years in addition to reducing its distribution of bills 
from the GPO by one-half.
                    executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's office processes all executive 
communications, Presidential messages, and petitions and memorials.
Nominations
    During the second session of the 111th Congress, there were 1,077 
nomination messages sent to the Senate by the President, transmitting 
21,836 nominations to positions requiring Senate confirmation and 21 
messages withdrawing nominations sent to the Senate during the second 
session of the 111th Congress. Of the total nominations transmitted, 
435 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 2,240 nominees in 
the ``civilian <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="274b4e545367">[email&#160;protected]</a>'' categories named above. Military nominations 
received this session totaled 19,161 (6,600 Air Force; 7,486 Army; 
4,448 Navy; and 627 Marine Corps). The Senate confirmed 23,327 
nominations this session. Pursuant to the provisions of paragraph 6 of 
Senate Rule XXXI, 366 nominations were returned to the President during 
the second session of the 111th Congress.
Treaties
    There were four treaties transmitted to the Senate by the President 
during the second session of the 111th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 111-5 through 111-8).
    The Senate gave its advice and consent to six treaties with various 
amendments, conditions, declarations, understandings, and provisos to 
the resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were six executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
111th Congress (Executive Report 111-2 through 111-7). The Senate 
conducted 50 roll call votes in executive session, all on or in 
relation to nominations and treaties.
Executive Communications
    For the second session of the 111th Congress, 4,468 executive 
communications, 62 petitions and memorials, and 29 Presidential 
messages were received and processed.
Environmental Impact
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk reduced the copies of nominations printed for the 
committees by 95 percent during the 111th Congress, as all committees 
except one allow the paperwork to be transmitted by email decreasing 
the need for duplicate paper copies.
                    journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by article I, section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV, and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff take 90-minute turns at the Rostrum in the Senate 
Chamber, noting the following by hand for inclusion in the Minute Book:
  --all orders (entered into by the Senate through unanimous consent 
        agreements);
  --legislative messages received from the President of the United 
        States;
  --messages from the House of Representatives;
  --legislative actions as taken by the Senate (including motions made 
        by Senators, points of order raised, and roll call votes 
        taken);
  --amendments submitted and proposed for consideration;
  --bills and joint resolutions introduced; and
  --concurrent and Senate resolutions as submitted.
    These notes of the proceedings are then compiled in electronic form 
for eventual publication of the Senate Journal at the end of each 
calendar year. Compilation is efficiently accomplished through 
utilization of the LIS Senate Journal Authoring System. The Senate 
Journal is published each calendar year, and in 2010, the Journal Clerk 
completed the production of the 1,125 page 2009 volume. It is 
anticipated that work on the 2010 volume, including the Impeachment 
Journal, will conclude by December 2011.
COOP
    In 2010, in support of the Office of the Secretary's commitment to 
COOP, the Office of the Journal Clerk participated in the annual 
Chamber Protective Actions/Briefing Center exercise in May. 
Additionally, monthly tests of BlackBerry emergency notification and 
laptop remote access procedures are conducted. The Journal Clerk 
continued the practice of scanning the daily Minute Book pages into a 
secure directory. The files are also copied onto a flash drive storage 
device weekly, and transported off-site each night. Although the actual 
Minute Books for each session of a Congress are sent to the National 
Archives a year following the end of a Congress, having easily 
accessible files, both on a remote server and on a secure portable 
storage device, will ensure timely reconstitution of the Minute Book 
data in the event of damage to, or destruction of, the physical Minute 
Book.
             official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
Floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief, and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the GPO. Much of the transcript of Senate Floor proceedings and 
Morning Business is sent to the GPO electronically to allow for 
production of the Record in a cost-conscious and timely manner. In most 
instances, the paper copy of the Record is delivered by the GPO within 
2 to 3 hours of its content being placed on the Internet at 
approximately 7 a.m. every day.
    The Chief Reporter, in conjunction with Senate office and committee 
staff, works to ensure compliance with the ``2-page rule'' to cut down 
on the printing costs of the Record by controlling the amount of 
extraneous printing to be done by the GPO. As a result, these materials 
are often condensed so as not to exceed the rule and/or are cited and 
printed on Web sites with referencing so that they are available to the 
interested public.
    The Official Reporters of Debate completed the upgrade of its 
stenotype machines this year. This past year, the office purchased five 
additional Pro Cat Stylus stenotype machines, complementing the three 
machines that were purchased last fiscal year, resulting in the most 
efficient and up-to-date method of paperless recording of Senate 
debate. All reporters' stenographic notes are now saved to electronic 
files and are held for 5 years or more, saving the cost of storage and 
purchase of bundled stenotype paper that was used in the older 
machines.
                    parliamentarian
    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staff, 
committee staff, House Members and their staffs, and administration 
officials on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and unanimous 
consent agreements, as well as provisions of public law affecting the 
proceedings of the Senate.
    The Parliamentarian or one of his assistants is always present on 
the Senate Floor when the Senate is in session, ready to assist the 
Presiding Officer in his or her official duties, as well as to assist 
any other Senator on procedural matters. The parliamentarians work 
closely with the staff of the Vice President of the United States and 
the Vice President himself whenever he performs his duties as President 
of the Senate.
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President.
    The parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes, or standing orders. The 
parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate Floor, and monitor them for points of 
order. In this respect, the parliamentarians reviewed more than 1,600 
amendments during 2010 to determine if they met various procedural 
requirements, such as germaneness. The parliamentarians also reviewed 
thousands of pages of conference reports to determine what provisions 
could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. During 2010, the Parliamentarian and his assistants referred 
2,623 measures and 4,559 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of countless 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. In 2010, as in the past, the 
parliamentarians conducted several briefings on Senate procedure to 
various groups of Senate staff and visiting international parliamentary 
staff, on a nonpartisan basis.
    During 2010, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Trade Act of 1974, the Congressional Review 
Act, and many other provisions of law that authorize special procedural 
consideration of measures.
    During all of 2010, the parliamentarians were involved in 
interpreting the ethics reform proposals adopted in 2007, especially 
the language dealing with earmark accountability and scope of 
conference.
    Throughout 2010 until the convening of the 112th Congress, the 
parliamentarians reviewed all of the Senators' certificates of election 
for sufficiency and accuracy, returning those that were defective and 
reviewing their replacements.
    Since the election in 2010, all of the parliamentarians have 
participated in the orientation sessions for the newly elected Senators 
and have assisted each of them in their initial hours as Presiding 
Officers. The parliamentarians also participated in an orientation 
session on the Senate Floor for Senate staff.
COOP
    The parliamentarians have each been trained on and successfully 
remotely access the office's computers and hard drives, facilitating 
communications, research, and other work after hours, and enabling them 
to have the office function during possible emergencies. The 
Parliamentarian's Office continues to participate extensively in 
emergency preparedness training for the Senate Chamber and has been 
heavily involved with the SAA Office of Police Operations, Security and 
Emergency Preparedness for years in the planning phases of the Senate's 
evacuation and shelter-in-place procedures.
                financial operations
Disbursing Office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices of the United States Senate and 
to Members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, and provide 
appropriate counseling and advice. The Senate Disbursing Office 
collects information from Members and employees that is necessary to 
maintain and administer the retirement, health insurance, life 
insurance, and other central human resource programs and provides 
responsive, personal attention to Members and employees on an unbiased 
and confidential basis. The Senate Disbursing Office also manages the 
distribution of central financial and human resource information to the 
individual Member offices, committees, administrative and leadership 
offices in the Senate while maintaining the confidentiality of 
information for Members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.
Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day-to-day operations of the Disbursing Office;
  --respond to any inquiries or questions;
  --maintain fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration
    The Disbursing Office, the Committee on Rules and Administration, 
the House of Representatives and the U.S. Treasury finalized an 
interagency agreement concerning payments for expenses made on behalf 
of the Congressional Oversight Panel established by Public Law 110-343, 
the Emergency Economic Stabilization Act. The Disbursing Office 
continues to offer administrative support to this office.
    The Legislative Branch Appropriations Act, 2010, Public Law 111-68 
included an administrative provision requiring the Report of the 
Secretary of the Senate to be published and publicly posted online, 
starting with the report covering the first full semi-annual period of 
the 112th Congress. Disbursing met several times with the GPO to start 
the design of the Web page, and additional meetings will be held with 
all interested parties in the coming months to finalize the development 
of the report.
Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in the groups daily 
operations. The reconciliation of such funds is executed on a daily 
basis. The Front Office staff also provides training to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits-related forms, and is the initial verification point to ensure 
that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The Front Office is 
the first line of service provided to Senators, officers, and 
employees. All new Senate employees (permanent and temporary) who will 
work in the Capitol Hill Senate offices are administered the required 
Oath of Office and Personnel Affidavit. Staff is also provided verbal 
and written detailed information regarding pay and benefits. Advances 
are issued to Senate staff authorized for official Senate travel 
through the Front Office and cash and check advances are entered and 
reconciled in Web FMIS. After the processing of certified expenses is 
complete, cash travel advances are repaid.
    Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes and voucher processing, to reporting, laws, and Senate 
regulations; and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Office and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system. The Front Office maintains 
the Official Office Information Authorization Forms that authorize 
individuals to conduct various types of business with the Disbursing 
Office.
General Activities
    Processed approximately 530 cash advances during the year and 
initialized 920 check/direct deposit advances.
    Received and processed more than 21,600 checks.
    Administered Oath of Office and Personnel Affidavits to more than 
1,700 new Senate staff and advised them of their benefits eligibility.
    Maintained brochures for 12 Federal health insurance carriers and 
distributed approximately 3,500 brochures to existing staff during the 
annual Federal Benefits Open Season and to new Senate employees during 
their Federal Employees Health Benefits (FEHB) selection process.
    Provided 22 training sessions to new administrative managers.
    Administratively guided the three offices of the appointed Senators 
that resulted from the death or resignation of sitting Senators, and 
the 16 new Senate offices through the Senator-elect phase.
    The Front Office continues its daily reconciliation of operations 
and strengthening of internal office controls. Training and guidance to 
new administrative managers and business contacts continued and was 
enhanced by the revamping of training materials that were provided to 
newly authorized personnel. The Front Office initiated a scanning 
procedure that ensured secure flow of payroll-related documents through 
the processing phase. Front Office staff continued assisting employees 
in maximizing their Thrift Savings Plan (TSP) contributions and making 
sure they are aware of the TSP Catch-Up provisions. The contribution 
level for the new TSP employee automatic enrollment was emphasized. The 
Front Office continued to provide the Senate community with prompt, 
courteous, and informative advice regarding Disbursing Office 
operations.
Payroll Section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees, and other appointing officials for their staff, including 
appointments of employees, salary changes, title changes, transfers, 
and terminations. It is also responsible for input of all enrollments 
and elections submitted by Members and employees that affect their pay 
(e.g., retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments, etc.) and for the issuance of 
accurate salary payments to Members and employees. The Payroll Section 
is responsible for the administration of the Senate Student Loan 
Repayment Program (SLP) and for the audit and reconciliation of the 
Flexible Spending Accounts (FSAs) and Federal Employees Dental and 
Vision Insurance Program (FED VIP) bill files received each pay period. 
The payroll section jointly maintains the ACH FedLine facilities with 
the A/P section for the normal transmittal of payroll deposits to the 
FRB. Payroll expenditure, projection, and allowance reports are 
distributed electronically to all Senate offices semimonthly. The 
payroll section issues the proper withholding and agency contribution 
reports to the Accounting Department and transmits the proper TSP 
information to the National Finance Center. In addition, the payroll 
section maintains earnings records, which are distributed to the Social 
Security Administration and employees' taxable earnings records, which 
are used for W-2 statements. This section is also responsible for the 
payroll expenditure data portion of the Report of the Secretary of the 
Senate and calculates, reconciles, and bills the Senate Employees Child 
Care Center for their staff employee contributions and forwards payment 
of those contributions to the Accounting Section. The Payroll Section 
provides guidance and counseling to staff and administrative managers 
on issues of pay, salaries, allowances, and projections.
General Activities
    In January 2010, the payroll section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and Federal and State tax agencies. They also facilitated the 
imaging of those documents to the Document Imaging System. The payroll 
section maintained the normal schedule of processing TSP election 
forms.
    In January 2010, an employee cost-of-living adjustments (COLA) of 
2.42 percent was authorized and administered. Statutory rates and 
program caps were updated in HRMS. Required documentation was issued, 
received, reconciled, input, and adjusted as designated by appointing 
officials.
    The Disbursing Office, in tandem with SAA Technical Support, 
researched and procured a vendor to implement a new payroll system. The 
proposals of the bidders were diligently assessed and modifications 
requested. Several demonstrations and technical forums were attended 
and rated. Specific attention was paid to how the vendors would 
accommodate the Senate's unique requirements, laws and regulations 
governing the services and programs administered by the payroll system. 
After extensive coordination, feedback and assessment, an implementer 
selection was made. Staff attended week-long training to enhance their 
ability to participate in system requirements, development, and 
implementation. The Payroll Section also drafted and edited a complete 
revision and update of the Payroll Procedures Manual in anticipation of 
its need as a tool to facilitate the development and implementation of 
the new payroll system.
    As 2010 came to an end, the Disbursing Office and SAA had begun the 
process of system development and implementation with the new vendor. 
Fit gap sessions to analyze requirements started in February with an 
expected completion of Phase I of the project during fiscal year 2012.
    As a result of the passage of the Reservist Differential Pay 
legislation, the office worked with the SAA computer support staff to 
determine requirements, develop, test and implement programming 
changes, develop processes and procedures, and implement those within 
the guidelines set forth by the Office of Personnel Management (OPM) 
and Defense Financial and Accounting Services. Offices and affected 
employees were notified of the impact of the legislation.
    The automatic enrollment provisions of the TSP Enhancement Act of 
2009 took effect in August 2010. The office worked in tandem with the 
SAA computer support staff and the TSP to determine system 
requirements, develop, test, and implement changes and follow through 
with postimplementation testing and reporting. New procedures were 
developed and implemented and Senate-wide communications were written 
and distributed.
    Other minor changes were made to the HRMS as the need arose as a 
result of regulated and policy changes. Changes to the retirement 
creditability of Federal Employee Retirement System (FERS) sick leave 
required legislative and procedural interpretation and required 
interagency cooperation and coordination. The Disbursing Office 
developed procedures and distributed communications throughout the 
Senate.
    The office procured a new retirement calculator tool that will 
provide additional functionality to retirement counselors and enhance 
their ability to provide a greater number of retirement estimates. 
Procedures, training and usage development will occur in 2011.
    In 2010, the payroll section implemented a number of system 
modifications as a result of legislative, regulatory, and procedural 
changes. The Department of the Treasury implemented a new Web-based 
process for purchasing savings bonds by payroll deduction, which 
required changes to existing procedures and required notification to 
the affected Senate Members and employees. Passage of Reservist 
Differential Pay was handled with coordinated development of 
requirements, testing, system implementation, and procedural 
development to facilitate the proper payments and tracking. Unusual 
changes to specific State tax law required system modifications so that 
residents of that State could remain in compliance with regards to 
their State tax withholding. This required system development, testing, 
implementation, and notification to the affected Members and staff.
    As a result of the 2010 expiring terms of several appointed 
Senators, the payroll section provided assistance and guidance to the 
offices of incoming and outgoing Members. They also assisted Senator 
Robert C. Byrd's staff upon his death. In addition, the staff 
researched the specifics of applicable Senate resolutions to determine 
their impact, if any, on outgoing and potentially outgoing staff in 
order to ensure that current procedures allowed for the proper 
administration of the resolutions and provided guidance to staff on 
those resolutions.
    The Payroll Section administers the SLP, which includes initiation, 
tracking and transmission of the payments, determination of 
eligibility, and coordination and reconciliation with office 
administrators and program participants. Because of regulatory changes 
within the Department of Education, extensive vendor processing changes 
were necessitated. As a result many payments to vendors were not being 
routed correctly once received at the designated address. This led to a 
higher than usual need for payment tracking, reconciliation, and check 
reissue. The SLP Administrator continues to improve processes for 
administration of the program and documenting procedures. In addition, 
the SLP Administrator developed an extensive list of ``frequently asked 
questions'' which were distributed to administrative managers and 
staff, and which have been published to Webster, the Senate's Intranet.
Employee Benefits Section (EBS)
    The primary responsibilities of the EBS are administration of 
health insurance, life insurance, TSP, and all retirement programs for 
Members and employees of the Senate. This includes counseling, 
processing of paperwork, research, dissemination of information, and 
interpretation of retirement and benefits laws and regulations. The EBS 
staff is also expected to have a working knowledge of the FSA Program, 
the Federal Long Term Care (LTC) Insurance Program and Federal 
Employees Dental and Vision Insurance Program (FEDVIP). In addition, 
the sectional work includes research and verification of all prior 
Federal service and prior Senate service for new and returning 
appointees.
    The EBS provides this information for payroll input. It also 
verifies the accuracy of the information provided and reconciles, as 
necessary, when official personnel folders and transcripts of service 
from other Federal agencies are received. Senate transcripts of 
service, including all official retirement and benefits documentation, 
are provided to other Federal agencies when Senate Members and staff 
are hired elsewhere in the Government. The EBS is responsible for the 
administration and tracking of employees placed in leave without pay to 
perform military service, including counseling with regard to continued 
benefits, TSP Make-up contributions and Reservist Differential 
payments. The EBS participates fully in the Centralized Enrollment 
Clearinghouse System (CLER) Program sponsored by OPM to reconcile all 
FEHB enrollments with carriers through the National Finance Center. EBS 
is responsible for its own forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures, for the Disbursing 
Office. The EBS processes employment verifications for loans, bar 
exams, the Federal Bureau of Investigation, OPM, and the Department of 
Defense (DOD), among others. Unemployment claim forms are completed, 
and employees are counseled on their eligibility. Department of Labor 
billings for unemployment compensation paid to Senate employees are 
reviewed in the EBS and submitted by voucher to the Accounting Section 
for payment, as are the employee fees associated with FSAs. 
Designations of Beneficiary for Federal Employees' Group Life Insurance 
(FEGLI), retirement, and unpaid compensation are filed and checked by 
the EBS.
General Activities
    The year began with an extended 2009 benefits open season through 
January 31, 2010, as mandated by the OPM.
    With the death of Senator Robert C. Byrd, EBS counseled the 
Senator's survivors regarding all benefits payable and assisted with 
claims processing. EBS also provided benefits transition counseling to 
all staff employed by Senator Robert C. Byrd, as well as, the 
processing of the resultant retirement cases. EBS provided incoming 
benefits counseling to Senators who were appointed in 2010. In 
addition, the EBS provided outgoing counseling and retirement case 
processing to Senators who left office in 2010 and to their staff.
    The year brought about many benefits changes. OPM issued guidance 
resulting from Public Law 111-84, which allows for unused sick leave to 
be credited towards FERS retirement and the ability to redeposit FERS 
refunds. The Affordable Care Act of 2010 created important benefits 
changes that were emphasized in the 2010 Federal Benefits Open Season. 
FEHB and FSA incurred major changes in dependent eligibility rules. 
Flexible spending account, health savings accounts, and health 
reimbursement accounts were subject to over the counter over-the-
counter drug eligibility and grace period changes. Premium assistance 
for temporary continuation of health insurance coverage under the 
American Recovery and Reinvestment Act of 2009 was extended through May 
31, 2010.
    OPM issued final regulations to expand the definition of 
``qualified relatives'' under the long-term care insurance. TSP changes 
in 2010 included the establishment of Spouse Beneficiary Accounts, the 
L Fund 2050, and the August 1, 2010 implementation of the TSP Automatic 
Enrollment provisions. In addition, the enrollment/change period for 
the FEGLI Program was increased to 60 days.
    Many employees changed health plans during the annual benefits open 
season. These changes were processed and reported to carriers very 
quickly. The Disbursing Office again offered Senate employees access to 
the online ``Checkbook Guide to Health Plans'' to research and compare 
FEHB plans. The Disbursing Office also hosted an open season benefits 
fair, which was informational and well attended. The Benefits Fair 
included representatives from local and national FEHB plans, as well as 
representatives from LTC, FSA, and FEDVIP.
    EBS conducted an agency-wide FERS seminar and attended interagency 
Benefits Officers and TSP meetings. This was especially important this 
year due to the many ongoing changes to many of the benefits programs.
    EBS coordinated with the Office of Education and Training to 
provide outgoing offices two sessions with the DC Department of 
Employment Services and two sessions with the OPM to assist with 
navigation of the Federal jobs Web site, USAJobs.
Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; and to provide 
professional customer service, training and confidential financial 
guidance to all Senate accounting locations. In addition, the Financial 
Management group is responsible for the compilation of the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations, and for the formulation, presentation and 
execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office financial management is segmented into three functional 
departments:
  --Accounting;
  --Accounts Payable; and
  --Budget.
    The Accounts Payable department is further subdivided into three 
sections:
  --Vendor Administration;
  --Disbursements; and
  --Audit.
    The deputy coordinates the activities of the three functional 
departments, establishes central financial policies and procedures, and 
carries out the directives of the Financial Clerk and the Secretary of 
the Senate.
Accounting Department
    During 2010, the Accounting Department approved 52,000 expense 
reimbursement vouchers and vendor uploads including 1,585 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's revolving funds, to cancelled subscription refunds from 
Member offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle-closing entries, and all nonvoucher reimbursement 
transactions such as payroll adjustments, COLA budget uploads, stop 
payment requests, travel advances and repayments, and limited 
payability reimbursements. The department continues to scan all 
documentation for journal vouchers, deposits, accounting memos, and 
letters of certification to facilitate both storage concerns and COOP 
backup. The section also completed the 2009 year-end process to close 
and reset revenue, expense, and budgetary general ledger accounts to 
zero.
    The Disbursing Office also started working with a Member's office 
and the Senate Stationery Room to establish and design an online flag 
ordering system using the Department of the Treasury's Pay.gov system 
capabilities. The form has been completed and is undergoing review by 
the Treasury. The Member's office will serve as a pilot office with 
other offices joining as the process is refined. Testing is planned for 
February 2011 with a possibility of other offices joining in March 
2011.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, reported 
to the Department of the Treasury on a monthly basis is the ``Statement 
of Transactions According to Appropriations, Fund and Receipt 
Accounts,'' a summary of activity of all monies disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate. During 2010, the Accounting 
Department tested and implemented a FAMIS system report to calculate 
the Treasury Combined Statement which is used for the OMB budget 
submissions.
    The Accounting Department continues to transmit Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the FRB through the IRS Electronic 
Federal Tax Payment System (EFTPS). EFTPS is also be used to transmit 
the quarterly 941 reports to the IRS. Payments for employee 
withholdings for State income taxes were reported and paid on a 
quarterly basis to each State with applicable State income taxes 
withheld. System modifications installed in 2008 allow electronic ACH 
payment of quarterly State taxes has resulted in a 64 percent 
participation rate by taxing jurisdictions, up from 50 percent last 
year. Twenty-seven of 42 tax jurisdictions are receiving their 
quarterly State tax payments via ACH. Six States were added to the ACH 
payments for the third quarter payments. System modifications are 
necessary to transmit the remaining 15 tax jurisdictions via ACH 
because of the unique State requirements for their transmissions. 
Monthly reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP.
    There are also internal reporting requirements, such as the monthly 
ledger statements. These ledger statements detail all of the financial 
activity for the appropriate accounting period with regard to official 
expenditures in detail and summary form. It is the responsibility of 
the Accounting Department to review and verify the accuracy of the 
statements before Senate-wide distribution. During 2010 the Accounting 
Department worked with the SAA computer staff to test the electronic 
distribution of these monthly reports. It is hoped that this will be 
implemented in 2011.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department in creating Senate-wide 
financial statements in accordance with OMB Bulletin 01-09, ``Form and 
Content of Agency Financial Statements'' and any updates required by 
OMB Circular A-136, ``Form and Content of the Performance and 
Accountability Reports''. Work continues toward the implementation of 
the fixed asset system, and financial management software has been 
upgraded and the license renewed.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance, and distribution 
of the budget justification worksheets. The budget justification 
worksheets for fiscal year 2012 were mailed to the Senate accounting 
locations and processed in November 2010. The budget baseline estimates 
for fiscal year 2012 were reported to OMB by mid-January 2011. The 
budget analyst is also responsible for the preparation of 1099's and 
the prompt submission of forms to the IRS before the end of the 
January.
A/P: Vendor Administration
    The Vendor Administration Section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's Web-based payment tracking system. This section 
also assists the information technology (IT) department by performing 
periodic testing and by monitoring the performance of the vendor 
system. Currently, more than 17,300 vendor records are stored in the 
vendor file, in addition to approximately 10,000 employee records. 
Daily requests for new vendor addresses or updates to existing vendor 
information are processed within 24 hours of receipt. Besides updating 
mailing addresses, the section facilitates the use of ACH by switching 
the mode of vendor payment from paper check to electronic deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to the vendor requesting tax and banking 
information, as well as contact and email information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    All Web FMIS users are using the Staffer Functionality exclusively, 
and new offices are automatically established with it. Senate employees 
can electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments using 
this system. The most common service requests are for system user 
identification and passwords and for the reactivation of accounts. 
Employees may also request an alternative expense payment method. 
Employees can choose to have their payroll set up for direct deposit or 
paper check, but can have their expenses reimbursed by a method that 
differs from their salary payment method.
    The Vendor section works closely with the A/P Disbursements group 
to resolve returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor section electronically scans and stores all supporting 
documentation of existing vendor records and new vendor file requests. 
When this section receives replies asking for ACH participation, the 
vendors are asked if they wish to be notified by email when payments 
are sent. Currently, more than 95 percent of ACH participants also 
receive email notification of payment.
    During 2010, the Vendor section processed more than 2,200 vendor 
file additions, completed more than 3,200 service requests, mailed 
approximately 1,100 vendor information letters, and converted more than 
450 vendors from check payment to electronic payment.
A/P: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received approximately 107,000 vouchers. All of these items were paid 
by the department via Treasury check or ACH. Multiple payments to the 
same payee are often combined. As a result, 18,500 checks were issued, 
while 71,100 ACH payments were required. The ACH volume increased 13 
percent while the check volume decreased 18 percent for the year. This 
is a desired result as the department continues its efforts to 
substantially reduce reliance on paper checks.
    The checkwriter system was upgraded and is now incorporated into 
Web FMIS. The new functionality allows greater ease of access to 
payment schedules for COOP purposes, but still maintains the security 
necessary to prevent unauthorized use of the system. Payment schedules 
may be retrieved, but payments cannot be made without proper 
authorization. Tests have been conducted to ensure functionality in 
case of emergency situations.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and two 
prior periods, as space is limited. Older documents are stored in the 
Senate Support Facility (SSF). The inventoried items are sorted and 
recorded in a database for easy document retrieval. Several document 
retrieval missions were successfully conducted, and the department 
continues to work closely with warehouse personnel.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which nonreceipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through the ACH. The department maintains a spreadsheet 
that tracks cases of nonreceipt of salary checks, including stop 
payment requests and re-issuance.
    The department also prepares the stop payments forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming nonreceipt of expense checks. The Treasury Check 
Information System (TCIS) allows the department to electronically 
submit stop-payment requests and provides online access to digital 
images of negotiated checks for viewing and printing. Once a check is 
viewed, it is printed and may be scanned. Scanned images are then 
forwarded to the appropriate accounting locations via email. During 
2010, approximately 500 digital images of negotiated checks were 
provided, and an additional 125 requests were received for stop 
payments. The stop payment volume is a significant reduction (75 
percent) and is attributable to increased ACH payment and the TCIS 
check copy retrieval. The TCIS saves the Disbursing Office time, a 
$7.50 processing fee for each request, is Web-based, and is accessible 
from multiple workstations in Disbursing.
A/P: Audit Department
    The A/P Audit Section is responsible for auditing vouchers and 
answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's FMIS; and assists in the production of the 
Report of the Secretary of the Senate.
    The section is organized at three different levels. The first level 
is the supervisor. In addition to performing managerial tasks, the 
supervisor also audits and sanctions vouchers as needed, and 
coordinates testing related to system implementation and upgrades. 
Eleven auditors process all incoming vouchers and uploads, and 3 of 
them have the authority to sanction, on behalf of the Committee on 
Rules and Administration, vouchers not exceeding $100. They also 
sanction all travel and petty cash advances as well as non-Contingent 
Fund items such as legal counsel, legislative counsel, and the Office 
of Congressional Accessibility Services, as well as the for the 
Congressional Oversight Panel.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion and petty cash advances must be repaid whenever new 
funding authority is established. The system accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect. In addition 
to other functionality, an advance type of petty cash was created and 
is in use. Regular petty cash audits are performed by the section, and 
all petty cash accounts were successfully audited in 2010.
    The A/P Audit Section processed more than 107,000 expense items in 
2010. Audit sanctioned approximately 56,000 vouchers under authority 
delegated by the Committee on Rules and Administration. This translates 
to roughly 9,600 vouchers processed per auditor, and 11,000 vouchers 
posted per certifier. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS, and are expected to be paid 
within 8 to 10 business days. These vouchers comprised more than 40 
percent of all vouchers, and, as in the previous year, Disbursing 
passed two postpayment audits performed by the Committee on Rules and 
Administration. In 2010, the average for Committee on Rules and 
Administration-sanctioned items was 5.45 days, and the average for 
Disbursing sanctioned items was 3.55 days, roughly 10 percent faster 
than the previous year.
    Uploaded items are of two varieties:
  --certified expenses; and
  --vendor payments.
    Certified expenses have been around since the 1980s, and include 
items such as stationery, telecommunications, postage, and equipment. 
Currently, the certifications include mass mail, franked mail, excess 
copy charges, Photography Studio, and Recording Studio charges. 
Expenses incurred by the various Senate offices are certified by SAA to 
the Disbursing Office on a monthly basis. The expenses are detailed on 
a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. 
Telecommunications charges excepted, concentrated effort is put forth 
to ensure certified items appear as paid in the same month they are 
incurred. Telecommunications charges usually run 1 month behind as the 
SAA must wait for the bills from external vendors.
    Vendor uploads are used to pay vendors for the Senate Stationery 
Room, Senate Gift Shop and State office rentals, and refund security 
deposits for the Senate Page School. The methodology is roughly the 
same as that for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State office rents are generally paid a few days 
prior to the month of the rental, which is consistent with the general 
policy of paying rent in advance.
    The A/P Audit Group provided training sessions in the use of new 
systems: the process for generation of expense claims and the 
permissibility of expenses. They also participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress (LOC). The section trained 10 new administrative managers and 
chief clerks and conducted four informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The A/P group also routinely assists the IT department and other groups 
as necessary in the testing and implementation of new hardware, 
software, and system applications. The implementation of Web FMIS 2010-
1 and 2010-2 allowed the SAA to use a Web-based system more 
extensively. Additionally, new functionality was made available for 
auditors to view the ESRs that accompany staff vouchers. A new menu 
structure was also created for inquiries. Electronic invoicing for the 
Senate-wide credit card provider, JP Morgan Chase, was also 
implemented.
Disbursing Office Information Technology
            FMIS
    The Disbursing Office Information Technology (IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
Web FMIS which is used by staff in 140 Senate accounting locations 
(i.e., 100 Senate personal offices, 20 committees, 20 leadership and 
support offices, the Office of the Secretary of the Senate, the SAA, 
the Senate Committee on Rules and Administration Audit section, and the 
Disbursing Office).
    Responsibilities of the department include:
  --supporting current systems;
  --testing infrastructure changes;
  --maintaining contact with system users to ensure their needs are 
        met;
  --managing and testing new system development;
  --preparing for the 112th Congress;
  --planning;
  --managing the FMIS project, including contract management;
  --administering the Disbursing Office's Local Area Network (LAN); and
  --coordinating the Disbursing Office's disaster recovery activities.
    The Disbursing Office is the ``Abusiness <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a554d545f487a">[email&#160;protected]</a>'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office utilizes the support of a contractor, along with the SAA who 
are responsible for operational support and application development. 
The three organizations work cooperatively.
    Highlights of the year include:
  --supporting more than 4,000 FMIS users, of which 83 percent are 
        staff preparing ESRs;
  --implementing three releases of FMIS, including two pilots and 
        moving the SAA onto Web-based interfaces:
    --a pilot of electronic invoicing, by which a user can easily 
            create a voucher based on credit card data that the Senate 
            receives electronically;
    --a new version of the ESR that builds the traveler's itinerary 
            based on the location of reported expenses. This reduces 
            rekeying of information by staffers and the number of 
            errors corrected by voucher preparers and the DO A/P staff; 
            and
    --WebPICS for SAA requisitioners, approvers, receivers, and voucher 
            preparers; and
  --testing infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and the 
        mainframe user security module; and
  --increasing the number of States to whom Disbursing sends State 
        taxes via direct deposit from 21 to 27; and
  --preparing for the 112th Congress.
            Supporting Current Systems
    IT supports Web FMIS users in all 140 accounting locations, the 
departments in the Disbursing Office (e.g., A/P, Accounting, 
Disbursements, Vendor Administration, and Front Office sections), and 
the Senate Committee on Rules and Administration Audit staff. The 
activities associated with this responsibility include:
      User Support.--Providing functional and technical support to all 
        Senate FMIS users; staffing the FMIS ``Ahelp <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c2c3d5cde6">[email&#160;protected]</a>''; answering 
        hundreds of questions; and meeting with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
      Technical Problem Resolution.--Ensuring that technical problems 
        are resolved;
      Monitor System Performance.--Checking system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
      Security.--Maintaining user rights for all ADPICS, FAMIS, and Web 
        FMIS users;
      System Administration.--Designing, testing, and making entries to 
        tables that are at the core of the system;
      Support of Accounting Activities.--Performing functional testing 
        and production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year are 
        archived for reporting purposes and removed from the current-
        year tables;
      Support of the Senate Committee on Rules and Administration 
        Postpayment Voucher Audit Process.--Providing the data from 
        which the Committee on Rules and Administration Audit staff 
        selects a statistically valid sample of vouchers for $100 or 
        less. In this way, the Committee on Rules and Administration 
        Audit staff review vouchers sanctioned under authority 
        delegated to the Financial Clerk; and
      Training.--Providing functional training to all Senate FMIS 
        users.
Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. Activities for changes to the 
infrastructure include testing of all functionality prior to 
implementation and validating critical functionality 
postimplementation. During 2010, the SAA implemented two major upgrades 
to the FMIS infrastructure. These included upgrading the database, DB2, 
to version 9 in a two-step process, and upgrading the mainframe 
operating system to version 1, release 11, and at the same time, 
changing the mainframe security system to a Resource Access Control 
Facility.
Maintaining Contact With System Users To Ensure Their Needs are Met
    Communicating with our large user base is critical to provide the 
excellent service. IT meets on a regularly scheduled basis with 
representatives from Accounting, A/P, and the SAA. In addition, IT 
meets with user groups as it gathers requirements for new 
functionality. Meetings are advertised, and users self-select to 
participate. This year, IT met with the administrative managers, chief 
clerks, and their staff who prepare the ESRs to discuss changes to the 
data entry for the ESRs. Additionally IT met with SAA users who prepare 
vouchers to discuss voucher and inquiry functionality developed in the 
second phase of ``WebPICS'', a Web-based front end to ADPICS with 
additional functionality developed to address SAA user needs.
Managing and Testing New System Development
    During 2010, IT supervised development, performed extensive 
integration system testing, and implemented changes to FMIS subsystems. 
The implementation and production verification activities were 
completed over a weekend in order to minimize system downtime to users. 
Since 2006, multiple sub-system upgrades have been consolidated into 
two or three releases each year. This reduced the amount of regression 
testing required. In order to accurately reflect the variety of changes 
in each release, the releases are now numbered by fiscal year. During 
2010, Disbursing implemented the following three major releases:
  --FMIS r2010-1, implemented in January 2010;
  --FMIS r2010-2, implemented in August 2010; and
  --FMIS r2011-1, implemented in November 2010.
    In addition, IT worked on functionality that will be included in 
future releases, of which one, the FMIS Imaging Product Analysis is 
especially important.
            FMIS 2010-1
    FMIS 2010-1 was implemented in January 2010. This release included 
a small number of enhancements for WebFMIS users including an automated 
password reset feature, a warning to the ESR user when their document 
violates the 60-day election rule, adding graphs to the Web FMIS 
summary reports, and implementing a pilot of electronic invoice 
functionality, which allows a user to easily create credit card 
vouchers based on invoices received electronically from the Senate's 
credit card vendor. A pilot of the electronic invoice (EI) 
functionality began in January and was offered to all offices in June 
2010. By the end of 2010, 33 offices were using the EI functionality.
    The main focus of this release was implementing WebPICS, which 
enables SAA users to access ADPICS functionality through a Web-based 
front end, and provides additional functionality, such as a robust 
search function. The SAA follows a structured procurement process that 
includes creating requisitions, creating purchase orders from 
requisitions, receiving goods, entering invoices, and creating vouchers 
from purchase orders. For many years, the SAA has used ADPICS, a 
mainframe system, to perform these activities. This was especially 
difficult for occasional users. Using a variety of technologies, the 
WebPICS project replaces use of ADPICS with access to user-friendly Web 
pages. This release, the first of three planned releases, focused on 
the needs of requisitioners and requisition approvers, who are 
occasional users, and included:
  --a robust requisition search function, through which a user can find 
        a requisition, its related purchase order, any change orders, 
        and the document's history, by entering minimal information, 
        such as the create date, the commodity code used, by whom it 
        was created or the department for whom it was created;
  --links to purchase orders via a viewer that formats mainframe data 
        into Web pages;
  --a streamlined requisition create function that displays data from 
        multiple ADPICS screens on three tabs:
    --basic information on the header tab;
    --what is being requested and who will pay for it (i.e., commodity 
            information, commodity specifications, and the accounting 
            information) on the items tab; and
    --additional information for the vendor on the terms tab;
  --a streamlined requisition change order function that shows, on the 
        same page, the old information and the new information;
  --look-up tables for selecting, rather than typing, information such 
        as commodity codes and accounting codes when searching for and 
        creating requisitions; and
  --use of the existing Web FMIS inbox to identify, check out, view, 
        and approve or reject requisitions.
    A pilot of SAA requisitioners and requisition approvers began using 
WebPICS in early January 2010, and all requisitioners and approvers 
were trained and began using this functionality by the end of April, 3 
months ahead of schedule.
            FMIS 2010-2
    FMIS 2010-2 was implemented in August 2010. This release included a 
small number of enhancements for ESR users, but was focused on 
implementing new functionality for the SAA A/P process (e.g., receipt 
of goods, invoice processing and approval, voucher creation, and 
approval). Processes were simplified by automated retrieval of data 
from existing purchase orders. WebPICS provides pop-up windows where 
users enter the required data which the system uses to retrieve 
information from the purchase order. The user simply verifies retrieved 
data and adds information necessary to complete the process to create 
receiving reports, invoices and vouchers for payments against purchase 
orders.
    Four additional new search windows provide ability to easily find 
original and related documents, including related images stored by SAA 
Finance in OnBase:
  --receiving report search;
  --invoice voucher search;
  --expenditure search, which provides the ability to search for 
        expenses processed within WebFMIS, WebPICS, and via upload, the 
        combination of which was not previously available in one query; 
        and
  --purchase orders search by vendor.
    The third WebPICS release, which will focus on purchase order 
creation and approval is scheduled for implementation in the spring of 
2011.
            FMIS 2011-1
    FMIS 2011-1 was implemented in November 2010 and included:
  --Adding two fields, invoice date and invoice receipt date, to the 
        WebFMIS document create page and to the document search 
        criteria page for all users;
  --Ability for SAA users to search by project code and job code using 
        the document search criteria page;
  --Ability for users using the electronic invoice functionality to 
        search by traveler's name using the document search criteria 
        page; and
  --Introduction to a pilot group a new version of the ESR, ``Line Item 
        Entry''.
    This version enables users to select 1 of 3 travel ESR types:
  --single trip;
  --multiple trips; or
  --interdepartmental travel, which requires different information 
        depending on the type.
    Users then create an ESR in a more simplified format, entering 
expenses by date, location, and expense type on a line-by-line basis. 
The locations are selected from a list of cities provided by the U.S. 
Postal Service. This format enables the itinerary to be built 
automatically from the locations entered for each expense and is 
produced in the format that complies with the standards for the Report 
of the Secretary. This version of the ESR is expected to reduce 
rekeying by staff and reduce the corrections to itineraries made by 
office managers, chief clerks, and the Disbursing Office's A/P staff. A 
pilot of 10 offices and committees began in November 2010. 
Additionally, this version has been given to all new Senators of the 
112th Congress.
FMIS Imaging
    During 2008, Disbursing implemented a prototype imaging system in 
which paper vouchers and supporting documentation were imaged by 
Disbursing staff and routed electronically. The hands-on experience of 
this prototype was especially useful in refining system requirements. 
Under the FMIS Imaging Product Analysis project, begun in 2009 and 
completed in 2010, software for the image database and image viewer was 
selected, and imaging and electronic signature requirements were 
finalized. This information was coordinated with a separate SAA smart 
card ID project; the smart cards will be used for electronic 
signatures.
    In October 2010, a task order for the adding document imaging and 
electronic signatures to WebFMIS was signed. This task order outlines 
work to be completed between now and the spring 2013 in three phases 
(six releases), including:
      Phase 1.--Imaging only pilot (spring 2011);
      Phase 2.--Office imaging and signatures pilot (summer 2011), 
        extended pilot (winter 2012), and full roll-out (summer 2012); 
        and
      Phase 3.--Staffer imaging and signatures pilot (winter 2012) and 
        rollout (spring 2013).
Preparing for the 112th Congress
    Using statistical information from fiscal year 2009 and fiscal year 
2010, IT prepared for each new Senator in the 112th Congress (including 
those whose terms began at the end of the 111th Congress) budget 
information based on the spending patterns for the 111th Congress. 
Additionally, IT participated in the planning sessions for the new 
office manager training at which Disbursing presented an outline for 
training and a sample quick reference guide regarding Senate financing. 
The WebFMIS training schedule for the first quarter of 2011 was 
revamped to include Web FMIS classes every 2 weeks instead of once a 
month.
Planning
    The Disbursing IT department performs two main planning activities:
      Schedule Coordination.--Planning and coordinating a rolling 18-
        month schedule; and
      Strategic Planning.--Setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2010, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
      Project-specific Meetings.--A useful set of project-specific 
        working meetings, each of which has a weekly set meeting time 
        and meets for the duration of the project (e.g., archive/purge 
        meetings and WebFMIS budget function meetings); and
      Technical Meetings.--A weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
            Strategic Planning
    During 2010 Disbursing drafted a 5-year schedule based on earlier 
meetings to ``envision the future''. This is still under discussion and 
review and will be affected by the schedule for implementing a new 
payroll system, which will require substantial changes to current 
systems, including the interface from payroll into the General Ledger 
(FAMIS) of payroll expenditures and projections, the interface from the 
payroll system into the master vendor file (in FAMIS), and the payroll 
reports provided to the offices via WebFMIS.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003, and includes 
developing the task orders with contractors, overseeing their work, and 
reviewing invoices. In 2010, the following two new task orders were 
executed:
      Service Year 2011 Extended Operational Support.--Covers 
        activities from September 2010 to August 2011; and
      FMIS Imaging Pilot.--Covers tasks for adding document imaging and 
        electronic signatures to WebFMIS. This task order outlines work 
        to be completed between now and the spring of 2013 (six 
        releases in three phases), and provides functionality for the 
        Secretary and the SAA, office managers/chief clerks, the 
        Disbursing Office A/P and Accounting staff, and Senate staff 
        who prepare ESRs (e.g., staff who travel).
    In addition, work continued under two task orders executed in prior 
years:
  --Service year 2010 Extended Operational Support (covered activities 
        from September 2009 to August 2010); and
      FMIS Imaging Product Analysis.--Analyzed what software will be 
        used for paperless voucher processing, including managing 
        images, viewing images, annotating images and reading smart 
        cards, which will have a component of the electronic signature.
Administering the Disbursing Office's LAN
    The Disbursing Office continued to administer its own LAN, which is 
separate from the network used by the rest of the Secretary's Office. 
It is used by more than 50 staff. Upkeep of the LAN infrastructure, 
including performing routine daily tasks and replacing equipment 
regularly, is critical to providing services. In addition, there are a 
number of specialized administrative applications that are housed on 
the Disbursing Office LAN. During 2010, LAN administration activities 
included:
  --maintaining and upgrading the Disbursing Office's LAN;
  --installing specialized software; and
  --maintaining projects for the payroll and benefits section.
            Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including:
  --installing OnWeb, a Web-based 3270 emulation software;
  --imaging critical PCs for easy recovery from hard disk crash or 
        other PC failure;
  --replacing SNAP servers with Buffalo Terra stations; and
  --installing a video teleconferencing (VTC) unit in the Disbursing 
        Office conference room.
            Installing Specialized Software
    Disbursing is responsible for sending direct deposit payments to 
the Federal Reserve Bank (FRB). During 2010, IT updated Disbursing's 
access to the FRB, due to a change in FRB-supplied equipment and 
ensured that access was functioning from the Alternate Computing 
Facility (ACF).
            Maintaining Projects for Payroll and EBSs
    During 2010, Disbursing supported three specialized applications 
for the Payroll and EBSs:
  --IT continued to support the imaging system developed by SAA staff. 
        This system electronically captures and indexes payroll 
        documents submitted at the front counter, and is critical for 
        the Payroll and EBSs. At the end of 2009, a new version of this 
        software was installed and only minor updates were needed in 
        2010.
  --In addition, the systems administrator moved the CLER application, 
        a health insurance benefits validation service, to a new 
        standalone personal computer and worked with the SAA Network 
        Operations staff to establish point-to-point security for 
        access to the Department of Agriculture.
  --The Government Retirement Benefits (GRB) software, which enables 
        benefits counselors to easily estimate retirement benefits 
        based on different scenarios, is now available to Disbursing 
        staff.
Coordinating the Disbursing Office's Disaster Recovery Activities
    Disbursing anticipates testing in 2011 to include fail-over of its 
systems to the ACF, activity at the ACF, and a new activity: fail-back 
of the changed production data.
                administrative offices
Chief Counsel for Employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
nonpartisan office established at the direction of the Joint Leadership 
in 1993 after enactment of the Government Employee Rights Act, which 
allowed Senate employees to file claims of employment discrimination 
against Senate offices. With the enactment of the Congressional 
Accountability Act of 1995 (CAA), as amended, Senate offices became 
subject to the requirements, responsibilities and obligations of 12 
employment laws. The CAA also established the Office of Compliance 
(OC). Among other things, the OC accepts and processes legislative 
employees' complaints that their employer has violated the CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the 140 offices 
of the Senate is an individual client of the SCCE, and each office 
maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Union drives, negotiations, and unfair labor practice charges;
  --Americans with Disabilities Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation, Mediations, Alternative Dispute Resolutions
    SCCE defends each of the Senate employing offices in all court 
actions, hearings, proceedings, investigations, and negotiations 
relating to labor and employment laws. SCCE handles cases filed in the 
District of Columbia and cases filed in any of the 50 States.
Compliance With OSHA and ADA
    The CAA mandates that, at least once each Congress, the OC shall 
inspect each Senate office to determine whether each office is in 
compliance with the OSHA and the public accommodation portion of the 
ADA. The CAA authorizes the OC to issue a public citation to any office 
that is not in compliance.
    SCCE provides legal assistance and advice to each Senate office to 
ensure that it is complying with the OSHA and the ADA. SCCE also 
represents each Senate office during the OC inspections and advises and 
represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2010, SCCE pre-inspected 1,225 Senate rooms to ensure that 
Senate offices are complying with the OSHA and the ADA. Inspections 
included all Member offices, leadership and committee offices, offices 
of the SAA, offices of the Secretary of the Senate in the Capitol and 
the Capitol Visitor Center (CVC), as well as the Hart, Dirksen, and 
Russell Senate Office Buildings and offsite buildings used by the 
Senate.
    During 2010, the enthusiasm and participation of Senate offices in 
SCCE's pre-inspection safety program resulted in perfect safety records 
for 64 Member offices and 13 committees. At the conclusion of the 
inspections, no Senate office had any significant safety problem, and 
no citations were issued during the 111th Congress.
Training Regarding Legal Responsibilities and Employee Rights
    An important part of the legal services the SCCE offers is 
educating Senate managers of their obligations and employees' rights 
under the employment laws that govern Senate offices. SCCE regularly 
conducts legal training for Senators, Senators-elect, and their staff, 
Senate employees, and Senate interns.
    In 2010, the lawyers of SCCE gave 69 legal seminars to Senate 
offices, including, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Senators-elect Orientation: Managing Your Offices in Compliance 
        with Employment Laws;
  --Staff of Senators-elect: How to Set Up and Manage a Senate Office 
        in Compliance with the Law;
  --Hiring the Right Employee: Advertising, Interviewing and Conducting 
        Background Checks without Violating the Law;
  --How to Conduct I-9 and E-Verify Checks on New Hires;
  --Common Employment Law Mistakes Managers Make;
  --Evaluating, Disciplining, and Terminating Employees without 
        Violating the Law;
  --Sexual Harassment in the Workplace: What is Prohibited and What Are 
        Employees' Rights and Obligations;
  --A Manager's Guide to Preventing and Addressing Harassment in the 
        Workplace;
  --Diversity in the Workplace: The Americans with Disabilities Act: 
        What Managers Must Know about Complying with the Law;
  --Military Service Academies Interviewing in Compliance with the Law;
  --The Requirements of the Family and Medical Leave Act; and
  --The Requirements of the Equal Pay Act.
    In addition to the above 69 seminars, SCCE conducted a series of 
monthly seminars covering all major employment laws that govern Senate 
offices. The purpose of the seminars was to educate Senate management 
staff about their responsibility to ensure that their respective 
offices comply with the CAA. The series was open to all chiefs of 
staff, staff directors, administrative directors, chief clerks, and 
office managers. Individuals who completed the series received a 
certificate of completion from the Secretary of the Senate.
    SCCE, working with the Senate Radio and TV Studio, now streams its 
seminars to all Senate State offices so that the managers in State 
offices can participate electronically in all SCCE live seminars. In 
addition, SCCE electronically stores SCCE seminars to allow Senate 
managers who were unable to attend a seminar to review it 
electronically from their desk monitors at a later date. Finally, to 
ensure that all Senate managers, whether in Washington, DC or a State 
office, can easily learn about and register for SCCE's seminars, SCCE 
added an online seminar registration process to its Web site.
Legal Advice
    SCCE meets daily with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsel 
at their request to provide legal advice. For example, on a daily 
basis, SCCE advises Senate offices on matters such as interviewing, 
hiring, counseling, disciplining, and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and the OSHA; 
and management's obligation to give leave to employees for military 
service. In 2010, the SCCE had more than 1,695 client legal advice 
meetings.
    Also, SCCE provides legal assistance to Senate offices to ensure 
that their office policies, job descriptions, interviewing guidelines, 
and performance evaluation forms comply with the law and are updated as 
employment laws change. In 2010, SCCE prepared 229 policy manuals for 
Member offices and committees.
Union Drives, Negotiations, and Unfair Labor Practice Charges
    In 2010, the SCCE provided guidance to managers and supervisors 
regarding their legal and contractual obligations under union 
contracts.
Environmental, Cost, and Space Savings
    It has now been 10 years since SCCE became the first Senate office 
to convert to a ``paperless'' office. By doing this, SCCE has benefited 
the environment, cut costs, cleared office space, reduced storage 
needs, and become more efficient. Having accomplished that project, 
SCCE turned its attention to eliminating hard copy legal books in its 
office. To this end, in 2009 SCCE eliminated 50 percent of its hard 
copy legal library. In 2010, SCCE further reduced its book inventory by 
20 percent. SCCE achieved this through a combination of scanning and 
converting to electronic books. In addition to the above-mentioned 
benefits, this project saves the office more than $6,000 annually, has 
freed approximately 288 square feet of office space, and has saved time 
by eliminating the need for staff members to update legal books on a 
weekly basis with new paper inserts.
            conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include:
  --deacidification of paper and prints;
  --phased conservation for books and documents;
  --collection surveys, exhibits, and matting; and
  --framing for the Senate Leadership.
Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2010 conservation 
treatments were completed for 173 volumes of a 7,000 volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,410 volumes.
Preservation
    The Office of Conservation and Preservation completed 106 volumes 
of House and Senate hearings and Congressional Records for the Senate 
Library. These books were rebound with new end sheets and new covers 
using the old spines when possible.
Committees
    Conservation and Preservation assisted the Committee on the Budget, 
Select Committee on Ethics, and the Joint Economic Committee with their 
books being sent to the GPO for binding.
Exhibition
    Conservation and Preservation assisted the Senate Historical and 
Curator's offices in the installation of a new exhibition to mark the 
150th anniversary of the Civil War. The exhibition replaced the 
Inauguration exhibit in the Senate wing's first floor connecting 
corridor.
                       curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
Collections, Commissions, Acquisitions, and Management
    This year 294 objects were accessioned into the Senate Collection. 
Many of these historic objects were deposited with the Curator's Office 
to ensure their safekeeping. These included a ticket from the 1945 
Presidential Address to Congress; 13 artifacts from the 1939 
congressional welcome of King George VI and Queen Elizabeth; 10 items 
from the 1941 visit of Prime Minister Winston Churchill; 17 artifacts 
from the 1943 visit of Madame Chiang Kai-Shek; various tickets, 
programs, badges, passes, and other objects from 10 different Inaugural 
ceremonies held between 1925 and 1989; 25 objects from funerals held in 
the Senate Chamber; items from the 1953 memorial service for Senator 
Robert A. Taft held in the Rotunda; and tickets from the Senate 
nomination hearing for Elena Kagan as Associate Justice of the Supreme 
Court of the United States.
    A painting of Senator Bill Frist by artist Michael Shane Neal was 
completed as part of the Senate Leadership Portrait Collection. It will 
be unveiled in March 2011.
    The most significant addition to the collection was the acquisition 
of four small paintings by 19th century artist Constantino Brumidi, 
created in preparation for frescoes in the Senate Reception Room (S-
213) and the Senate Committee on Military Affairs and Militia (S-128). 
The Senate had long been aware of these historic oil sketches, which 
formed the largest known private collection of Brumidi's Capitol works.
    Thirty-nine new foreign gifts were reported in 2010 to the Select 
Committee on Ethics and deposited with the Senate Curator's office on 
behalf of the Secretary of the Senate. The office currently is 
responsible for 211 foreign gifts, which are catalogued and maintained 
in accordance with the Foreign Gifts and Decorations Act. Appropriate 
disposition of 80 foreign gifts was completed following established 
procedures.
    The Office of Senate Curator continued to document and care for the 
historic Russell Senate Office Building furnishings. In addition, the 
search continued for Russell Senate Office Building furniture located 
in private collections, museums, and libraries, and another 1909 
partner desk was returned to the Senate from the University of Nevada 
at Reno. In addition, the office drafted guidelines for the care of 
these century-old furnishings to prevent the physical degradation of 
the furniture, and, when appropriate, allow the pieces to be restored 
to their original 1909 appearance.
    The Curator's Office continued to work with the CVC project staff, 
AOC representatives, and their consultants to resolve problems with the 
heating, ventilating, and air conditioning (HVAC) equipment in the 
Curator's two CVC collection storage spaces. In June 2009, consultants 
determined that the HVAC equipment installed in the new storage rooms 
was unable to meet environmental requirements and needed to be 
replaced. New equipment was ordered and installed in the larger of the 
two rooms. Fine tuning of this system is nearing completion. 
Replacement of the HVAC equipment in the smaller room began in January 
2011. These HVAC systems are essential to the Curator's mission to 
preserve the Senate's significant collections.
    Maintenance of the Senate's historic clocks continued under a 
program established in 2009 to provide regularly scheduled care. Since 
the Curator's staff assumed responsibility last year for winding the 
Senate's historic clocks, the opportunity to closely observe their 
function has helped alleviate recurring problems with timekeeping.
    The care of collections on display has benefitted from the addition 
of an automated maintenance record system that is now part of the 
Senate collection database. Regular cleaning and care of the art and 
historic furnishings is now tracked and recorded. Staff is alerted when 
an object is due for care based on this new automated maintenance 
program, thus saving considerable time when scheduling and planning 
work.
    The office enhanced its emergency preparedness for the collection 
by identifying local disaster recovery companies to assist in a 
disaster, and finalizing an emergency disaster guide. The guide 
provides contact information on local art handlers, shippers, and 
conservators, as well as information on how to address the care of 
specific materials in the event of fire, water, infestation, or a 
chemical emergency. Additionally, all new loan agreements were 
digitized in a portable document format for easy retrieval off-site, 
and a map noting the current location of loaned objects was created to 
allow quick identification of loans that may be affected in an 
emergency situation.
    The office continued its program of photographing all objects for 
the collection database. More than 50 objects were photographed, and a 
total of 859 images out of 4,598 were resized for consistency. Staff 
also worked with the Senate Photographic Studio on several special 
projects, including documenting new signatures in the Senate Chamber 
desk drawers, recording conservation and installation of artwork, and 
photographing historic spaces. Such documentation is important for 
recordkeeping, disaster preparedness, use on Senate.gov, and for 
publications promoting the Senate's collections.
    In keeping with scheduled procedures, all Senate collection objects 
on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178 (108th Congress, 1st session), the 
office submitted inventories of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The 
inventories, which are submitted every 6 months, are compiled by the 
Curator's Office with assistance from the SAA and AOC's Superintendent 
of Senate Office Buildings.
    Both recordkeeping and protection of the Senate's historic mirror 
collection received considerable attention. The object files and 
database entries for all 94 mirrors were reviewed and updated based on 
established registration standards. Taking advantage of renovation 
work, the office installed protective plinths on two mirrors. By 
raising the mirrors from the mantels and creating a larger footprint, 
the plinths shield the mirror frames from spills, damage from objects 
displayed on the mantels, and routine dusting. In addition, 
implementation of a plan to provide routine, on-site professional care 
for the Senate's gilded frames, including mirror and picture frames, 
began in 2010. A list of treatable damage was developed and several 
frames repaired. Seventeen mirrors were also cleaned.
    The office coordinated the approval by the Senate Committee on 
Rules and Administration and the Commission on Art of mirror movement 
guidelines. The guidelines safeguard these important decorative objects 
from unnecessary damage due to excessive handling, and preserve each 
mirror's significance by retaining its historic association with a 
room.
    Staff worked with the SAA Cabinet Shop to develop a list of the 
multiple components of the writing boxes that are part of the Senate 
Chamber desks. A computerized drawing of one of the boxes was completed 
to aid in the work. Many of these writing boxes have sustained damage 
over the years, and a comprehensive survey is needed to prioritize 
repairs. Once the survey is completed, the Cabinet Shop will begin 
refurbishing the boxes.
    The official Senate chinaware was used at 16 receptions for 
distinguished guests, both foreign and domestic, including a luncheon 
for the King of Jordan, a tea for the President of Russia, and a tea 
for the President of Haiti. The Secretary's china was inventoried and 
used at three receptions sponsored by the chairman of the Senate 
Foreign Relations Committee.
Conservation and Restoration
    In addition to the regular maintenance required for the Senate's 
historic clocks, extensive conservation occurred on two clocks: the 
``Ohio'' clock and the architectural shelf clock in the Old Senate 
Chamber. Both clocks have significant histories, and are exceptional 
examples of 19th century American clock making.
    The ``Ohio'' clock was purchased from Thomas Voigt of Philadelphia 
in 1816, to be used in the Senate Chamber after renovations were 
completed following the burning of the Capitol by the British. After 
194 years of continuous use, accumulated grime, layers of varnish, and 
repairs had taken their toll on the case and the eagle. Conservators 
conducted microscopic studies of the finish layers that had built up 
over time. Their findings provided new and exciting information about 
the clock, and were the basis for re-gilding the historic eagle. The 
clock's movement also required extensive repairs, especially to the 
hands and the timekeeping mechanism. As a result of this conservation, 
the ``Ohio'' clock now accurately reflects its 19th century appearance, 
and, it is hoped, will continue to run for another 200 years.
    The architectural shelf clock was purchased from the Bailey and 
Kitchen Company of Philadelphia in 1846 to serve as the timepiece for 
the Old Senate Chamber following removal of the ``Ohio'' clock. The 
Bailey clock needed thorough cleaning and repair, as well as 
replacement of material that has worn away over time due to continuous 
use. During the conservation of the two clocks, the Curator's office 
obtained new information about their physical histories that could only 
be discovered during the course of treatment.
    A condition assessment was completed in order to develop a 
comprehensive scope of work for the restoration of the Senate Chamber 
desk inkwells and sanders. These artifacts date to about 1930, and are 
starting to show their age. The evaluation helped identify damaged 
glass in need of replacement, broken or missing hinges, and corrosion 
to the metal and loss of patina. The next phase is to finalize a scope 
of work and select a conservator. Conservation is projected to begin in 
2012 when other work in the chamber is scheduled.
    Three portraits recently acquired for the Senate Leadership 
Portrait Collection received preservation treatment. The portraits of 
Senators Robert C. Byrd, Tom Daschle, and Trent Lott were given a final 
protective coating of varnish, which is done only after the paint is 
completely dry.
    The office began the restoration of the eight Flemish oak benches 
purchased in 1899 for the Senate Reception Room. Over time, their 
carved back panels had been removed, their seats and backs upholstered, 
and they were poorly refinished multiple times. The conservation 
process included research into the original carved panels and finish, 
and the difficult repair of the extensive upholstery damage. Once 
returned to the Senate, the benches will reflect their original 
appearance, and be ready to provide another century of service.
Historic Preservation
    The Senate's historic preservation program seeks to formulate a 
solid preservation policy reflective of the Senate's interests and the 
need to preserve the Capitol's historic fabric and historical artistic 
intent. Through various initiatives, the preservation program has 
positioned itself as a valuable resource for the Senate, ensuring that 
all projects are carefully considered and weighed in light of sound 
preservation practices.
    The Curator's Office continued to work closely with the AOC and the 
SAA to review, comment, plan, and document Senate-side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Such construction and conservation efforts 
included:
  --energy lighting upgrades;
  --first responder antennae installation;
  --mural restoration;
  --smoke purge system installation;
  --wall and ceiling restoration;
  --scagliola conservation;
  --third floor plaster repair; and
  --the Brumidi Corridors restoration.
    Through this work, the Curator's Office was able to ensure that the 
highest preservation standards possible were applied to all Capitol 
projects. The Curator's office continued its participation in a working 
group (whose other members were the SAA, AOC, and Rules Committee) to 
engage in several building projects to conserve and protect public 
spaces and historic assets. In areas with conserved scagliola, the 
office worked with the SAA to develop and install various surface 
protection measures. Similarly, the Curator's Office worked with the 
SAA to devise a solution to the furniture in the Brumidi Corridors 
north door entrance. The challenging Senate Reception Room restoration 
and rehabilitation project, developed by the Senate Curator and the AOC 
Curator, has successfully moved forward. A pilot conservation project 
was initiated by the AOC for part of the decorative wall design. The 
Reception Room has a very complex pattern of surface treatments that 
involve delicate toned glazes and precise application methods. The 
office arranged to have existing room condition drawings completed, 
surveyed the floor tiles, and placed informational signs in the room 
detailing the conservation. Once the pilot is completed in late 2011, 
the restoration of the remaining wall surfaces should proceed more 
quickly.
    Regarding the Brumidi Corridors restoration, the office assisted 
the AOC in garnering support for a comprehensive, time-bound plan for 
finishing the corridors. With the support of the Committee on Rules and 
Administration and Senate Commission on Art, it is hoped that this 5-
year plan can move forward in 2011. It will be a major achievement when 
these treasured corridors can be returned to their original artistry.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. The office staff worked with the USCP on the 
procedures developed to record the after-hours access to the historic 
chambers by current Members of Congress. Eighty-five requests were 
received from current Members for after-hours access to the Old Senate 
and Old Supreme Court Chambers.
    Of special significance in the Old Senate Chamber was the re-
enactment swearing-in ceremonies for five Senators, and the closed 
Senate session on the New START Treaty.
Loans to and From the Collection
    A total of 61 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and offices in 
the Senate wing of the Capitol. The staff returned five loans, 
coordinated six new loans, and renewed loan agreements for 34 other 
objects. More than 37 loans are projected to be renewed next year.
Publications and Exhibitions
    The Senate Commission on Art's enabling legislation (2 U.S.C. 2104) 
requires that ``at least every ten years'' a Senate document be 
published which lists all works of art, historical objects, and 
exhibits currently within the Senate wing of the Capitol and the Senate 
Office Buildings. The document was published this year with the 
assistance of GPO. Encompassing more than 4,000 works of art and 
artifacts, the inventory records the growth of the Senate collection 
over the last 10 years; demonstrates the office's concerted effort to 
acquire objects that enhance the collection; and provides a publicly 
accessible list of the entire collection.
    At the request of the Republican Leader's Office, the Curator 
worked with the Senate Historical Office to produce a booklet to 
supplement the existing Leader's suite brochure. The supplemental 
publication includes color images and descriptions on the art in the 
suite and highlights Kentucky connections to the suite's history.
    In recognition of the Congressional Gold Medal to be awarded to 
Constantino Brumidi, the office developed a publication on the 
Capitol's artist. Staff worked with GPO on the layout and design for 
the book, and the first two chapters have been completed. This 
illustrated publication will highlight new scholarship from historians, 
curators, and conservators about Brumidi's artistic endeavors in the 
Senate wing of the Capitol.
    In conjunction with the Senate Library and Senate Historical 
Office, staff installed two exhibits outside the newly remodeled 
Dirksen G-50 hearing room as requested by the Rules Committee. The 
exhibits were placed in the showcases built into the walls of the 
room's vestibule. One case highlights Senator Everett M. Dirksen, for 
whom the building was named; the other case features the building--its 
origins, construction, and architectural details.
    A new exhibition was installed to mark the 150th anniversary of the 
Civil War, replacing the Inauguration exhibit in the Senate wing's 
first floor connecting corridor. This project was a joint effort 
between the Senate Historical Office, Curator's Office, with assistance 
from the Office of Conservation and Preservation, GPO, and the AOC 
Paintings and Decorating Division. Traditionally, the story of the 
Civil War is told from the perspective of the President or his military 
commanders, but this exhibit illustrates the crucial role played by the 
Senate and its Members during this national crisis.
    Curator's staff finalized an online Web exhibit on Senate.gov 
dispelling myths and rumors often heard about Senate art. Seven 
different ``myths'' are included in the initial posting, featuring the 
most prominent and oft-repeated apocryphal stories. The office also 
increased its presence on the Web this year with a new section 
highlighting the Senate's decorative art collection. Seventy-two 
artifact pages were posted, from gilded mirrors and historic clocks, to 
Senate Restaurant china, snuff boxes, and other important Senate 
heirlooms. In addition, an online exhibition featuring artifacts 
related to funerals held in the Senate Chamber was posted; and a new 
Web section titled, ``Curator's Picks,'' highlighting the Curator's 
favorite works in the Senate Collection, will be completed shortly. 
Staff also proceeded with the design and outline for an historic spaces 
section for Senate.gov. When completed, the site will guide visitors 
through such treasures as the Old Senate and Old Supreme Court 
Chambers, the President's Room, and other significant historic spaces.
    At the request of the Committee on Rules and Administration, and 
pursuant to S. Res. 53, the office installed a bronze plaque honoring 
the work of African-American slaves in building the U.S. Capitol. The 
plaque is located in the third floor east front connecting corridor of 
the Senate wing, where a portion of the Capitol's original 1800 
exterior wall can be seen.
Collaborations, Educational Programs, and Events
    The Curator's staff assisted the National Archives again this year 
with two exhibits for display in the vault at the Center for 
Legislative Archives. Objects related to the Senate Chamber's 150th 
anniversary continued on display, and were replaced with an exhibition 
of objects related to Constantino Brumidi.
    The Curator and staff assisted with numerous CVC-related projects 
throughout the year. The Curator, Associate Curator, and administrator 
provided support for the Congressional Historical Interpretation 
Program (CHIP), including developing a new e-learning program and 
guidebook; participated in the morning ``briefings'' to the Capitol 
Guide Service to better inform them on Senate art and history; 
conducted exhibition lectures for the public; reviewed exhibition text 
and images; and at the request of the CVC oversight for the Senate, the 
Senate Committee on Rules and Administration, continued to work closely 
with the House Curator and AOC Curator to review products and 
publications for the CVC gift shop.
    The Senate Curator assisted the AOC Curator and House Curator on 
various art-related research and projects, most notably the Rosa Parks 
commission, display of the House Bierstadt paintings, and conservation-
related matters. The Senate Curator and staff also gave lectures on the 
Senate's art and historical collections to various historical groups 
and art museums. The staffs further assisted with the Secretary's 
Senate staff lecture and tour series and were regular contributors to 
Unum, the Secretary's newsletter.
Office Administration and Automation
    The collections management database was reviewed, assessed, and 
improved to include the reconfiguration of the artist information, 
updates to loan and inscription records, and the creation of an object 
maintenance table. This work will allow more efficient search 
capabilities, a stable database, and an easier way of transferring 
information into reports.
    In the area of file management, the Curator's staff completed a 
major restructuring of the office's electronic files, applying a new 
organizational matrix and file naming protocols. Combined with this 
effort, the office developed and implemented project close-out 
procedures. This standardization and consistent records collation has 
greatly improved the usability of the office resources, streamlined 
office recordkeeping, and enhanced research capabilities.
COOP Planning
    In the area of COOP preparedness, the office conducted its annual 
table top exercise and trained staff to use remote desktop access 
through a series of work-from-home exercises. The exercises proved 
effective in identifying problems and troubleshooting issues before a 
true emergency occurs.
Objectives for 2011
    Conservation and preservation of the Senate's collections continue 
to be a priority, and several major projects are planned for 2011. Two 
of the Senate's most iconic works in the Old Senate Chamber will be 
restored:
  --the Eagle and Shield sculpture; and
  --the portrait of George Washington by Rembrandt Peale.
    In preparation, a detailed review of past treatments and analyses 
by various conservators was undertaken in 2010. A scope of work will be 
developed and a panel of experts will assist in the review process. The 
conservation schedule will be coordinated with repairs planned in the 
Old Senate so that the works of art are out of harm's way when 
renovations begin. Additionally, conservation of the Senate Reception 
Room benches will be completed.
    Based on the findings from a condition assessment of the Senate's 
collection of historic clocks completed in 2008, the Curator's Office 
will continue to schedule necessary conservation for the clocks to 
avoid deterioration of their parts and their function as accurate 
timepieces. The tall case clock in the Vice President's Ceremonial 
Office is next scheduled for treatment; both the case and movement will 
require conservation.
    Staff will begin the survey of the Senate Chamber desk writing 
boxes, with the assistance of the SAA Cabinet Shop, and develop a plan 
for their repair and ongoing maintenance. The interior and exterior of 
the writing boxes will be assessed for condition, and the various 
components will be inspected and documented. Repair work will begin in 
2012, depending on the Senate's schedule.
    With regards to the care of the Senate's historic mirrors, staff 
will inventory the historic Russell House Office Building mirrors and 
initiate a maintenance program for the nine historic oversized mirrors 
located in committee hearing rooms. In order to increase the skill and 
knowledge of the Curator's Office, several staff will participate in 
hands-on training related to basic gilded frame repair. This will 
reduce the need for professional conservators, improve the response 
time to urgent repairs, and save the Senate money over time.
    In the area of collections management, the office will continue 
reviewing photographs in the collections database to ascertain that 
each object has a documentation photograph and that it meets required 
size parameters.
    The office will further efforts to locate and recover historic 
artifacts associated with the Senate, specifically tickets and programs 
to Senate Chamber funerals and historic furnishings associated with the 
Senate and Supreme Court (when it met in the Capitol).
    The Curator's staff will confer with the AOC regarding preservation 
issues related to Senate restoration and remodeling projects, 
disseminate project information to the Senate, develop preservation 
projects at the request of the Senate, conduct condition inspections, 
and arrange necessary maintenance. The bulk of the office's project 
management will involve advancing the restoration and rehabilitation of 
the Brumidi Corridors, the Senate Reception Room, and the Strom 
Thurmond Room.
    With the assistance of GPO and the AOC Senate Superintendent, the 
Curator's Office will create a new educational exhibit and brochure for 
the sculpture Mountains and Clouds, located in the Hart Senate Office 
Building atrium. The exhibit will feature information on the artist, 
sculpture, conservation, and the maquette, or scale model. An exhibit 
will also be mounted for the four new Brumidi paintings. The sketches 
will be displayed in a public area, so that staff and visitors can 
appreciate these important works of art.
    Other education efforts will focus on Senate.gov. Staff will 
continue to add objects to the decorative art section, as well as 
update the Senate Chamber desk site to reflect the new seating 
arrangement for the 112th Congress. A Web supplement will be added to 
the United States Senate Catalogue of Fine Art, highlighting the art 
collected by the Senate since the catalogue was published in 2002. 
Additionally, the office will develop a schematic and assemble 
resources for posting the historic spaces site. The first room targeted 
will be the Old Senate Chamber. The historic spaces site will feature 
the historical, artistic, and decorative elements of each space, as 
well as restoration details where applicable.
    The collections management database will be reviewed by the office 
to determine if it can continue to serve the Senate's growing needs. 
The collections database will also be backed up, cloned, and compressed 
on a regular basis to prevent further corruption or potential loss of 
data.
    The office maintains a digital documentation database of all 
legislation, precedents, and procedures related to the Senate 
Commission on Art and Senate Curator's Office. These electronic records 
will be upgraded and implemented with indexes and full annotations, 
allowing easier search capabilities and access during a COOP emergency.
    Also in the area of COOP preparedness, the office will conduct its 
annual table top exercise, will refine and improve the navigability of 
its online COOP plan, and will continue with its series of work-from-
home exercises to best prepare the office for an emergency situation. 
Finally, the office will plan for any crisis that may affect the 
Senate's collections by finalizing the disaster recovery guide to 
include the new collection storage areas in the CVC.
                education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the States. There are two branches within the 
office: Education and Training and Health Promotion. The Education and 
Training branch is responsible for providing management and leadership 
development, training on human resources issues and staff benefits, 
writing, editing, legislative research and time management, as well as 
offering technical training support for approved software packages and 
equipment and new staff and intern information in either Washington, DC 
or the State offices. This branch provides training as instructor-led 
classes; one-on-one coaching sessions; specialized vendor provided 
training; video teleconferencing; webinars; Internet-based training, 
documentation, job-aids, and quickcards. The Health Promotion branch 
provides seminars, classes, and screenings on health and wellness 
issues. This branch also coordinates an annual health fair for all 
Senate employees and plans blood drives every year.
Capitol Hill Training Events
    The Office of Education and Training offered 1,278 classes and 
events on Capitol Hill in 2010, drawing more than 10,000 participants. 
The registration desk handled more than 25,000 email and phone requests 
for training and documentation.
    The above total includes 438 customized training sessions for 1,937 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators, conflict resolution, and organizational 
development. The office provides individual consultation on Web site 
development and office systems training, as well as classes in resume 
and interviewing skills building for staff whose Members have died, 
announced their retirements, or been defeated.
    The Senate's Intern Program is also a focus of the office. The 
office provides training for intern coordinators as well as five 
orientation and training sessions for approximately 500 interns.
    The annual Senate Services Expo for Senate office staff had 35 
presenters from the offices of the Secretary of the Senate, SAA, AOC, 
USCP, and LOC providing an overview of their services to 250 staff. 
This is part of the orientation for new staff and the aides to the 
Senators-elect in addition to the seven orientation sessions held 
shortly after the November elections.
State Training Events
    The Office of Education and Training provided 85 learning 
opportunities to State offices for which 2,813 State staff registered.
    The office continues to offer the State Training Fair Program and 
video teleconferencing and webinars as a means to train State staff. In 
2010, two sessions of the State Training Fairs were attended by 63 
State staff. In addition, 62 State administrative managers and 
directors attended the State Directors Forum; 43 State staff 
participated in a a Constituent Services Forum. Education and Training 
also provided advanced all-staff meeting facilitation to more than 20 
offices that were attended by more than 650 staff. Additionally, the 
office offered 33 Video Teleconferencing classes, for which 1,707 State 
staff registered and 28 webinars that were attended by 288.
    To date, 692 State and Hill staff have registered and accessed a 
total of 1,534 different lessons and publications using Internet-based 
training covering technical, professional, and language skills. This 
allows staff in both the Hill and State to take training at their 
convenience. Education and Training also provides 54 Senate-specific 
self-paced lessons that have been accessed more than 3,200 times.
Health Promotion
    In the Health Promotion area, 3,070 staff participated in 56 
activities throughout the year. These activities included:
  --lung function and kidney screenings;
  --eight blood drives;
  --the Health and Fitness Day;
  --seminars on health-related topics; and
  --the Annual Senate Health Fair.
    Health Promotion also coordinates Weight Watchers, yoga, and 
Pilates sessions using its revolving fund. More than 260 staff 
participated in at least one of these programs.
                   gift shop
    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The gift shop serves Senators, 
their spouses, staffs, constituents, and the many visitors to the U.S. 
Capitol complex. The products available include a wide range of fine 
gift items, collectibles, and souvenirs created exclusively for the 
U.S. Senate.
Facilities
    In addition to three physical locations, the gift shop has an 
online presence on Webster, the Senate's Intranet. The Web site 
currently offers an increasing selection of products that can be 
purchased by phone, email, or by printing and faxing the order form 
provided on the Web site. Along with offering over-the-counter and 
walk-in sales, as well as limited Intranet services, the gift shop 
administrative office provides mail order service via phone or fax, and 
special order and catalogue sales via in person visit, email, phone, or 
fax.
    The gift shop maintains two warehouse facilities. The bulk of the 
gift shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While the SAA is in charge of the overall management 
of the SSF, the director of the gift shop has responsibility for the 
operation and oversight of the interior spaces assigned for gift shop 
use. Storing inventory in this centralized, climate-controlled facility 
provides protection for the gift shop's valuable inventory in terms of 
physical security as well as improved shelf life for perishable and 
nonperishable items alike.
    The second gift shop warehouse is maintained within the Capitol 
complex. This facility serves as the point of distribution of 
merchandise to the gift shop store and the Capitol gift shop counter, 
both of which have limited storage space. This warehouse accommodates 
the gift shop's receiving, shipping, and engraving departments, as well 
as supplying the inventory sold through the administrative and special 
order office.
Sales Activities
    Sales recorded for fiscal year 2010 were $1,566,884.32. Cost of 
goods sold during this same period was $1,275,359.81, accounting for a 
gross profit on sales of $291,524.51.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2009, the balance in the revolving fund was 
$2,969,766.74. The inventory purchased for resale was valued at 
$2,964,598.93.
Additional Activity
            Government Accountability Office (GAO) Audit
    At the request of the Secretary of the Senate, in September 2010, 
GAO conducted an inventory observation and audit of the gift shop 
financial operations. The established departmental procedures and 
policies implemented on a daily, monthly, and annual basis proved to be 
instrumental in the gift shop's achieving a positive review during the 
verbal feedback portion of the GAO exit interview. The recommendations 
provided by the GAO at the conclusion of their observation had either 
already been implemented or will be adapted as recommended as part of 
our future operational procedures.
            Environmental Fair
    The gift shop participated in both 2010 U.S. Senate Environmental 
and Energy Fairs sponsored by the AOC. Environmentally friendly 
products that were displayed included wooden flag and desk boxes, 
wooden pens, custom-designed wrapping paper produced from recycled 
paper, aluminum water bottles, biodegradable travel mugs, and a travel 
mug produced from 100 percent U.S. natural corn products.
            Selected Accomplishments in Fiscal Year 2010
                Official Congressional Holiday Ornaments
    The design and style of this year's Congressional Holiday Ornament 
reflected a new direction for the gift shop ornament program. No longer 
part of a 4-year series with a unifying theme, this year the ornament 
was created of cutwork metal assembled to create a three-dimensional 
scene. Colorful enameling on all sides completed the effect. The 2010 
holiday ornament is a winter scene of the east front of the Capitol on 
a snowy evening with a horse-drawn carriage that suggests a time in our 
history near the end of the 18th century.
    Sales of the 2010 holiday ornament exceeded 29,000 ornaments, of 
which more than 5,700 were personalized with engravings designed, 
proofed, and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined efforts of our administrative, 
engraving, and store staffs.
                Bookmarks
    New products introduced in 2010 included bookmarks depicting images 
of flowers and ground covers that are often planted by the AOC on the 
Capitol grounds. In all, there are 11 varieties of plants depicted on 
the canvas palettes. The images on these 2  8 canvas bookmarks 
serve as a unique reminder of the ever-changing appearance of the 
Capitol flower beds, and the anticipated timely changes that regularly 
occur because of the area's seasonal weather conditions.
                Webster Intranet Site
    The Web site continues to expand with the addition of new 
merchandise with assistance from the Senate Photography Studio. Product 
descriptions are written in house.
    The gift shop contributes an article highlighting products and 
services to each issue of the Secretary's UNUM newsletter. In turn, the 
Web site links to the electronic version of UNUM, a practice that has 
increased traffic to the Web site and may be responsible for an 
increase in the use of gift shop services by State offices.
Projects Recently Produced and New Initiatives for 2010
            CVC
    The Senate Gift Shop continued to supply them with a wide variety 
of inventory product, offering service when needed, and advice on 
purchase order, invoice, and operational processes.
            Congressional Plate Series
    The latest 8-year, four-plate series of the 112th, 113th, 114th, 
and 115th Congress has been produced. The 112th plate is currently 
being offered for sale. The plates for each of the future Congresses 
will be made available during that respective congressional session. 
This series has once again been designed and produced by Tiffany & Co. 
The designs depict art and architecture from four of the most 
historically significant rooms in the Capitol: the Senate 
Appropriations Room, Old Senate Chamber, Old Supreme Court Chamber, and 
President's Room.
                   historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by Members and staff, the media, scholars, 
and the general public. The Office staff advises Senators, officers, 
and committees on cost-effective disposition of their noncurrent office 
files and assists researchers in identifying Senate-related source 
materials. The historians keep extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,900 former 
and current Senators. The staff edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with key 
Senate staff. The photo historian maintains a collection of 
approximately 40,000 still pictures that includes photographs and 
illustrations of Senate committees and nearly all former Senators. The 
Office staff develops and maintains all historical material on the 
Senate Web site, Senate.gov.
Editorial Projects
            Sesquicentennial of the Civil War
    The Historical Office has engaged in a number of projects to 
commemorate the 150th anniversary of the Senate's role in the Civil 
War. Historians have teamed with the Senate Curator to produce an 
exhibit in the Capitol on ``The Senate's Civil War'', and have assisted 
the staff of the CVC in selecting items for display related to the 
Civil War and Reconstruction. The historians have also prepared a 
booklet for distribution to remind Americans of the legislative and 
investigatory component of a story that is more often presented from a 
military or Presidential perspective. These projects will be 
complemented by online features on the Senate's Civil War experience.
Revised Kennedy Caucus Room Brochure
    The Senate's naming of the Russell House Office Building Caucus 
Room in memory of John F., Robert F., and Edward Kennedy prompted the 
revision and redesign of the brochure for the room. The brochure is 
often used by Senators who host meetings in the Caucus Room. In 
addition to explaining the architectural and legislative history of the 
room, the brochure includes information on the Senators Kennedy and 
their individual connections to the Caucus Room along with updated 
photographs.
Documentary Histories of the U.S. Senate
    The Historical Office continued work on its online documentary 
history series, which presents case studies and primary-source 
documentation for all contested Senate elections, censure and expulsion 
cases, impeachment trials, and major investigations. Intended for use 
within the Senate and by the general public, these documentary 
histories are particularly valuable for teachers who seek to include 
primary-source documents in their lesson plans. This project also 
allows the Historical Office to update case studies of past events, and 
to add new case studies as needed, eliminating the need for new print 
editions of past publications, reducing costs and paper use. Three 
parts (contested elections, censures, and expulsions) of this five-
stage project have been completed, and substantial progress was made in 
the remaining two categories. Two cases were added this year in the 
impeachment category, as well as a revised and updated summary page on 
major investigations and case studies on the Pecora banking and 
Watergate investigations. A third case study of the Civil War-era Joint 
Committee on the Conduct of the War is nearing completion as well.
States in the Senate
    In this collaborative project, staff historians have created 
timelines and compiled selected illustrative images for each of the 50 
States. The States in the Senate will highlight persons and events in 
the State's history that relate to the U.S. Senate to be featured on 
Senate.gov, which informs Senators, staff, and constituents alike. A 
Web design for the project has been created in partnership with the GPO 
and Web Technology that provides an interactive timeline for each State 
with links to relevant documentary and visual material, along with a 
table of Senators from each class with service dates. Staff have begun 
entering the timeline data and lists of Senators, and have begun 
identifying images for each timeline.
Administrative History of the Senate
    The associate historian continued to prepare a historical account 
of the Senate's administrative evolution since 1789. This study traces 
the development of the offices of the Secretary of the Senate and SAA, 
considers 19th and 20th century reforms that resulted in reorganization 
and professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified.
Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Dr. Floyd M. Riddick, at 
the direction of the Senate Committee on Rules and Administration, 
prepared a publication containing the eight codes of rules that the 
Senate adopted between 1789 and 1979. In the 1990s, the Senate 
Historical Office staff, in consultation with Dr. Riddick, developed a 
project to incorporate an important feature not contained in the 1980 
publication. Beyond simply listing the eight codes of rules, the 
Office's goal is to show how--and why--the Senate's current rules have 
evolved from earlier versions. The Senate's historian emeritus has 
continued work on this project, which will contain eight narrative 
chapters outlining key debates and reasons for significant changes. 
Appendices will include the original text of all standing rules and, 
for the first time in one publication, all changes adopted between each 
codification.
Biographical Directory of the U.S. Congress, 1774-present
    The Historical Office continues to expand and update the 
Biographical Directory of the U.S. Congress as needed, including adding 
new Member biographical entries and bibliographical citations that 
incorporate recent scholarship. The Senate historians continue to work 
closely with the historical staff of the House of Representatives to 
maintain accuracy and consistency in this joint Senate-House database, 
and to promote this valuable resource among historians, teachers, 
students, and the public. Senate and House historians and technical 
staff for the House of Representatives have collaborated to plan an 
update of the online site in appearance and functionality, and have 
approved a new template and overall appearance for the Directory. The 
Senate archivist and her deputies have worked to expand and revise the 
``Research Collections'' aspect of the database.
Party Conference Minutes, 1965-1977
    In 1998 and 1999 the Historical Office staff edited, indexed, and 
published the Minutes of the Senate Democratic and Republican 
Conferences covering the years prior to 1964. The Historical Office is 
currently preparing a similar volume for the Democratic Conference 
including its minutes from 1965 to 1977. After January 1973, verbatim 
transcripts were prepared for each Conference meeting, considerably 
enlarging the documentation. This project has involved scanning and 
editing 2,869 pages of transcripts for 102 meetings of the Conference 
and inclusion of an index and explanatory annotations. With the 
approval of the Conference, the minutes will be published, and a 
similar editorial project will be proposed for the Republican 
Conference minutes for this time period. The office has scanned an 
additional 3,115 pages of transcripts for the 73 conferences between 
1977 and 1982, for future publication.
Dirksen Senate Office Building Exhibits
    The remodeling of the Dirksen Senate Office Building auditorium 
into a hearing room created two large exhibit cases at its entrance. 
Working with the staff of the Senate Curator and the Senate Library, 
the Historical Office prepared exhibits that have now been installed on 
the life and career of Senator Everett M. Dirksen, Senate Republican 
leader from 1959 to 1969, and on the design and functioning of the 
office building named in his memory.
Oral History Program
    The Historical Office staff conducts a series of oral history 
interviews to record personal recollections of various Senate careers. 
Interviews were conducted with former Senator Roland W. Burris; Richard 
Ahrenberg, who served on the staffs of Senators Paul Tsongas, George 
Mitchell, and Carl Levin; Richard Baker, the Senate's Historian 
Emeritus; Eliza Letchworth, former Republican Secretary; Charles 
Ludlam, a former staff member for Senators James Abourezk and Joseph I. 
Lieberman; and James Zigler, former Senate SAA. The office also 
conducted an interview with Martin Charboneau and Mikhaila Fogel, the 
pages who volunteered to stay behind and serve during the last weeks of 
debate on the healthcare bill in December 2009. The office has also 
continued to seek and conduct interviews with current and former Senate 
spouses, and expanded on its collection of interviews highlighting the 
role of women on Capitol Hill. The complete transcripts of 30 
interviews conducted since the 1970s have been posted on Senate.gov. 
That site features a different oral history interview series each 
month, including digital audio-clips along with the interview 
transcripts. The Historical Office has worked with the National 
Archives to digitize past oral history interviews, which had been 
archived on magnetic tape, for preservation purposes. Digitization also 
allows for inclusion of short audio segments on Senate.gov. For Unum, 
the Secretary of the Senate's newsletter, the staff has created a 
regular series entitled ``Senate Voices'', which includes excerpts from 
the oral histories with a contextual introduction.
Member Services
            Educational Outreach
    The historian and associate historian delivered a series of 
``Senate Historical Minutes'' at the weekly Democratic and Republican 
Conference luncheons. These ``minutes'' highlighted significant events 
and personalities associated with the Senate's institutional 
development. Many of them are now included on Senate.gov as 
``Historical Minute Essays.'' The assistant historian advised the 
congressionally mandated 50th Anniversary of the Vietnam War 
Commemoration group of notable Senate accomplishments during the 
Vietnam War era to be included in national commemorative event 
planning.
            Members' Records Management and Disposition Assistance
    The Senate archivist held meetings with staff of Members who had 
announced their retirement to discuss schedules for closing and to 
ascertain specific archiving needs. These meetings emphasized planning 
for the preservation of permanently valuable records, particularly 
electronic records and selecting a home State repository with necessary 
preservation resources. Information and insights derived from these 
meetings has been incorporated into an ``archives toolkit'', providing 
guidance for offices opening in the 112th Congress. Of the 16 Senators 
who left office, 15 designated an archival repository. The archivist 
provided extensive assistance to the staff of the late Senator Robert 
C. Byrd to ensure the preservation of 1,500 cubic feet of records 
documenting his entire Senate career. These records have been 
transferred to the Robert C. Byrd Center for Legislative Studies at 
Shepherd University. The archivist revised the Handbook for Closing a 
Senator's Office and created an office closing timeline. The archiving 
``Quick Cards'' available on the Secretary's Webster site were updated 
and augmented by a fourth card on social media communications 
archiving. The number of Senators who participated in Facebook, You 
Tube, Twitter, and other Web 2.0 sites in the 111th Congress was 
significant, and the Historical Office took the initiative to provide 
guidance for archiving aspects of these online records.
    A series of brown-bag lunch discussions took place for archivists 
in Senate committees and Senators' personal staffs, focusing on records 
management, storage and electronic records. A ``Coffee with the 
Archivist'' of the United States also highlighted electronic records 
preservation. Informal meetings of Capitol Hill Archivists and Records 
Managers (CHARM) focused on description standards, electronic records, 
bibliographic reports, and briefings at the Center for Legislative 
Archives. A new initiative resulting from the CHARM meetings was the 
series of staff exit interviews conducted by Senator Byron L. Dorgan's 
archivist. These were edited by the Historical Office and then shared 
with the rest of the Senate's archival community. A committee staff 
interview form has been developed and is being adopted by committee 
archivists and systems administrators, particularly because of the 
context it provides to staff electronic files.
    The Archivists' Listserv continues to be an effective means of 
updating archival staff about records management and historical topics. 
The Senate archivist worked with all of the repositories receiving 
senatorial collections to ensure the adequacy of documentation and the 
transfer of records with adequate finding aids, helping to lower costs 
for the receiving repositories. The archivist presented an in-depth 
records management seminar for Senate offices at the Modern Archives 
Institute, which is now available for Senate staff on demand. The 
archivist presented a paper on the significance and role of the 
Advisory Committee on the Records of Congress at the Mid-Atlantic 
Regional Archives Conference.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, guidance on preservation of information in electronic 
systems, and instructions for the transfer of permanently valuable 
records to the National Archives' Center for Legislative Archives. A 
survey of the committees' electronic archiving revealed that almost all 
committees have voluminous electronic record backlogs requiring review. 
The backlogs fall into three categories:
  --files of committee staff that have departed the committee;
  --files of share drives; and
  --accumulated email.
    There is a growing gap between the documentary quality of the 
records being archived from committees that have archivists as opposed 
to those without archivists. The archivist and deputy archivist have 
been compiling specific reports documenting this discrepancy. They 
distribute information on best practices for managing electronic 
records and have encouraged committees to hire professional archivists 
especially to focus on electronic archiving. There are now eight 
committee archivists on six committees (two committees have separate 
Democratic and Republican archivists.)
    The archivist has been working with the Center for Legislative 
Archives information technology specialists to improve Senate 
infrastructure to facilitate the regular archiving of electronic 
records. This will establish a system to allow the Senate to transfer 
records in electronic form, eliminating the need for printing such 
documentation. The infrastructure upgrade will also permit the Center 
for Legislative Archives Holdings Management System to document the 
loan of records back to the Senate more thoroughly through the use of 
bar codes.
    The archivist and deputy archivist are appointed members of the 
Next Generation Finding Aid Task Force established by the Advisory 
Committee on the Records of Congress to develop criteria to improve the 
finding aids for the Senate's archival records. They provided 
information and helped edit the first draft of the Report presented to 
the Advisory Committee. They anticipate that the Task Force will 
recommend adoption of the archivists toolkit as a system to manage 
record transfers, and are prepared to mediate, oversee, and support 
transfer documentation in this new application.
    Over the past year, the Senate archivist oversaw the transfer to 
the Archives of 568 accessions of Senate records totaling 1,638.5 cubic 
feet of textual records and 627.28 gigabytes of electronic records. The 
archivist and deputy archivists responded to 203 requests for loans of 
archived records back to committees, totaling 1,028 boxes.
    To further assist committee clerks, the archivists developed a new 
archives transfer form that facilitates searches in older archived 
records and brings Senate descriptive practices in line with archival 
best practices. Enhanced description has resulted in greatly increased 
accessibility of the records. Three basic archiving quick cards for 
committees were posted to the Secretary's site and are periodically 
updated. The cards supplement the Guidelines for Committee Staff 
pamphlet and accompany a records-preservation PowerPoint briefing also 
posted on the site. While this material has helped communicate the 
importance of recordkeeping to committee staff, it does not replace the 
effectiveness of a trained archivist on each committee staff.
    A project is underway to scan committee record transfer sheets to 
the National Archives, dating from 1982 through 2004, into the OnBase 
document management system supported by the SAA. To date, records of 12 
committees have been processed and updates are underway. The Center for 
Legislative Archives has received this information on CD-ROM both as a 
security measure and to enhance access to the records as they become 
open for research
Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of the Congress. Its 
membership representing the Senate includes the Secretary of the 
Senate, who chaired the panel during the 110th Congress; the Senate 
historian; and appointees of the secretary and the majority and 
minority leaders. The Historical Office furnishes support services for 
the advisory committee's regular meetings. Following the Senate 
historian's participation in a meeting of the Public Interest 
Declassification Board in July that focused on declassification of the 
older records of the Congress, the Historical Office sent a request to 
the Center to proceed with a systematic review of classified Senate 
records more than 25 years old. As a result, the National 
Declassification Center will begin a preliminary review and analysis of 
declassification issues of the approximately 650 feet (1,625,000 pages) 
of classified records that are more than 25 years old. Records of 
highest anticipated research use will be given priority. The Historical 
Office also was given the opportunity to comment on the National 
Archives Reorganization Plan as it will affect Senate records, 
encouraging the Archives to provide congressional records with 
administrative support appropriate to the size of its holdings.
Educational Outreach
    The Historical Office's correspondence with the general public has 
increasingly taken place through Senate.gov. The historians maintain 
and frequently update the Web site with timely reference and historical 
information, and each month select related material to be featured on 
the site. During the past year, the Office responded to more than 1,500 
inquiries from the public, the news media, students, family 
genealogists, congressional staffers, and academics, through the public 
email address listed on Senate.gov. The diverse nature of their 
questions reflected varying levels of interest in Senate operations, 
institutional history, and former Members.
    Working with the Web team, the historians have added to Senate.gov 
such items as featured biographies, documentary histories, photo 
exhibits, reference material, and additional oral history transcripts.
    In preparation for the upcoming Civil War sesquicentennial, the 
historians and staff have and continue to collaborate with the Web team 
to create new online features exploring the role the U.S. Senate during 
this national crisis, including an annotated time line of Senate-
related events, profiles of key Senators, landmark legislation of the 
era, discussions of the constitutional crisis of secession, and a 
documentary history of the Joint Committee on the Conduct of the War. 
As the national commemoration of the war continues from 2011 to 2015, 
these and additional features will be presented in a timely manner.
    Staff presented seminars on the general history of the Senate, 
Senate committees, female Senators, Senate Floor leadership, relations 
between the press and the Senate, the U.S. Constitution, and the 
history of Senate impeachment trials. The historians also participated 
in Senate staff seminars and Members' office retreats, and conducted 
dozens of briefings for specially scheduled groups. As part of the 
orientation program for newly elected Senators, the historian delivered 
an address on the historical evolution of the Senate, and joined the 
associate historian in performing tours of the Senate Chamber and other 
historic spaces of the Capitol. The historian also spoke at the 
Senate's Constitution Day Program on the resources for researching 
Senate history. The associate and assistant historian met with various 
groups of teachers and students from around the Nation to aid in 
coordinating classroom activities to promote a better understanding of 
the Congress and its legislative duties, as well as working with 
research fellows and visiting scholars.
Photographic Collections
    The Senate photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing 
Senate committees, collecting formal photo portraits of new Senators, 
and capturing significant Senate events in cooperation with the Senate 
Photographic Studio. She continued to provide timely photographic 
reference service by phone and email, while cataloging, digitizing, 
relocating, and expanding the Office's 40,000-item image collection. 
She assisted several Senate offices in creating collages of all the 
Senators who previously served in that seat.
    The photo historian assisted with the development of the Civil War 
exhibit in the Capitol, by providing images from the Historical Office 
collection and obtaining images from other repositories. She also 
provided images for the two new exhibit cases in Dirksen Senate Office 
Building outside of the auditorium. She collaborated with the 
historical editor to design and publish the Kennedy Caucus Room 
brochure.
    The photo historian worked closely with the Senate Photographic 
Studio during the transition to a new image browser, serving as a test 
office for the new system. She facilitated the transfer of historical 
maps found in the Russell Senate Office Building attic to the LOC 
Geography and Maps Division.
    As the founder of CHARM, an informal group of Senate archivists, 
the photo historian planned numerous tours and professional development 
events for committee and Member archivists.
COOP Planning
    As the Historical Office's COOP Action Officer and Emergency 
Coordinator, the photo historian continued to update the Office's COOP 
plan in the Living Disaster Recovery Planning System. She made regular 
back-ups of the office's vital electronic records to store off-site in 
a secure environment. She trained new staff members and interns in the 
Office's emergency evacuation procedures.
CVC
    The historians supplied information and guidance to the staff of 
the CVC related to the educational component of the exhibition gallery. 
They have participated in the training program for staff-led tours, and 
provided text, images, and general editorial review for a new Web-based 
training program for staff and tour guides. They made regular 
presentations on the history of the Senate in training seminars for 
Senate staff and interns, and gave morning ``briefings'' to the Capitol 
Guide Service. They provided ``exhibit talks'' in the CVC, contributed 
to the training of visitor assistants who guide visitors through the 
exhibition gallery, worked with exhibit staff to plan rotations of 
documents and images, and advised the CVC staff on its educational 
outreach programs.
                   human resources
    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the CAA. The office focuses on developing and 
implementing human resources policies, procedures, and programs for the 
Office of the Secretary of the Senate that fulfill the legal 
requirements of the workplace and complement the organization's 
strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, Family and Medical Leave Act (FMLA) 
program, parking allocations, and the summer intern program that offers 
college and other postgraduate students the opportunity to gain 
valuable skills and experience in a variety of Senate support offices. 
Human Resources staff has completed migration of eligible commuters to 
the Smart Benefits Program, which is operated by the Washington 
Metropolitan Area Transit Authority.
Recruitment and Retention of Staff
    Human Resources staff have the ongoing task of advertising new 
vacancies or positions, screening applicants, interviewing candidates, 
and assisting with all phases of the hiring process. Human Resources 
staff coordinate with the SAA Human Resources Department to post all 
SAA and Secretary vacancies on the Senate Intranet, Webster, so that 
the larger Senate community may access the posting from their own 
offices. In an effort to reach a larger and more diverse applicant 
pool, the department uses multiple posting forums to reach potential 
applicants for employment. As a result, the Human Resources Department 
processed more than 3,000 applications for vacancies in the Secretary's 
Office, including review of applications, coordinating scheduling of 
candidates for interview, sending out notices to both successful and 
unsuccessful candidates, and finalizing new hire paperwork. All new 
hires also receive orientation from the Human Resources staff when they 
come on board.
Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continue to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
FMLA administration, and an overview of the CAA. Human Resources staff 
also works with different department employees on topics specific to 
their group in outreach efforts to enhance teamwork in the workplace.
Interns and Fellows
    Human Resources staff manage the Secretary's internship program. 
From posting vacancies, conducting needs analyses, communicating, 
screening, placing and following up with all interns, the staff keeps a 
close connection with these program participants in an effort to make 
the internship most beneficial to them and the organization.
DOD's Operation Warfighter (OWF) Program
    In December 2010, Human Resources on behalf of the Secretary 
received approval to host Wounded Warriors from the OWF program. The 
unpaid internship program is open to all wounded and ill servicemembers 
assigned to a Military Treatment Facility, an Army Warrior Transition 
Unit, the USMC Wounded Warrior Regiment, the Air Force Wounded Warrior 
Program, or the Navy Safe Harbor Program. The program positively 
impacts the recuperation process, and provides meaningful activity 
outside of the hospital environment that positively impacts wellness.
Combined Federal Campaign (CFC)
    The office has again taken an active role in the CFC for the Senate 
community at-large. The office staff serve as co-directors of the 
program. The staff participates in kick-off meetings, identifies key 
workers in each office, and disseminates and collects necessary 
information and paperwork.
                information systems
    The staff of the department of Information Systems provides 
technical hardware and software support for the office of the Secretary 
of the Senate (SecSen). Information Systems staff also interface 
closely with the application and network development groups within the 
SAA, GPO, and outside vendors on technical issues and joint projects. 
The department provides computer-related support for all local area 
network (LAN) servers within the Office of the Secretary of the Senate. 
Information Systems staff provide direct application support for all 
software installed workstations, initiate and guide new technologies, 
and implement next-generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the Member offices, and complying with office 
mandated and statutory obligations.
            Fiscal Year 2010 Technology Initiative Summary
    The department technology initiatives concentrated in four specific 
areas:
  --Improvements in work flow process efficiency;
  --Deployment of improved hardware and software technologies;
  --Business continuity planning and disaster recovery improvements; 
        and
  --Network perimeter and end point security awareness.
            Operate More Efficiently
    Replaced all computer workstation hardware in the Capitol; Hart, 
Dirksen, and Russell Senate Office Buildings; and Webster Hall 
locations. Developed, tested, and installed application software for 
the Senate Library, Curator, Historian, Human Resources, 
Interparliamentary Services, Public Records, Captioning, LIS Project 
Office, and Page School staff locations.
    Completed second phase of network printer hardware replacement 
program by replacing all network printers in 21 departments and offsite 
locations with improved high-speed models that reduce energy use up to 
50 percent with instant-on technology.
    Replaced all BlackBerry device hardware for Secretary of the Senate 
staff (73 units) and applied soft token virtual private network access 
to the Senate network for all device users.
    Purchased and installed the Disbursing Office GRB server hardware.
    Purchased and installed server and application to remotely deploy 
software updates to all Disbursing workstation hardware.
            Deployment of Improved Hardware and Software Upgrades
    Legislative Offices.--Completed 18 major LIS software upgrades and 
installed the updated LIS application software in all legislative clerk 
offices, ACFs, and offsite home laptop locations. Virtualized the LIS 
applications for the Senate Library staff which streamlined the 
availability of application for LIS users.
    Added network array storage portable servers at the ACF. This 
solution provides a nightly scheduled backup of Secretary of the Senate 
workstation software to the Secretary of the Senate Emergency 
Operations Centers (EOC).
    Virtualized the workflow process in the Office of Public Records 
(OPR) providing high availability to their computer desktops for OPR 
staff when they are not at their normal desktop office locations. 
Retired a dedicated AT&T fiber link between the OPR and the Federal 
Elections Commission (FEC). Worked with the SAA Network Engineering 
staff to implement a replacement VLAN connection to the FEC which is 
more secure and can be expanded to alternate locations if needed.
    Upgraded legislative staff with improved laptop hardware for a more 
streamlined and secure connection to the Senate network.
    Created a virtualized and encrypted software solution for the 
Senate Enrolling Clerk in order to process legislation when located 
offsite. Virtualization of mission critical workstation applications 
lowers the support time and cost required to keep offsite laptops 
updated with current software revisions. It also provides a more 
efficient process to migrate existing applications to numerous systems, 
making it available to a wider range of key personnel who require the 
application access.
    Upgraded and migrated BlackBerry device users to the BlackBerry 
Exchange Server Version 5.0 Server solution. Information System support 
staff now has a process to monitor the BlackBerry device operation and 
provide a higher level of remote BlackBerry support.
    Added additional staff with secure access to the Senate network 
through the Senate Web portal with Passface account access. Presently 
119 of 169 personnel assigned to the Secretary of the Senate's hybrid 
enterprise (70 percent) have some form of secure remote access to 
Senate network resources.
    Developed a standardized software template and replaced all 
Disbursing Office laptops.
    Worked with the Senate library staff and the SAA Technology 
Development staff to integrate an incident reporting software 
application for Library staff use. This issue tracker application 
resides on a Secretary of the Senate server and documents the support 
issues for the SIS program.
Business Continuity Planning and Disaster Recovery Improvements
    Secure remote access to essential applications and information is 
integral to pandemic preparedness and business continuity initiatives. 
By scaling existing technologies, and integrating new hardware 
solutions, the overall level of H1N1 planning preparedness was 
dramatically elevated in the each office. This level of proactive 
planning significantly impacted the remote access capability and 
provided staff the needed access to the Senate network resources during 
the February 2010 blizzard.
    In the event GPO ``fails-over'' their operation at North Capitol 
Street, NW., changes to the legislative file transfer process to 
support transactions between the Secretary's office and GPO have been 
implemented. A secondary back-up (encrypted) file transfer method has 
also been implemented among GPO, the Senate Office of Legislative 
Counsel, and the office of the Secretary.
    Completed the Parliamentarian office indexing software project and 
migrated the previous process to a new hardware platform. The results 
allow a virtualized environment to index precedent information without 
purchasing a specific laptop or personal computer.
    Installed additional laptop hardware for the office of Captioning 
Services in the Capitol. This ensures that if Captioning staff is 
displaced from their location they can continue to provide content to 
the Senate Recording Studio (SRS). Successfully tested final SRS 
channel link in October 2010.
    Redesigned and enhanced the operation of Member accountability 
application used during COOP exercises by implementing a virtualized 
desktop process to run the application. Integrating this application 
with a remote desktop feature to ensure the application is always 
available for staff during a COOP event. Extended this virtual solution 
for the Secretary of the Majority and the Secretary of the Minority 
offices.
    Virtualized the OPR hardware server, office workstations, and 
scanning operation. In fiscal year 2010, completed the second phase to 
encompass both the server and client application process.
    Implemented and integrated personal computer teleconferencing 
application into the existing video teleconferencing (VTC) network. 
This provides offsite VTC to internal Senate users without the need for 
a VPN connection. Upgraded hardware products in the Office of the 
Secretary and Disbursing Office conference room locations.
Network Perimeter and End Point Security Awareness
    In partnership the SAA Security Operations Center, installed the 
next generation Senate antivirus and firewall protection.
    Information Systems staff continue to monitor email spam filtering 
applications. Present rate of undesirable email messages average 9,000 
messages per day.
    Implemented a monthly automatic backup of critical workstation 
software applications. This process eliminates countless hours of 
attempting to clean infected systems. Additionally, these monthly 
backups can be stored at an offsite facility and serve as a tool in 
restoring workstation applications in the event of an emergency.
    Information Systems staff continue to monitor network security 
ensuring best practice information is available to all staff. Developed 
global security server policies to automatically lock computer 
terminals after 1 hour of application inactivity.
    Staff continues to manage the Alerts notification database for all 
Secretary staff. Database information is verified nightly to ensure 
email, voice, and BlackBerry PIN information is valid and will function 
during an emergency.
    After implementation of the software deployment server, Information 
Systems staff continue to maintain the inventory of all applications 
for 280 workstation installations. Information Systems now has the 
ability to review in real time which systems require application 
updates and can deploy security patches without interruption to the 
business owner.
Ongoing and Future Projects From 2010
    As server and laptop hardware nears the end of the maintenance 
life-cycle, replace older hardware servers with virtual server 
solutions. All Active Directory server hardware was updated in fiscal 
year 2010, and wherever possible virtual solutions were implemented in 
order to provide a higher level of network resource availability, 
reduce data center hardware costs, and reduce electricity usage.
    Evaluate low-cost computing terminal emulation hardware for offsite 
and designated COOP locations.
          interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute, for interparliamentary conferences in which the Senate 
participates on an ad hoc basis, and for special delegations authorized 
by the Majority and/or Minority Leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly;
  --Mexico-United States Interparliamentary Group;
  --Canada-United States Interparliamentary Group;
  --British-American Interparliamentary Group;
  --United States-Russia Interparliamentary Group;
  --United States-China Interparliamentary Group; and
  --United States-Japan Interparliamentary Group;
    In 2010, IPS staff were responsible for organizing the following 
interparliamentary conferences:
  --the U.S.-China Interparliamentary Group in China;
  --the U.S.-Russia Interparliamentary Group in the United States;
  --the Canada-U.S. Interparliamentary Group in the United States; and
  --the Mexico-U.S. Interparliamentary Group in Mexico.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, IPS provided assistance to individual Senators and 
staff traveling overseas. Senators and staff authorized by committees 
for foreign travel continue to call upon this office for assistance 
with passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS staff also assist staff members of 
Senators and committees in filling out the required reports.
    IPS maintains regular contact with DOD, the Department of State and 
foreign Embassy officials. The office staff organizes visits for 
official foreign visitors and assists them in setting up meetings with 
leadership offices. The staff continues to work closely with other 
offices of the Secretary of the Senate and the SAA in arranging 
programs for foreign visitors. In addition, IPS is consulted by 
individual Senate offices on a broad range of protocol questions. 
Occasional questions come from State officials or the general public 
regarding congressional protocol.
    On behalf of the Senate Majority and Minority Leaders, IPS staff 
arrange official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    Planning is underway for the Mexico-U.S. Interparliamentary Group, 
the U.S.-China Interparliamentary Group, and the British-American 
Parliamentary Group which will be held in the United States in 2011.
COOP Planning
    IPS regularly reviews its COOP plan with ongoing discussions, 
updating materials kept offsite, evaluating evacuation procedures, and 
working from remote sites.
                      lis project
    The LIS is a mandated system (section 8 of the 1997 Legislative 
Branch Appropriations Act, 2 U.S.C. 123e) that provides desktop access 
to the content and status of legislative information and supporting 
documents. The 1997 Legislative Branch Appropriations Act (2 U.S.C. 
181) also established a program for providing the widest possible 
exchange of information among legislative branch agencies. The long-
range goal of the LIS Project is to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. Several components of the LIS have been 
implemented, and the project is currently focused on a Senate-wide 
implementation and transition to a standard system for the authoring 
and exchange of legislative documents that will greatly enhance the 
availability and re-use of legislative documents within the Senate and 
with other legislative branch agencies. The LIS Project Office manages 
the project.
Background: LIS Augmentation Project (LISAP)
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information. Following the implementation of the LIS in 
January 2000, the LIS Project Office shifted its focus to the data 
standards program and established LISAP. The overarching goal of the 
LISAP is to provide a Senate-wide implementation and transition to XML 
for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC), the 
Office of the Enrolling Clerk, the Committee on Appropriations, and the 
GPO. The XML authoring application is called LEXA, an acronym for 
Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML tags inserted by LEXA 
provide more information about the document and can be used for 
printing, searching, and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC, the Enrolling Clerk, and the editorial and 
printing staff of the Committee on Appropriations to create an 
application that meets the needs for legislative drafting.
LISAP: 2010
    The LIS Project Office continued to provide support to the SLC, the 
Senate Committee on Appropriations, and the Senate Enrolling Clerk in 
their use of LEXA for drafting, engrossing, and enrolling. GPO also 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to make the drafting process faster, 
more efficient, and more consistent. The LIS staff trained new drafters 
and interns in the use of LEXA.
    Changes to LEXA included upgrading all users to Xmetal 5.5. Xmetal 
is the underlying software for LEXA, and the 5.5 version is Vista-
compatible. In the latter half of 2010, the LIS Project Office began a 
project to update the underlying software, Xmetal, to version 6.0 which 
is Windows 7-compatible. The upgrade projects required extensive 
testing of LEXA on multiple operating systems including XP, Vista, and 
Windows 7. LEXA improvements included updates to the conversion from 
locator to XML and additional features for the office drafting 
appropriations bills to accommodate the different styles and formats of 
those bills. A new feature was added to create title amendments as 
separate documents, and new functionality was created to combine a list 
of titles or divisions into one document and to split a single document 
into multiple titles or divisions.
COOP Planning
    Several procedures have been implemented to provide for COOP. All 
source code and data files are backed up nightly to a drive in the 
office, and each LIS Project Office staff member carries an encrypted 
flash drive containing the office COOP plan, documentation, and the 
most recent version of LEXA. All the software and documentation 
required to create the development environment and a LEXA end user 
environment are available in duplicate copies of the LIS Project Office 
fly-away kit. The COOP plan and the fly-away kits are updated 
frequently, and one fly-away kit is kept in an off-site location. 
Regular testing of the ability to work remotely is conducted via Senate 
laptops and personal computers to ensure that application development 
and user support can continue if access to the office is not possible.
LISAP: 2011
    The LIS Project Office will continue to work with and support all 
the offices now using LEXA to produce legislative documents. 
Enhancements to LEXA make the process more efficient and consistent so 
that most of the legislative measures produced by those offices will be 
created as XML documents. All LEXA users will be upgraded to Xmetal 
6.0: some users on XP, some on Windows 7, and a few on Vista.
    The LIS Project Office will continue to work with the House, GPO, 
and the LOC on projects and issues that impact the legislative process 
and data standards for exchange. These groups are currently 
participating in two projects with the GPO, one to define requirements 
for replacing the Microcomp composition software and another to handle 
graphics in some legislative documents. The office will work with the 
SLC and their House counterpart office to implement new functionality 
for maintaining and printing the compilations of existing law in XML.
                        library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The LOC's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audiobooks; 
and a wide array of online resources. The LOC also authors content for 
three Web sites:
  --LIS.gov;
  --Senate.gov; and
  --Webster, the Senate's Intranet.
    The transition of the SIS program from the Senate SAA to the Senate 
Library continued with the transfer of contracts for news-related 
services in October 2010. Two town hall style meetings and six focus 
group sessions provided opportunities for Senate staff to provide 
direct feedback on the Senate's online research tools. The Library 
hosted an online survey in December to reach State staff and those 
unable to attend the focus group sessions. Results from the survey will 
be used to review program offerings and to target outreach and training 
efforts related to those resources.
    The LOC's creation of new Web-based content, judicious selection 
and investment in online resources, expanded outreach and training 
opportunities, and use of technology to support alternative means for 
information delivery continues to meet the Senate's increasing demand 
for information.
Notable Achievements
    Successful outreach efforts contributed to an increase in Library 
usage in the following areas over the past year: total patron accounts 
are up 44 percent, new patron accounts are up 26 percent, and online 
book requests are up 36 percent. Loans of audiobooks increased 22 
percent and new books by 15 percent.
    A new Webster page, Nomination Hearings for Supreme Court Justices, 
provides links to full-text hearings since Louis Brandeis in 1916.
    The Library catalog now provides Senate staff with desktop access 
to more than 34,000 electronic versions of items in its collection, an 
increase of 15 percent more than 2009.
    A new table, Senate Freshmen since Direct Election (1914), was 
added to Senate.gov.
    Two well-received exhibits, one on the ``Senatorial Life of Everett 
Dirksen'' and the other on the ``Dirksen Senate Office Building'', were 
installed at the request of the Senate Committee on Rules and 
Administration in the cases flanking the entrance to the Dirksen 
auditorium (SDG-50). The exhibits were collaborative efforts with the 
Senate Curator's Office and the Senate Historical Office.
    Successful collaboration between the Library, the Office of Web 
Technology, and the Assistant SAA/CIO Office resulted in the creation 
of a completely new taxonomy for the Senate Services Directory (Red 
Book) on Webster. Online access to the Red Book will occur in early 
January 2011.
Senate Library Inquiries, Online Book Requests, and Patron Accounts
    The increase in requests for online materials, the availability of 
new and enhanced database offerings, and the expanded availability of 
resources on the Web have dramatically increased the demand for Library 
resources. Inquiries in 2010 increased 12 percent more than 2009, 
reflecting new Web-based service promotional initiatives. These numbers 
show that Senate staff and others are using Senate.gov and Webster 
content authored by the library. Reference librarians continue to 
assist Senate staff with challenging research in areas including legal 
and public records, legislative histories, news and journal articles, 
and to find answers to questions they ``can't figure out how to 
tackle.'' \2\
---------------------------------------------------------------------------
    \1\ Comment by a survey respondent in the 2011 SIS Online Survey 
Report, p. 34.

                                                                SENATE LIBRARY INQUIRIES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          Web page visits                                   Change from
                          Year                              Traditional  ------------------------------------------------      Total        prior year
                                                                              Webster           LIS         Senate.gov                     (percentage)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2010....................................................          26,696          88,886          19,000       2,926,712       3,061,294             +12
2009....................................................          27,318          70,461          21,092       2,612,897       2,731,768              +8
2008....................................................          27,283          51,048          29,468       2,429,380       2,537,179             +67
2007....................................................          26,309          65,793          32,121       1,392,947       1,517,170             -10
2006....................................................          31,032          80,375          20,156       1,561,138       1,692,701             +88
2005....................................................          33,080          57,608          26,775         782,588         900,051         ( \1\ )
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Baseline.

    The Library received 666 online book requests in 2010, an increase 
of 36 percent more than the previous year. The increase can be 
attributed to the online book request form on the Library catalog, as 
well as to the online bibliographies that highlight the Library's 
collections of audiobooks, travel books, and new books. Audiobook loans 
increased by 22 percent, travel books by 25 percent, and new books by 
15 percent more than 2009 levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Library's concerted effort in 2010 to reach new patrons 
resulted in a 44 percent increase in borrowing accounts more than 2009. 
Seventy-four percent of the Library's patrons are Senate office and 
committee staff members while the remaining 26 percent of users are 
support office staff.
    Almost half of this patron base consists of new users of the 
library. A total of 999 new patrons were registered in 2010, an 
increase of 26 percent more than the number registered in 2009.
    Other activities for 2010 included setting up 274 new computer 
accounts for our patron workstations, and providing the following 
document printing and delivery services:

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Circulation:
    Document deliveries.................................           4,499
    Item loans..........................................           3,251
Pages printed:
    Microform pages printed.............................             857
    Photocopies.........................................          71,983
                                                         ---------------
      Document delivery total...........................          80,590
------------------------------------------------------------------------

Senate Library Content Creation
            Senate.gov Web Site Content
    A new table, Senate Freshmen Since Direct Election (1914), was 
added to Senate.gov. This table counts Senate freshmen at the beginning 
of each Congress and includes appointments that occurred just before or 
after the opening of the Congress.
            Senate Webster Content
    A new page, Nomination Hearings for Supreme Court Justices, was 
launched in June in advance of scheduled confirmation hearings for 
Supreme Court nominee Elena Kagan. The page provides links to full-text 
hearings since Louis Brandeis in 1916. This page is tied to another 
Library-authored page, How to Find Supreme Court Nomination 
Information. The full-text hearings were also made available through 
the Library catalog, and Library staff created two new finding aids for 
JSTOR, a nonprofit service of more than 1,000 academic journals and 
other scholarly content, and appellate court briefs.
            SIS Program Content
    The Library's Digital and Instructional Resources Librarian led two 
working groups to create two new Webster pages that highlight SIS 
resources. The first group worked on a FrontPage (the SIS home page) 
redesign that includes tabbed navigation and links to more Senate-wide 
databases. The other group researched the online availability of 
newspapers in each State, which make up the State NewsWatch page. Both 
pages were created in response to feedback from Senate focus groups and 
launched at the beginning of the 112th Congress.
            Senate Library Web Site Content
    A library team revised and updated the About the Library, Using the 
library, and Borrowing Books pages on the library's Web site. These 
pages now provide staff a clearer understanding of the library 
services, policies, and collections.
            Other Digital Content
    Library staff initiated a retrospective digitization of the Senate 
Executive Calendars in response to staff requests for older editions of 
the calendar. This collaborative project between the library and the 
Senate Executive Clerk will build a complete digital collection from 
the library's bound editions and form the basis for a future online 
digital archive.
Senate Knowledge Base
    The Senate knowledge base is an institutional repository of data to 
support the Webster site taxonomy project and Webster search 
enhancement. To date, 1,154 document records and 2,016 term records in 
the Senate knowledge base are supporting the Webster taxonomy and 
search projects. The 45 percent increase in the number of terms and 19 
percent increase in the number of documents created this year is a 
result of a restructuring of the database to support the online Senate 
Services Directory (Red Book) and reporting for ``keymatches''.
            Webster Online Services Directory (Red Book) Redesign
    The online Services Directory is a joint effort between the SAA's 
Assistant Sergeant at Arms/Chief Information Office and the Library. 
The Red Book was a printed directory (last published in November 2010) 
created by the Senate telephone operators as a finding aid for commonly 
requested numbers and services. The online Senate Services Directory is 
driven by a completely new taxonomy that is managed through the Senate 
knowledge base.
            Webster Search Enhancement
    Librarians improve Webster search results by analyzing popular 
search terms and matching them with topically relevant pages or search 
engine ``keymatches'' (which are managed through the Senate knowledge 
base). This improves the chances a searcher will find what he or she is 
looking for on Webster. During 2010, 245 ``keymatches'' were 
established and 240 edits were made to update Web page links.
Instruction and Outreach Programs
    Reference librarians conduct a wide variety of classes and tours 
for Senate staff including, Insider's Guide to Webster, LIS Savvy, 
Research Tools on Your Desktop, Services of the Senate Library, and Got 
Questions? In 2010, 91 classes and tours were offered, with a total of 
379 Senate staff participating. Classes and tours are held frequently 
to allow librarians to interact with smaller groups and create a more 
customized learning experience for the attendees.
    LOC, Office of Web Technology, and the Joint Office of Education 
and Training collaborated on redesigning the LOC class registration 
page. The redesign offers a more streamlined registration process, has 
reduced posting errors, and has increased the opportunities for the 
reference team to market classes to Senate staff.
    LOC gave numerous tours to Senate groups and outside library 
professionals, including each semester's Senate Page School class, 
librarians from the Supreme Court Library and the National Defense 
University, library school students, and 18 separate groups of summer 
interns from Senate offices. The LOC hosted a university library school 
student on a semester-long practicum. The LOC also participated in the 
Senate Services Fair, reaching out to 91 attendees.
    In an effort reach Senate staff more directly, an email signatures 
pilot program was launched to highlight library services, resources, 
training opportunities, and the SIS online survey. The email signatures 
link to a featured resource and change monthly to coordinate with the 
Library's overall promotional program. Other promotional efforts 
include several Webster announcements and flyers with monthly LOC and 
SIS vendor training course offerings.
    Two new reading lists were created to highlight books in the LOC's 
collection: The Civil War in Books and Great Reads for New Senate 
Staff. Both bibliographies are available on Webster and are highlighted 
with display cases and Web promotional announcements. The Civil War in 
Books is the LOC's contribution to the commemoration of the 
sesquicentennial of the start of the Civil War, and the Great Reads 
list is designed to reach new Senate staff who want to broaden their 
knowledge of Senate history and their understanding of legislative 
process and procedure.
Collection Development
            Audiobooks
    The Library acquired 35 new audio book titles in 2010, bringing the 
total number to 125 titles. Designed to assist users with diverse 
needs, including those who may be visually challenged, the program 
remains popular with patrons whose 797 loans were equivalent to 
circulating each item in the collection six times over. An online 
bibliography on Webster contains links to the catalog and the online 
book request form.
            New Digital Resources
    The LOC worked with LexisNexis and Westlaw to remove the login 
prompt and provide direct Senate-wide access to title-level database 
search pages through its Serials Solutions A-Z electronic journals list 
on Webster. A tangible result of these efforts to improve utility saw 
overall searches increase 19 percent to 5,524 and a 60 percent increase 
in the use of all online resources indexed over the same period last 
year. Content was updated to include 43 new databases that result from 
changes in vendor offerings.
    In 2010, the library began offering Senate-wide access to these e-
books, all published by Congressional Quarterly:
  --Guide to Congress;
  --Guide to the Presidency;
  --Guide to U.S. Elections;
  --Landmark Legislation, 1774-2002; and
  --Major Acts of Congress.
    The Library began offering Senate-wide access to a legislative 
histories database on the LexisNexis congressional platform. The 
legislative histories database provides information on all hearings and 
reports associated with a law and provides direct links to the full 
text of these congressional documents.
    Library reference services were enhanced through the acquisition of 
Federal News Service transcripts and JSTOR archival journal content. 
These resources expand the range of questions that reference librarians 
can answer.
Government Documents
    As a participant in GPO's Federal Depository Library Program, the 
Library receives selected categories of legislative, executive, and 
judicial branch publications. The library received 10,078 government 
publications in 2010. In response to the trend of issuing government 
documents in electronic format, 5,505 links were added to the library 
catalog, bringing the total number to 34,443, an increase of 15 percent 
more than last year. The links provide Senate staff desktop access to 
the full text of each document.

                           ACQUISITIONS, 2010
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Congressional documents.................................           7,790
Executive and judicial branch publications..............           2,288
Books (including audiobooks and e-books)................             761
Electronic links........................................           5,505
                                                         ---------------
      Total acquisitions................................          16,344
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff in the LIS, the DMS, the Congressional 
Record, Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic) and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2010, the Legislative Validation Clerk 
submitted 248 corrections out of hundreds of thousands of verified 
legislative actions that took place during the year.

             LEGISLATIVE VALIDATION CLERK CORRECTIONS, 2010
------------------------------------------------------------------------
                         Office                              Submitted
------------------------------------------------------------------------
Bill, Enrolling, Executive, Journal, and Legislative                  88
 Clerks.................................................
Reporters of Debates, Morning Business Editor, and Daily             109
 Digest.................................................
GPO and LOC--LIS........................................              51
                                                         ---------------
      Total, corrections................................             248
------------------------------------------------------------------------

Cataloging
    The Library's cataloging staff produces and maintains a catalog of 
more than 213,000 bibliographic items. During 2010, they added 3,736 
new titles to the catalog and performed 23,839 record maintenance and 
enhancement activities. New materials are in large part made up of 
congressional materials that are cataloged and made available to staff 
and patrons the same day. The 45 percent decrease in new titles 
cataloged from the previous year can be attributed to a decrease in the 
number of retrospective materials cataloged and an increased attention 
to catalog maintenance and enhancement activities, such as correcting 
subjects and names that have become obsolete and retrospectively adding 
full-text content and book jacket images to existing records.
    Catalogers' time and skills at categorizing and describing content 
are increasingly in demand for taxonomy-related projects designed to 
enhance Webster, including creating the records that drive 
functionality in the new online Red Book Senate Services Directory and 
analyzing logs of unsuccessful searches to create ``keymatches'' that 
target Webster search results.
    Cataloging staff participated in a nationwide project, coordinated 
by the LOC, to create a set of test records for evaluating new 
cataloging rules, called Resource Description and Access (RDA), that 
are slated for possible implementation in 2011. After receiving in-
house training, catalogers contributed 39 RDA test records.
    Catalogers created 553 bibliographic records for Senate hearings 
not yet printed from information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
provide preliminary access for Senate staff and remain in the catalog 
until the printed hearing is received and cataloged.
    The catalog is updated nightly to ensure that Senate staff will 
retrieve accurate and current information on Library holdings. The 
addition of 538 book jacket images in 2010, an increase of 79 percent, 
enhanced the catalog's visual appeal.
Library Automation
    The Library worked with the Information Systems Office to develop 
and deploy a new updated workstation template for the Library. For the 
first time, the new workstations made use of virtual access to 
frequently updated applications, eliminating conflicts between 
applications, reducing required workstation maintenance, and minimizing 
staff disruption.
    A server-level upgrade of the integrated library system software 
used to maintain our online catalog was completed, and a new Web-based 
interface for generating reports from the system was implemented. The 
new system takes advantage of enhancements in the catalog database and 
offers new reporting formats.
    A new virtual server was implemented to house the Senate knowledge 
base. The database software was installed in December in preparation 
for the migration of the database. The virtual server provides 
enterprise-level data backup and replaces obsolete hardware. The 
Information Systems Office provides maintenance support for the virtual 
server and remote management tools for use by Library staff.
    The Library and the Information Systems Office worked with SAA 
staff to configure and test an off-the-shelf application to log, track, 
and route incoming SIS support requests. New processes and procedures 
were also established to monitor email and telephone requests and 
establish data entry and statistical requirements.
Preservation, Binding, and Collection Maintenance
    Technical Services staff continued to participate in book repair 
training sessions led by the Director of the Office of Conservation and 
Preservation. Trainees repaired 330 volumes, an increase of 74 percent 
from 2009, making significant progress in the preservation of the 
library's bound book collection.
    The library continues to preserve and protect rare and fragile 
print materials in its collections using commercial binding services 
procured through GPO. In 2010, a total of 456 volumes were sent out for 
binding, and 378 volumes were completed, with excellent results.
Budget
    Budget negotiations with database vendors resulted in flat or 
reduced pricing for online research services and subscriptions. Budget 
savings from price reductions in 2010 online research services and 
subscriptions totaled $38,077 over the next 3 years. After 13 years of 
budget monitoring, savings total $149,013. This continual review of 
purchases eliminates materials not meeting the Senate's current 
information needs. This oversight is also critical in offsetting cost 
increases for core materials and for acquiring new materials.
Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997 and is distributed throughout 
the Senate and to former staff and Senators. It serves as an historical 
record of accomplishments, events, and personnel news in the Office of 
the Secretary of the Senate. Highlights from the 2010 Unum issues 
include articles written by department interns on the history of the 
August recess, the State of the Union dinner hosted by the Secretary of 
the Senate; a feature on the slave labor plaque installed in the 
Capitol; a piece on the Curator's ``Rumors'' Web site; two articles 
about archiving Senate records by Senate Archivist Karen Paul; a 
feature about the 150th anniversary of the Civil War from a 
congressional viewpoint; and the continuation of the ``Senate Voices'' 
series prepared by the Historical Office that contains excerpts of oral 
histories of former staffers.
National Library Week
    David O. Stewart, author of Impeached. The Trial of President 
Andrew Johnson and the Fight for Lincoln's Legacy, was the featured 
speaker at the Library's 12th annual book talk in honor of National 
Library Week.
Display Cases
    Two well-received displays, one on the ``Senatorial Life of Everett 
Dirksen'' and the other on the ``Dirksen Senate Office Building'', were 
installed at the request of the Senate Rules Committee in the cases 
flanking the entrance to the Dirksen auditorium (SDG-50) in 
collaboration with the Senate Curator's Office and the Senate 
Historical Office. Hallway display cases outside the LOC continue to 
educate staff and visitors alike while highlighting the LOC's 
collections. Display cases featured this year include:
  --Civil War Capitol;
  --Civil War in Books;
  --Kids Books on Political Pets;
  --Great Reads for New Staff; and
  --History Lives at Your Library, a display highlighting African-
        American contributions to government, aviation, and medicine.
    The Great Reads for New Staff reading list has proved especially 
popular with staff and circulation of the books on the list 
skyrocketed. The Civil War in Books and the Civil War Capitol display 
are part of the LOC's commemoration of the 150th anniversary of the 
start of the Civil War.
Cooperative Projects
    Hearing URL data from the Library catalog is exported weekly to 
provide LIS and THOMAS with full-text links to Senate hearings. The 
library contributed 1,051 new Senate hearing links to the LIS database 
during 2010, a 50 percent increase more than 2009.
    The Library's Cataloging Supervisor completed work with Joint 
Committee on Taxation staff on a project to supply bibliographic 
records for a set of committee documents submitted for scanning at the 
Federal Scanning Center at LOC. The Committee provided the LOC with 
printed versions of any documents in the set not already in our 
collection. In 2010, a total of 412 new titles were added to the LOC's 
catalog as a result of this project.
Major Library Goals for 2011
    Complete procurement of Senate-wide online research services for 
fiscal year 2012.
    Create a team to evaluate Library course offerings and explore 
opportunities to contribute to the Office of Education and Training's 
task-based curriculum tracks. Provide a unified presentation of Library 
and SIS vendor-sponsored training on FrontPage.
    Complete transition of the Red Book Services Directory from pilot 
project to production service. Continue to develop new entries for the 
alphabetical organization display.
    Create an outreach committee to coordinate content, methods, and 
dissemination of targeted service and promotional offerings to reach 
new Senate offices and State staff.
    Task a working group with review and enhancement of SIS custom user 
interface for LexisNexis.
    Continue to work with SIS program vendors to make additional news-
related content available through Senate NewsWatch and the InfoViewer 
product.
    Provide cataloging staff training in preparation for the possible 
implementation of new cataloging rules, called Resource Description and 
Access (RDA), by LOC and other libraries worldwide.

                                                   SENATE LIBRARY ACQUISITIONS FOR CALENDAR YEAR 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government documents          Congressional publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaws      Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         22         61        120         21        307         10        113        157        789
February.............................................          7         30        109         64        219          9         77        123        631
March................................................         33         67        145        126        455         22        165        361      1,341
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         62        158        374        211        981         41        355        641      2,761
                                                      ==================================================================================================
April................................................         25         73        152         70        334         16         94        120        859
May..................................................         26         62         35         90        255         17        155        277        891
June.................................................         20        105        171        129        263          8        105        167        948
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         71        240        358        289        852         41        354        564      2,698
                                                      ==================================================================================================
July.................................................         23         73         97         32        343         12        113        249        919
August...............................................         16         42        237          7        304         10         70        403      1,073
September............................................         82         52        174         60        184          4         76        205        755
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        121        167        508         99        831         26        259        857      2,747
                                                      ==================================================================================================
October..............................................         22        102         85         42        334          3         54        372        992
November.............................................         15         63         39         15        357         11         96        100        681
December.............................................          8         31        225         43        364         13         92        192        960
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         45        196        349        100      1,055         27        242        664      2,633
                                                      ==================================================================================================
2010 Total...........................................        299        761      1,589        699      3,719        135      1,210      2,726     10,839
                                                      ==================================================================================================
2009 Total...........................................        314        831      1,653        464      3,660        204      1,162      2,540     10,514
                                                      ==================================================================================================
Percentage change....................................      -4.78      -8.42      -3.87     +50.65      +1.61     -33.82      +4.13      +7.32      +3.09
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic records cataloged
                                               S.    -----------------------------------------------------------------------------------------
                                            Hearing           Books               Government documents           Congressional publications      Total
                                            numbers  -----------------------------------------------------------------------------------------  records
                                            added to                                                                                  Docs./   cataloged
                                              LIS       Paper    Audio/ E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..................................         36         26          4          3  .........          17        222         26         67        365
February.................................         25         13  .........  .........  .........          16        131         17         57        234
March....................................         28         17          1          3  .........           9        243          7        131        411
                                          --------------------------------------------------------------------------------------------------------------
      1st Quarter........................         89         56          5          6  .........          42        596         50        255      1,010
                                          ==============================================================================================================
April....................................         34         29          7          8  .........           8         75  .........         62        189
May......................................         17         24  .........         10  .........          10        127          8        206        385
June.....................................         73         22          1          4  .........           7        116          6        104        260
                                          --------------------------------------------------------------------------------------------------------------
      2nd Quarter........................        124         75          8         22  .........          25        318         14        372        834
                                          ==============================================================================================================
July.....................................          9         20          3  .........  .........          13        200          4         97        337
August...................................         17         18          2          2  .........           8        166          1         90        287
September................................          8         29          8          3  .........           8         73          4         43        168
                                          --------------------------------------------------------------------------------------------------------------
      3rd Quarter........................         34         67         13          5  .........          29        439          9        230        792
                                          ==============================================================================================================
October..................................         27         42         14          8          2           2         76         27        163        334
November.................................         21         73          5         10          5          18        104         70         57        342
December.................................         17         25          1          7  .........           6        263         64         58        424
                                          --------------------------------------------------------------------------------------------------------------
      4th Quarter........................         65        140         20         25          7          26        443        161        278      1,100
                                          ==============================================================================================================
2010 Total...............................        312        338         46         58          7         122      1,796        234      1,135      3,736
                                          ==============================================================================================================
2009 Total...............................        331        677        155        107        317         153      3,876      1,185        321      6,791
                                          ==============================================================================================================
Percentage change........................      -5.74     -50.07     -70.32     -45.79     -97.79      -20.26     -53.66     -80.25    +253.58     -44.99
--------------------------------------------------------------------------------------------------------------------------------------------------------


                             SENATE LIBRARY DOCUMENT DELIVERY FOR CALENDAR YEAR 2009
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   center pages      pages
                                                   loaned     delivered                 printed        printed
----------------------------------------------------------------------------------------------------------------
January........................................         376         322          17            50         4,361
February.......................................         202         286          16            83         4,154
March..........................................         360         390          11            99         4,417
                                                ----------------------------------------------------------------
      1st quarter..............................         938         998          44           232        12,932
                                                ================================================================
April..........................................         282         420          12           100         9,032
May............................................         252         318          14            49         5,495
June...........................................         248         326          11            91         9,294
                                                ----------------------------------------------------------------
      2nd quarter..............................         782       1,064          37           240        23,821
                                                ================================================================
July...........................................         285         382          16            60        11,443
August.........................................         220         374          13           109         3,867
September......................................         255         377          27            20         4,753
                                                ----------------------------------------------------------------
      3rd quarter..............................         760       1,133          56           189        20,063
                                                ================================================================
October........................................         212         362          34             8         4,942
November.......................................         306         395          41           108         4,860
December.......................................         253         397          11            80         5,365
                                                ----------------------------------------------------------------
      4th quarter..............................         771       1,154          86           196        15,167
                                                ================================================================
2010 Total.....................................       3,251       4,349         223           857        71,983
                                                ================================================================
2009 Total.....................................       3,118       4,159         212         1,378        71,756
                                                ================================================================
Percentage change..............................       +4.27       +4.57       +5.19        -37.81         -4.77
----------------------------------------------------------------------------------------------------------------

                      page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April 2013.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 4, 2010 and January 28, 2011, 
the last day of school for each semester.
    Orientation and course scheduling for the spring 2010 and fall 2010 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    English usage pre- and post-tests were administered to students 
each semester and the results were reviewed by faculty to determine 
what usage instruction or remediation was needed.
    A foreign language seminar on basic grammar terminology was offered 
fall 2010.
    Study skills sessions were provided to identified students in need 
of training.
    Faculty and staff provided extended educational experiences to 
pages, including 20 field trips, two guest speakers, opportunities to 
play musical instruments and vocalize, and foreign language study with 
the aid of tutors. Eight field trips to educational sites and two guest 
speakers were provided for summer pages as an extension of the page 
experience.
    National tests were administered for qualification in scholarship 
programs. Fourteen pages took 28 Advanced Placement exams in 11 
subjects.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel serving in various locations. Pages 
included letters of support to the troops.
    The evacuation plan and COOP plan have been reviewed and updated. 
Pages and staff continue to practice evacuating to primary and 
secondary sites.
    Staff and pages participated in escape hood training, and staff 
renewed certification in CPR/AED procedures.
    All students and staff participated in a Constitution Day event.
    Computer Services upgraded the Page School's library computers to 
include Microsoft 2007.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered, as well as 
        optional academic support for students preparing to take AP 
        tests;
  --Foreign language tutors will provide assistance to students, and a 
        foreign language seminar on basic grammar terminology will 
        continue to be offered each semester;
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum;
  --English usage pre- and post-tests will continue to be administered 
        to students each semester to assist faculty in determining 
        needs of students for usage instruction; and
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
            printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with title 44, U.S. Code as it relates 
to Senate documents, hearings, committee prints, and other official 
publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes, and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.
Printing Services
    During fiscal year 2010, the OPDS prepared 3,698 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by the OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk, Senate Library, 
as well as the U.S. Botanic Garden, USCP, AOC, and the CVC. These tasks 
include providing guidance for design, paper selection, print 
specifications, monitoring print quality, and distribution. Last year's 
major printing projects included:
  --semi-annual report of the Secretary of the Senate;
  --tributes to retiring Senators;
  --art and historic objects in the Senate;
  --The Kennedy Caucus Room brochure;
  --2010 Senate Telephone Directory;
  --Senate gallery passes and visitor badges; and
  --CVC tour tickets and informational brochures.
Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the SAA Computer Division that 
provides greater billing accuracy and information gathering capacity; 
and adheres to the Senate Committee on Rules and Administration's 
transcription services billing guidelines for commercial reporting 
companies. During 2010, OPDS provided commercial reporting companies 
and corresponding Senate committees a total of 820 billing 
verifications of Senate hearings and business meetings; more than 
59,000 transcribed pages were processed at a total billing cost of 
$554,214.
    During 2010, the office processed all file transfers and billing 
verifications between committees and reporting companies electronically 
ensuring efficiency and accuracy.
Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. This allows committees to decrease, or eliminate, 
additional overtime costs associated with the preparation of hearings. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate recesses.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House Floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed more than 10,000 distinct legislative items 
during the 2nd Session of the 111th Congress, including Senate and 
House bills, resolutions, committee and conference reports, executive 
documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed by other Web sites, such as LIS and Thomas, used by 
congressional staff and the public.
Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate, but documents are also made available to the general public and 
other government agencies. During 2010, more than 12,000 requests for 
legislative material were received at the walk-in counter, through the 
mail, by fax, and electronically. Online ordering of legislative 
documents and the Legislative Hot List Link, where Members and staff 
can confirm arrival of printed copies of the most sought after 
legislative documents, continued to be popular. The site is updated 
several times daily each time new documents arrive from GPO to the 
Document Room. In addition, the office handled thousands of phone calls 
pertaining to the Senate's official printing, document requests, and 
legislative questions. Recorded messages, fax, and email operate around 
the clock and are processed as they are received, as are mail requests. 
The office stresses prompt, courteous customer service while providing 
accurate answers to Senate and public requests.
On-demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows OPDS to print necessary legislation for the 
Senate Floor, and other offices, in the event of a GPO COOP situation.
Accomplishments and Future Goals
    Over the past year, the OPDS has faced challenges by providing new 
services for customers and improving existing ones. Of particular note 
is the office's commitment to help ``green'' the Senate. During 2010, 
more than 5.5 million sheets of 100 percent recycled paper were ordered 
by Senate offices, representing a 22 percent increase more than the 
previous year. During the last 3 years orders for fully recycled stocks 
have increased 750 percent. The office works diligently to track 
document requirements, monitoring print quantities, and reducing waste 
and associated costs. More than 400 new and revised print jobs were 
routed electronically for customer approval improving turnaround time 
and efficiency.
    The office continues working with the GPO on behalf of its 
customers, to improve efficiency and to meet the evolving needs of the 
Senate. Focus on COOP and emergency preparedness will continue.
                    public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2009 through September 2010, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone or email, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995, as amended (collectively, the ``LDA''). In 
addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics, and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
Fiscal Year 2010 Accomplishments
    The office continued to implement S. 1, the Honest Leadership and 
Open Government Act (HLOGA), which amended the LDA and the Senate Code 
of Conduct. The office posted two guidance updates and concentrated on 
LDA compliance issues, referring 2,473 cases of potential noncompliance 
to the U.S. Attorney for the District of Columbia. The Senate Office of 
Public Records continued to test COOP plans and pandemic response 
plans.
Plans for Fiscal Year 2011
    The Public Records office will assess technology infrastructure 
needs, as well as continue to semiannually review and update the LDA 
Guidance as needed. The office will continue to develop and implement 
educational information and tools that will help all report filers 
comply fully with the law and assist customers in accessing the 
information they seek.
Automation Activities
    During fiscal year 2010, the Senate Office of Public Records worked 
with the SAA to enhance database performance for all issue areas and 
improve public query programs.
Federal Election Campaign Act, As Amended
    The act requires Senate candidates to file quarterly and pre- and 
postelection reports. Filings totaled 5,147 documents containing 
358,500 pages.
Lobbying Disclosure Act of 1995 (LDA), As Amended
    The LDA requires semi-annual financial and lobbying activity 
reports. As of September 30, 2010, there were 4,635 registrants 
representing 18,776 clients. The total number of individual lobbyists 
disclosed on 2010 registrations and reports was 12,754. The total 
number of lobbying registrations and reports processed was 131,410.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 17, 
2010. The reports were made available to the public and press by June 
16, 2010 as required by statute. Public Records staff provided copies 
to the Select Committee on Ethics and the appropriate State officials. 
A total of 3,191 reports and amendments were filed containing 21,651 
pages. There were 463 requests to review or receive copies of the 
documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 316 Gift Rule/Travel 
reports during fiscal year 2010.
Registration of Mass Mailing
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2010 was 495.
                    stationery room
    The United States Senate Stationery Room is the provider of office 
and administrative supplies, personalized stationery, and special order 
items for official Government business. The Stationery Room serves all 
Members, support offices, and other authorized organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid, statutorily required, and/
        or GSA schedules for supply procurement;
  --Maintaining sufficient in-stock quantities of select merchandise in 
        order to best meet the immediate needs of the Senate community;
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise;
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements;
  --Managing all accounts receivable and accounts payable 
        reimbursement; and
  --Ensuring the integrity of all funds and other government assets 
        under our control.

------------------------------------------------------------------------
                                                  Statistics
                                     -----------------------------------
                                      Fiscal year 2009  Fiscal year 2008
------------------------------------------------------------------------
Gross sales.........................     $3,343,167.00     $3,594,733.94
                                     ===================================
Sales transactions..................            44,626            47,459
Purchase orders issued..............             6,354             6,586
Vouchers processed..................             7,022             7,073
Office deliveries...................             5,986             5,661
Number of items delivered...........           136,021           134,191
Number of items sold................           390,528           439,042
Total cartons received offsite......            22,583  ................
------------------------------------------------------------------------

GAO Audit
    At the request of the Secretary of the Senate, in September 2010, 
GAO conducted an inventory observation and audit of the Stationery Room 
financial operations. The Stationery Room received a positive review 
during the verbal feedback portion of the GAO exit interview. The 
recommendations provided by GAO at the conclusion of their observation 
had either already been implemented or will be adapted as recommended 
as part of our future operational procedures.
Fiscal Year 2011--Looking Ahead
    Subject to funding availability, the Stationery Room anticipates an 
upgrade to its point-of-sales operations, by upgrading/replacing 
obsolete signature capture devices at the counter. This update would 
permit transaction receipts to be emailed to the office at the time of 
sale, eliminating the generation and loss of paper receipts, and a more 
environmentally friendly process.
    The Stationery Room hopes to launch a pilot project that will allow 
constituents to make online flag purchases from Senate offices 
utilizing credit cards to orders. In addition, the Stationery Room 
anticipates launching online ordering of stationery supplies by Member 
and committee offices in 2011.
                    web technology
    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to the Senate Staff;
  --central portions of the Senate Intranet (Webster.senate.gov)--
        available to the Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, LOC, AOC, 
        GAO, GPO, Congressional Budget Office (CBO), and USCP.
The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Senate Web site content is maintained by more than 30 
contributors from seven departments of the Secretary's office and three 
departments of the SAA. Content team leaders regularly share ideas and 
coordinate the posting of new content. All content is controlled 
through the Secretary's Web Content Management System (CMS) managed by 
the Department of Web Technology.
Major Additions to the Web site in 2010
    Rumors! Tall Tales About Senate Art http://www.senate.gov/
artandhistory/art/myths/myth_homepage.htm
    The online exhibit dispels common rumors regarding Senate art. This 
project was a multi-year effort, and the final online version is the 
product of close collaboration with the Curator's Office.
Artifact Browse List Collections
    http://www.senate.gov/artandhistory/art/common/collection_list/
Interior.jsp.
    http://www.senate.gov/artandhistory/art/common/collection_list/
Sittername_List.jsp.
    http://www.senate.gov/artandhistory/art/common/collection_list/
Beyond_Cap_Hill.jsp
    Created new and interesting ways for the Curator's Office to group 
artifacts and for these artifacts to be displayed, researched, and 
enjoyed by a large and diverse audience. The flexibility of these lists 
made it possible to reorganize the artifacts on Senate.gov into a much 
more useful manner.
Decorative Art Added
    http://www.senate.gov/pagelayout/art/a_three_sections_with_teasers/
DecorativeArts.htm.
    The previously mentioned artifact browse lists were instrumental to 
getting new genres of artifacts online. The addition of furniture, 
mirrors, timepieces, and ephemera makes even more of the Senate Art 
collection available for all to enjoy in a fun and informative display.
Daily Senate Floor Report
    http://www.senate.gov/legislative/LIS/floor_activity/
floor_activity.htm.
    The online report highlights morning, legislative, and executive 
business that occurred in the previous day. This one report combines 
information previously only available in several different documents 
and provides hyperlinks to relevant information, such as bill summary 
and status pages, treaties, nominations, and roll call votes. Previous 
days' data will be made available in the coming year.
Public Records Feedback Form
    http://www.senate.gov/legislative/Public_Disclosure/
feedback_form.htm.
    The newly added Web form provides an additional avenue of 
communication with the Office of Public Records.
Investigation Committees
    http://www.senate.gov/artandhistory/history/common/briefing/
Investigations.htm.
    Produced new page templates and modified existing ones to allow the 
Historical Office to showcase and share their rich historical accounts 
of Senate and Joint Committees involved in investigations. These 
highlight Members involved and trace the origins through the outcome of 
these Committees. This is surely an area that will continue to expand 
over the years as we are able to add more information about past 
investigation Committees and as future ones arise.
Committee FAQ
    http://www.senate.gov/general/common/generic/committee_faq.htm.
    In response to many emails sent to the public Webmaster account, 
data gathered from Web traffic tools, and analysis of searches entered, 
this new page was created to answer question about committees and clear 
up common misconceptions.
Legislative Process Information Enhanced
    http://www.senate.gov/pagelayout/legislative/
d_three_sections_with_teasers/process.htm.
    Revamping this section greatly added to the amount of information 
available on the legislative process. A related enactment of law 
section was also created and linked as a companion: http://
www.senate.gov/legislative/common/briefing/Enactment_law.htm.
Senate Chronology Page
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
chronology.htm#chrono logy=y1787_1800.
    Implemented a new and interesting way to display historical 
information in conjunction with the Historical Office. The new display 
puts all information on a single page which allows the user far more 
interaction.
Seven Featured Biographies
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
featured_biographies.htm.
Four Oral Histories
    http://www.senate.gov/pagelayout/history/
g_three_sections_with_teasers/oralhistory.htm.
Visitors Section Expanded
    http://www.senate.gov/pagelayout/visiting/
a_three_sections_with_teasers/visitors_home.htm.
    Unique subsections were added in the visitors section for 
employment and procurement opportunities. The employment page allows 
for the browsing of positions available with the Secretary of the 
Senate, SAA, Member, and committee offices. The information for these 
positions come from unique systems and are combined into a single 
useful resource location.
    Homepage feature articles were published on the following topics:
  --Yea or Nay voting in the Senate;
  --Celebrate National Library Week: Browse Senate Art Publications;
  --Biographical Directory: Who's Who in Congress;
  --The Role of Committees in the Legislative Process;
  --Senate Art Exhibits: Learning about the Senate;
  --Focus on the Constitution: The Connecticut Compromise; and
  --Explore the Senate's Decorative Art Collection.
Secretary's Intranet--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Secretary of the Senate Intranet (http://webster.senate.gov/
secretary) continued to expand information and services offered. An 
archive for UNUM, the newsletter of the office of the Secretary of the 
Senate, was established and linked to from the front page. Web-based 
order forms were maintained, expanded, and enhanced for the requesting 
of specific legislative documents, class registration, blank paper, 
room reservations, and stationery product suggestions.
    A catalog-based ordering system was developed for the Stationery 
Office, which will allow staff to order online. The new system is 
managed with the content directly from the Stationery Office's existing 
Microsoft Retail Management System (RMS). The ordering system was 
designed and implemented with the intent of being especially helpful to 
State offices. This project was a multiple-year effort involving 
several different departments and the diligent work of four interns who 
were instrumental in associating pictures with products.
    FrontPage, the Web portal for the SIS, was moved to the Secretary's 
internal domain and has a completely new look. Web technology worked 
very closely with the Senate Library to help establish and provide 
surveys, announcements, and information regarding the transition in 
addition designing, developing, and launching the new site, 
frontpage.senate.gov, in a short period of time. The design utilizes 
more advanced technologies to make the site interesting and useful. All 
feedback suggests the new design is very helpful and well received by 
users.
Webster Central Web site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with the SAA, Chaplain, and Senate Rules Committee, 
Web Technology continued administering, managing, and enhancing the 
central section of Webster. Web Technology partnered with the SAA and 
the Senate Library to enact major changes to the services tab, the 
search functions, and the links available on the lower left of the home 
page.
    The services tab is now a categorical listing of services available 
to the Senate that provides relevant Web pages, phone numbers, and 
addresses in a very easy to use interface. The data is produced using a 
taxonomy system and integrated through the CMS. The same source data is 
used to populate the newly expanded Webster search. This very advanced 
technique allows the same source file used for the services to produce 
the most relevant search results in the new directory in real time and 
without additional work.
    Web Technology continue to further streamline the management of 
content on the central site by repurposing additional files that are 
already updated through existing systems on Senate.gov. The expansion 
of repurposed data continues to reduce duplicative efforts, increase 
consistency, relevancy, and timeliness of data displayed on Webster. 
Standardizing on XML across both sites and having them integrated into 
the Secretary's CMS was essential to making this possible.
Senate Legislative Branch Web site (Legbranch.senate.gov)
    The Legbranch server is accessible by the Senate, House of 
Representatives, LOC, AOC, GAO, GPO, CBO, and USCP. Web technology 
maintains a basic Web site for a Capitol Hill email messaging working 
group managed by the SAA. In the future the server will be used to 
share more information with other Capitol Hill entities.
Accomplishments of the Office of Web Technology in 2010
    Completed the CMS upgrade on time and under budget. New hardware 
hosts the most currently released versions of the software (as of 
January 2010) that comprises the CMS. This upgrade has proven to be the 
most stable environment yet. Additionally, Web Technology built a 
complete development repository that mimics the production environment. 
This allows us a much greater ability to customize the system and try 
out various solutions without compromising the uptime or efficiency of 
the production version.
    Added the Daily Senate Floor Report to Senate.gov. This represents 
a milestone, as this project has been worked on for approximately the 
past 5 years. The online report highlights morning, legislative, and 
executive business that occurred the previous day. This one report 
combines information previously only available in various printed 
documents. Having much of the data hyperlinked to relevant information, 
such as bill summary and status pages, treaties, nominations, and roll 
call votes, makes this a tremendously useful resource.
    Audited the Senate.gov Web pages regularly, updating, enhancing, 
and correcting pages; verifying content; and reviewing individual page 
designs throughout Senate.gov for accessibility and usability. 
Additionally, attended training on the latest advances in coding 
techniques to ensure accessibility and applied them to our sites.
    Constantly monitored data feeds from the LIS/DMS system ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance regarding information such as 
committee hearing schedules, vote data, and Member contact information.
    Worked with new Senate offices to establish and maintain temporary 
Web pages including a picture, biography, and contact information until 
they were able to get permanent Web sites established.
    Responded to approximately 1,000 emails from the general public 
regarding Senate.gov sites. Worked with various content providers, Web 
support groups, the SAA, Member, and committee offices to make 
suggestions and resolve issues.
    Continually reviewed and adjusted search operations and canned 
matches for both Senate.gov and Webster based on user tendencies and 
requests. A major addition was the creation and maintenance of a new 
Google onebox for the services (Red Book) recently released.
    Prepared for the release of an online version of the Secretary of 
the Senate's Report. Collaborated with the Disbursing Office, the 
Committee on Rules and Administration, and GPO to formulate a strategy 
to provide the report in a useful and secure manner.
    Produced several new versions of the Senate Chief Counsel for 
Employment Web site. Worked closely with the office to achieve their 
desired look through several iterations of design, development, and 
review.
    Designed and developed a seminar registration application for the 
Senate Chief Counsel for Employment. The system allows customized links 
to be sent which auto-populates a registration form along with a 
complete class list.
    Conducted user testing with Senate staff and interns to increase 
understanding of current Web site interactions, desires, and best 
practices.
    Participated in Capitol Hill working group determining ideal manner 
of providing public legislative data in a secure, downloadable, and 
searchable format. Other entities involved in this project are the 
House of Representative, GPO, and the LOC.
    Helped organize Capitol Hill-wide Webmaster meetings, where best 
practices were shared across entities. Regularly gave presentations and 
facilitated conversations during meetings.
    Continually trained and practiced working from remote locations to 
be prepared should the need arise. All staff members are fully capable 
of accomplishing their job functions from any location with Internet 
access. This was accomplished largely through configuring virtual 
machines that mimic our workstations on office laptops, which we all 
may access. Regardless of which staff member uses which laptop, the 
experience will be ubiquitous and consistent with being in the office.
    Aided the Senate Library in aspects of SIS transition. The new 
FrontPage interface exposes many more resources in an easy to use 
manner. In leveraging advances in Web 2.0 technologies, Web Technology 
is able to take greater advantage of available space and provide robust 
information concisely. Through designing and developing the system in 
XML and leveraging the CMS it is easy for nontechnical users to update 
and maintain.
    Worked extensively with the Senate Library in the continued 
development, implementation, and maintenance of taxonomies utilizing a 
knowledge base system. Participated in the planning, design, 
development, and administration for including the ``Red Book'' data in 
the knowledge base and then on Webster.
    Created virtualized development server for the Secretary's 
Intranet. Also, maintained virtualized production server for the 
Secretary's Intranet and dedicated search server.
    Worked with the Historical Office and GPO in the design of a new 
stand-alone site for the Historical Office's States project that will 
be available to the public as well as Senate staff. All required data 
templates for the new site have been established in the content 
management system.
    Continued to enhance subject-based collection lists for the Senate 
Curator. Initially the lists organized art objects by sitters. It has 
been expanded to other subject areas, all drawn from the Curator's 
maintained object database, along with more advanced control options 
for Curator staff.
    Developed a new vote menu display that utilizes legislative handles 
and has new display features as requested from the Legislative Clerks. 
Working closely with the LIS/DMS group to implement requested data 
changes that will coincide with the new display.
    Successfully transitioned more than 700 hyperlinks to GPO's FDSys 
as they phase out GPOAccess.
    Built an entire new back-up server for the CMS at the ACF with the 
SAA, ensuring our COOP plan can be implemented. The ACF server is an 
exact replica of the production system and is continually tested to 
serve as a real time replacement should the production server become 
inoperable. Shortly after the upgrade was completed, Senate.gov 
experienced a hardware failure that necessitated the use of the ACF 
environment while the Senate was in session and votes were occurring. 
Due to extensive planning, Web Technology was able to stand up the 
alternative system in approximately 1 hour, a major accomplishment.
Senate.gov Usage Statistics
    In 2010 an average of more than 275,000 visits occurred per day on 
Senate.gov. Again this year, approximately 26 percent of visitors 
entered through the main Senate homepage. The majority came to the site 
through the main Senators' contact page; growth in visits is likely due 
to the addition of XML data to the contact page and associated 
automated requests.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Visits from
                        Title of Web page                          Visits/month       Average      United States
                                                                                     duration      (percentage)
----------------------------------------------------------------------------------------------------------------
Senate.gov site.................................................       8,521,779      16 minutes              90
Senate homepage.................................................       1,856,960      15 seconds         ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not available.

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2010
----------------------------------------------------------------------------------------------------------------
                                                                                                      Average
                            Top pages                              Visits/month    Visits/month      duration
                                                                                                     (seconds)
----------------------------------------------------------------------------------------------------------------
Senators contact info list......................................         276,248         624,056              42
Committees......................................................          67,194          92,871              37
Legislation and records.........................................          56,264          75,156              80
Active legislation..............................................          49.139          63,931             167
Votes home......................................................          48,793          68,966              68
111th, 2nd Session vote menu....................................          44,242          74,223             146
Employment positions............................................          40,471          48,703             416
Calendars.......................................................          33,594          73,100             182
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on the main Senate Web site 
is the list of Senators with links to their Web sites, comment forms, 
main office addresses, and telephone numbers. Visitors also continue to 
be interested in legislative matters in 2010 with Roll Call Vote 
Tallies, the Active Legislation table, Committee assignments, and 
schedules being particularly popular. The visits per month did decrease 
across some of the most visited pages on the site. A big increase is 
noted for the visitors to the employment pages now offered on 
Senate.gov indicating this is a much used and valuable resource.

    Senator Nelson. Thank you.
    Senator Hoeven has now joined us.
    Do you have any opening remarks that you might want to make 
before we ask the SAA to make his presentation?
    Senator Hoeven. Only briefly, Mr. Chairman. Thank you.
    My only opening comment, at this point, is to thank all of 
you for being here, and even more so for the incredible job 
that you do. I've just been here a short while, but I can't 
help but be impressed by what you do and how well you provide 
for not only the Members themselves, but also for all the other 
things that you do that go into a really complex and difficult 
job. This, of course, is the people's capitol in the greatest 
Nation in the world. And so, your responsibility is tremendous.
    And you're really on a world stage. I can think of all the 
times that I saw, on television, Terry Gainer leading the 
President in during the State of the Union Address. And, of 
course, all of the things that go into securing these premises, 
Chief, and still making it friendly to the public.

                           PREPARED STATEMENT

    And so, Nancy, to you, and to all of you, for the job that 
you do, again, in providing for the Senators, the Members of 
Congress, and, at the same time, keeping this incredible 
complex that is so historically significant and so magnificent 
in every way for the responsibility you have and the way that 
you conduct your duties every day, I just want to commend you 
for that; and, of course, look forward to working with you on 
this very important aspect of doing that important job; and, of 
course, that's the budget.
    So, thank you so much.
    [The statement follows:]
               Prepared Statement of Senator John Hoeven
    Thank you, Chairman Nelson, for calling this hearing to consider 
the fiscal year 2012 legislative branch budget requests for the 
Secretary of the Senate, the Sergeant at Arms (SAA), and the United 
States Capitol Police (USCP). I would like to join you in welcoming our 
witnesses: Secretary of the Senate, Nancy Erickson; Senate SAA, Terry 
Gainer; and the Chief of the USCP, Phillip Morse; and their deputies 
and assistants who will be assisting with testimony. I thank you all 
for being here with us today for this important discussion on how the 
agencies you represent are planning to move forward in the coming 
fiscal year.
    The Secretary of the Senate's office is requesting $31.99 million, 
a slight increase of 0.2 percent to restore the across-the-board 
rescission that was taken of all non-defense, discretionary 
appropriations in the final fiscal year 2011 continuing resolution. 
This funding request maintains the transfer of the Senate Information 
Services program from the SAA to the Secretary's office, so I am 
pleased to have both of you here today to speak about this particular 
program, its funding needs and the success of its transfer.
    The SAA total request is $219.2 million, an increase of $214,000, 
or 0.1 percent, which includes $77.6 million for salaries and $141.6 
million for expenses. The subcommittee worked very closely with the SAA 
and the Secretary's office last year to ensure that appropriate funding 
was in place for the Telecom Modernization and Payroll System Upgrade 
projects, so I am very interested in hearing about how those projects 
are progressing.
    Finally, the USCP request totals $387.6 million, an increase of 
$47.5 million, or 14 percent, which includes an increase of $22.2 
million, or 8 percent, for salaries and $25.3 million, or 40 percent, 
for expenses. I am interested to hear about improvements that have been 
made in the budget formulation process, after the budget 
miscalculations from fiscal year 2010, and whether or not any 
improvements have been made in the overtime issue that the USCP 
continues to face. And of course, I look forward to an update on the 
Radio Modernization Program.
    As you are all painfully aware, the completion of the fiscal year 
2011 appropriations process included great debate on both sides of the 
aisle and both sides of the Capitol on how best to reduce overall 
spending across the Federal Government. While we made reductions to 
many funding levels in the legislative branch, for the most part each 
of the appropriations accounts within your agencies was either held 
relatively harmless or received an increase when compared to fiscal 
year 2010. I would suggest that you should not anticipate receiving 
such favored treatment in the fiscal year 2012 budget--we must 
seriously begin the process of scaling back funding in all 
appropriations accounts, even if it means giving up some of the 
services we are accustomed to receiving here in the Capitol complex.
    I look forward to working with you on the funding issues for your 
agencies as we move through the fiscal year 2012 process.
    Thank you, Mr. Chairman.

    Senator Nelson. Thank you, Senator Hoeven.

                    SERGEANT AT ARMS AND DOORKEEPER

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS
    Mr. Gainer. Thank you, Mr. Chairman and Ranking Member 
Hoeven. I appreciate the opportunity to join my colleagues 
before you this afternoon to discuss our budget submission for 
the upcoming fiscal year.
    I ask that my written testimony be submitted and made part 
of the record.
    Senator Nelson. And it will be.
    Mr. Gainer. Mr. Chairman, we have spoken, over the past few 
years, about the importance of tightening our belts amidst the 
fiscal turmoil we find ourselves in, and we have heard you with 
unmistakable clarity. Senator Hoeven and I and my two 
colleagues recently met with him and had a very similar 
conversation.
    Accordingly, the budget request I have submitted for fiscal 
year 2012 is, as you indicated, just a bit more than $219 
million. That is an increase of less than $250,000 more than 
the fiscal year 2011 enacted level, and 9 percent, or $20 
million, below the amount I requested in fiscal year 2011. This 
year, we have chosen to defer requests for upgrades to our IT 
systems and for increased capacity for our data storage 
networks, requests we would have made in a better budget 
environment.
    To the extent we have some urgent needs that cannot be 
deferred further without affecting operations of the Senate, we 
will submit a request to the subcommittee to use our remaining 
prior year unobligated funds to cover them.
    I am proud of the efforts my staff has made to reduce costs 
across the agency, and we will continue to look for ways to 
achieve additional savings with uncompromising service to the 
community.
    The SAA is a member of the legislative branch procurement 
group--this is an example of some savings--which enables 
legislative branch agencies to recognize savings and economies 
of scale by working together on common contracts and 
acquisition activity. Through these combined efforts, 
legislative branch agencies have saved $6.6 million during 2009 
and 2010.
    Mr. Chairman, our budget has remained virtually flat for 3 
consecutive years. We have identified and eliminated all of the 
so called low-hanging fruit in our budget. I fear that further 
reductions will adversely impact our service to you and the 
Senate community. In order to be good stewards of the 
taxpayers' money, it is my responsibility to make sure that we 
are providing the infrastructure, security, and support needed 
for this institution to run smoothly. These services take place 
not only here in Washington, but in the 454 State offices.
    My 40-plus-page written testimony covers accomplishments 
and challenges during the past year. Let me give you just a few 
highlights.
    In the last 2 years, our phone system was overwhelmed by 
the massive volume of calls generated by the healthcare debate. 
Senators were upset, rightly so, and so were your constituents. 
There were gaps in the phone service between Members and their 
constituents, and our voicemail system was unable to withstand 
the pressure. It was our job to ensure that this does not 
happen again.
    To that end, offices were introduced, last year, to the 
Watson Messaging and Watson Online directory updates. These 
functions provide one of the key things officers were asking 
for: the ability to tailor their internal processes to better 
meet their constituents' needs. The new phone system, which 
will begin to roll out later this year, will be even more 
robust than the current one, and will eliminate the volume-
related issues we have seen in the past.
    Our IT successes this year included the continuation of our 
server virtualization efforts. We will reduce energy, 
maintenance, and support costs by running more than 500 servers 
in the virtual environment.
    Our Help Desk team achieved a customer satisfaction rating 
of more than 96 percent--an excellent level. We successfully 
processed 257 million email messages in the past year, while 
protecting our customers from spam and malicious messages.
    And we continue to update the tools the Senators and staff 
can use to stay connected with each other and their 
constituents: adding smartphones and other mobile wireless 
devices to our catalog, and upgrading the already robust video 
conferencing capabilities.
    This subcommittee granted us approval last year to relocate 
our printing, graphics, and direct-mail function from Postal 
Square on Capitol Hill to the new offsite facility located in 
Landover, Maryland. Thank you very much. We are very grateful 
for your leadership on this endeavor, and proud to report that 
the project is on schedule, actually a little bit ahead of 
schedule, and under budget, and will generate a substantial 
savings in cost as we move forward. Our return-on-investment 
calculations appear to be right on target. We'll save more than 
$10 million in the 20 years, for about a 3.6 percent return on 
investment.
    During 2010, our post office processed the second-highest 
volume of mail in the last decade. I'm pleased to announce, in 
February of this year the Senate Post Office began accepting 
credit and debit cards, an added convenience for our customers. 
There's been very good feedback on that.
    The number of floor proceedings has increased, the number 
of committee hearings has substantially increased, the number 
of radio feeds that we've sent out has increased. All this has 
been brought about by the allocations that you, Chairman, and 
your budget committee have given us.
    In May 2010, we opened a Hart Senate Office Building 
appointment desk to assist staff in escorting guests to the 
Capitol. Our five Senate appointment desks collectively 
welcomed nearly 165,000 guests during 2010. Our customer and 
employee satisfaction levels have never been higher. The 
numbers are very good, both within the SAA and Senate-wide. 
But, providing quality service to the Senate wouldn't be 
possible without our close working relationship with the 
Secretary of the Senate, the USCP, the Architect of the Capitol 
(AOC), and the Senate Committee on Rules and Administration.
    Recently, just as another example, in working with the 
Senate Rules Committee and the USCP, we implemented a new 
Senate floor closure policy that establishes a clear and 
concise hours of operations of the doors. This initiative will 
save 8,970 hours of overtime and $553,000 annually. Chief Morse 
and the Rules Committee worked very hard on that.
    We have a great team, led by Martina Bradford, my deputy; 
Bret Swanson in Operations; Chris Dey, our Chief Financial 
Officer; Pat Murphy, Human Resources Director; Kim Winn, the 
Chief Information Officer; Christy Prietsch, who serves the 
entire Senate community and has been very busy in the Employee 
Assistance Program; Cam Stickley, Education and Training 
Director; Becky Daugherty, our protocol officer; Rich 
Majauskas, in Continuity and Emergency Preparedness; Mike 
Stenger, in Intelligence and Protective Services; and Rick 
Edwards, in Capitol Operations.
    The only area in which I have not been successful is to 
change Nancy Olkewicz from an oppressor to one who's oppressed. 
But, we are working on that. And I will be happy to answer any 
questions.

                           PREPARED STATEMENT

    But, I would just like to say something to my partner, 
Chief. Many of the drivers of the USCP budget increase lie in 
the constant challenges imposed by the USCP Board, ongoing 
threats, and the Chief's proactive desire to enhance safety. 
So, while that seems like, ``Why do we keep raising that?'' I 
sometimes wish the board could come and testify about all the 
angst we go through to try to make this place safe.
    Thank you, Sir.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Senate Sergeant at Arms (SAA) has made over 
the past year and our plans to enhance our contributions to the Senate 
in the coming year.
    For fiscal year 2012, the SAA respectfully requests a total budget 
of $219,176,000. This is an increase of $214,000 more than the fiscal 
year 2011 enacted level, and $20,000,000 (or 9 percent) below the 
amount requested in fiscal year 2011. This modest budget request will 
allow us to maintain, for now, the level of service we provide to the 
Senate community. Mr. Chairman, you have spoken over the past few years 
about the importance of tightening our belts amid fiscal turmoil and we 
have heard you with unmistakable clarity. This year, we have chosen to 
postpone making requests for upgrades to our information technology 
(IT) systems and for increased capacity to our data storage networks, 
requests we would have made in a better budget environment. Instead, as 
the committee previously requested, we are submitting a request to use 
prior year unobligated balances for the technology items we removed 
from the fiscal year 2012 budget.
    I am proud of the efforts my staff has made to reduce costs across 
the organization and will continue to look for ways to achieve 
additional savings without compromising service to the Senate 
community. Mr. Chairman, we have remained flat for 3 years now. We have 
exhausted our efforts to eliminate the so-called ``low-hanging fruit''. 
I fear that additional cuts to this budget will significantly impact 
our service to the Senate community. The appendix accompanying this 
testimony elaborates on the specific components of our fiscal year 2012 
budget request.
    In developing this budget and our operating plans, we are guided by 
priorities framed in our Strategic Plan, including ensuring the United 
States Senate is as secure and prepared for an emergency as possible, 
and providing the Senate with outstanding service and support, 
including the enhanced use of technology.
    Our preparedness efforts during the past year placed a premium on 
our interaction with Senate offices. During 2010, each office was 
personally visited or contacted by a member of our emergency 
preparedness team multiple times in response to support requests or to 
update emergency plans. Each contact was designed to enhance and 
upgrade our program and ensure that Senate staff has the essential 
tools necessary to respond during an emergency. We leveraged these 
interactions to ensure we addressed preparedness planning, emergency 
notification protocols, emergency equipment, and accountability of 
staff throughout an emergency event.
    Our IT successes this year included the continuation of our server 
virtualization efforts, where we reduce energy, maintenance, and 
support costs by running more than 500 servers in a virtual 
environment. Our Help Desk team achieved a customer satisfaction rating 
of more than 96 percent at the satisfactory or excellent level. We 
deployed new voice messaging and directory update capabilities as part 
of our ongoing telecommunications modernization project. We 
successfully processed 257 million email messages during calendar year 
2010, while protecting our customers from spam and malicious messages. 
And we continued to update and expand the tools that Senators and staff 
can use to stay connected with each other and their constituents--
supporting iPhones and iPads, adding mobile wireless devices to our 
technology catalog, and upgrading our already robust video conferencing 
capabilities.
    In other services, our cabinet shop designed, built, and installed 
177 pieces of furniture, a 43 percent increase from the previous year. 
The demand for framing services increased by 6 percent more than the 
previous year with a total of 2,764 orders completed. During fiscal 
year 2010, our Printing, Graphics, and Direct Mail (PGDM) department 
continued to improve operations and respond to the demand for producing 
documents from digital files. By utilizing the latest technology in 
digital printing, the publishing section produced 7.8 million pages, an 
increase of 81 percent more than fiscal year 2009. Another area of high 
demand during fiscal year 2010 was the production of charts. By 
upgrading software to process files quicker, PGDM produced 9,273 large-
format charts, an increase of 15 percent more than fiscal year 2009.
    And Mr. Chairman, in fiscal year 2010, this subcommittee approved 
the use of prior year unobligated funding to relocate the Postal Square 
printing and mailing operations to a new facility in Landover, 
Maryland. This relocation has a projected net positive cash flow of 
$2.8 million and 3.6 percent return on investment over 20 years. Design 
plans have been approved for the build-out of the facility, and the SAA 
has contracts in place to support moving equipment and installing data 
communications and a security system. Construction started in January 
2011 and PGDM will begin moving equipment in July 2011 and take 
occupancy in September 2011. We greatly appreciate your support in this 
effort.
    My organization continues to be a good steward of taxpayers' 
dollars as we continue to elevate our performance. Our productivity 
increased to unprecedented levels, exemplified by the Senate Post 
Office processing the second-highest volume of mail in the last decade, 
surpassed only by 2009. I was pleased to announce in February of this 
year that, as an added convenience for our customers, the Senate Post 
Office now accepts credit and debit cards. Feedback from our customers 
has been extremely positive.
    The year 2010 represented another busy period for the Recording 
Studio. Last year, we provided 1,078 hours of gavel-to-gavel coverage 
of Senate Floor proceedings. We provided broadcast coverage of 723 
Senate committee hearings and 1,074 radio productions. Additionally, 
our team of seasoned professionals produced 1,066 shows for Senators 
from our television studios. In addition, this past year our Recording 
Studio broke new ground when we provided the land-based production and 
engineering support for an appropriations hearing which included a live 
videoconference with astronauts aboard the International Space Station.
    To enhance our services to the Senate community, in May, 2010, we 
opened a Hart Senate Appointment Desk to assist staff in escorting 
guests to the Capitol. Our five Senate Appointment Desks collectively 
processed 163,811 guests during 2010. The total number of badges issued 
was the second highest in a given year since the appointment desks were 
created more than 26 years ago. The past 4 years have been 
extraordinary in that the Senate has been in session an average of 181 
days from 2007 through 2010. This represents a 21 percent increase to 
the 150 average number of days the Senate was in session from 1996 
through 2006. Our customer satisfaction and employee morale levels have 
never been higher. All of this is to say that the SAA team is working 
toward the vision of our Strategic Plan: Exceptional Public Service . . 
. Exceeding the Expected.
    Assisting with all of the efforts of the SAA is an outstanding 
senior management team including Martina Bradford, who serves as my 
Deputy; Republican Liaison Mason Wiggins; Assistant Sergeant at Arms 
for Capitol Operations Rick Edwards; General Counsel Joseph Haughey; 
Legislative Liaison Nancy Olkewicz; Assistant Sergeant at Arms for 
Continuity and Emergency Preparedness Operations Rich Majauskas; 
Assistant Sergeant at Arms for Intelligence and Protective Services 
Mike Stenger; Assistant Sergeant at Arms and Chief Information Officer 
Kimball Winn; Chief Financial Officer Chris Dey; and Assistant Sergeant 
at Arms for Operations Bret Swanson. The many goals and accomplishments 
set forth in this testimony would not have been possible without this 
team's leadership and commitment.
    We are grateful for our relationship with the U.S. Capitol Police 
(USCP). I am honored this year to serve as Chairman of the United 
States Capitol Police Board and, in this regard, I value the input of 
the other members, House Sergeant at Arms Bill Livingood, Architect of 
the Capitol (AOC) Stephen Ayers, and Chief Phillip D. Morse, Sr., who 
is an ex officio member of the Board. Working with the Senate Committee 
on Rules and Administration and the USCP, we recently implemented a new 
Senate door closure policy that establishes clear and concise hours of 
operation for the doors in the Senate office buildings and the Senate 
side of the Capitol. This initiative will save 8,970 hours of overtime 
duty and $553,000 annually.
    The SAA also works with other organizations that support the 
Senate. I would like to take this opportunity to mention how important 
their contributions have been in helping us achieve our objectives. In 
particular, we work regularly with the Secretary of the Senate, the 
AOC, and the Office of the Attending Physician. When appropriate, we 
coordinate our efforts with the United States House of Representatives 
and the agencies of the executive and judicial branches. I am impressed 
by the people with whom we work and blessed with the quality of the 
relationships we have built together.
    I am very proud of all the men and women of the SAA team who help 
keep the Senate running. While serving as SAA, I have seen their great 
work and devotion to this institution. The employees of the SAA are 
among the most committed and creative in Government.
    As always, my staff and I are grateful for the support and guidance 
of your subcommittee, the full committee and the Senate Committee on 
Rules and Administration.
   <greek-l>saa deg.continuity and emergency preparedness operations
Emergency Planning
    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities and equip 
them with the necessary tools to respond to any situation. Each year we 
strive to improve these procedures using industry best practices and 
lessons learned. We made significant strides to ensure staff 
preparedness through enhancing Emergency Action Plans (EAP), mobility-
impaired evacuation procedures, internal relocation actions, and the 
annual Chamber Protective Actions exercise.
    The central document that reflects our preparedness efforts is the 
EAP and I am pleased to inform you that 100 percent of Senate offices 
now possess a customized version based on their unique circumstances 
and needs. In this past year, 65 percent of all Senate office EAPs were 
reviewed and validated using guidelines set forth by the Occupational 
Safety and Health Administration and the Congressional Accountability 
Act (CAA). Significant areas of improvement included the addition of 
office-specific shelter-in-place locations, internal relocation 
actions, and AIRCON threat procedures. We collaborated with the Senate 
Chief Counsel for Employment to develop EAPs for all Senators' 
hideaways. This included confirming evacuation routes for Senators and 
deploying additional emergency equipment. We met with new office 
managers and established an EAP for each office assigned to a swing 
space. We subsequently made appropriate adjustments as offices were 
moved to permanent suites. This effort involved collaborating with each 
office's Office Emergency Coordinator (OEC), installing and 
transferring emergency equipment, and training office staff.
    Accommodating staff with accessibility needs is outlined in each 
office's EAP and is an integral portion of our training efforts. A 
major enhancement to our program this year is the increased capability 
to simultaneously evacuate mobility-impaired individuals from both the 
primary and alternate emergency staging areas within the Senate office 
buildings instead of just one location.
    Last year I reported on the implementation of the internal 
relocation program. This year I am pleased to announce the completion 
of our program rollout. We collaborated with the AOC to install signage 
throughout the Senate office buildings indicating internal relocation 
sites. In response to numerous office comments, comfort stations have 
been deployed to all sites including the Dirksen Senate Office Building 
stairwells. Notification messages were developed and displayed in 
collaboration with the House of Representatives and USCP. We have also 
conducted six individual office exercises to validate our plans and 
messages and will execute more in calendar year 2011.
    The protection and preparedness of Senators, staff, and visitors 
within the Senate Chamber is one of our main focus areas. Each year we 
test and validate the Chamber Protective Actions plan by conducting a 
full-scale exercise within the Chamber. The 2010 exercise proved to be 
the most comprehensive and complex exercise to date. The exercise 
linked together Chamber Protective Actions procedures with the 
deployment of escape hoods and comfort stations along with the 
subsequent execution of the USCP Senate Leadership AIRCON Rally Point 
Plan and Briefing Center Plan.
Emergency Communications and Accountability
    We continued to improve notification and communication programs 
this year to ensure devices and systems are ready to support the Senate 
during local or large-scale emergencies. The Accountability and 
Emergency Roster System (ALERTS) is the primary alert and notification 
system that provides a single interface for delivering emergency email, 
PIN, and voice messages to the Senate population. We conduct monthly 
tests for staff and biannual tests for Senators in conjunction with the 
USCP, Secretary of the Senate, party secretaries, and other 
stakeholders. These tests are designed to ensure our emergency 
messaging system is reaching all intended recipients. This year we 
introduced the ALERTS Dashboard to provide our office and the USCP with 
real-time accountability data through a user-friendly graphic 
interface. This capability was tested during the summer recess 
evacuation drills in the assembly areas and at the USCP Incident 
Command Post. We also continue to support USCP assembly area operations 
through the deployment of tablets and laptops with faster connections, 
greater reliability, and ergonomic features. We consistently reinforce 
the importance of accountability with Senate staff by conducting Remote 
Check-in drills and training using BlackBerry devices. We trained 406 
OECs and achieved a 60 percent successful reporting rate this year, 
demonstrating increased participation over the last 2 years.
    The SAA provides ``watch standers'' in the USCP Command Center 
after normal business hours when the Senate is in session or during 
emergency incidents and special events. Watch standers are trained to 
use the Senate Dialogic and Chyron systems to assist USCP as necessary 
and provide senior SAA leadership with amplifying information regarding 
ongoing events. Due to reliance on these two systems, the Dialogic 
Communicator System was upgraded to provide better completion 
percentages of voice messaging to desk and mobile phones. Additional 
capabilities were added to the Chyron Cable TV Alert System to handle 
digital and high-definition channels. The system is now fully capable 
of sending alert messages via digital channels once they are activated 
by the AOC.
    We procured and installed WebEOC Mapper Professional, a Geospatial 
Information System that provides Senate emergency managers with the 
ability to create a dynamic, geographically based common operating 
picture. Multilayered mapping has proven to be a highly effective 
emergency management technique for government and law enforcement 
agencies throughout the country. We also continue to administer 
WebFusion to promote collaboration between the Senate, House of 
Representatives, GAO, and AOC emergency managers through seamless 
information sharing across networks. Additionally, WebFusion has 
allowed legislative branch users to connect to local and State 
emergency managers throughout the National Capital Region. Information 
sharing between legislative and executive branch emergency managers is 
further being improved through the installation of a Homeland Secure 
Data Network (HSDN) terminal. Our mission requires access to classified 
email, messaging, data analysis, and collaboration tools along with law 
enforcement, emergency management, and National Capital Region intranet 
resources. The use of HSDN will assist in intelligence gathering, 
situational awareness, decisionmaking, and event reporting.
Training and Equipment
    Training and outreach programs are designed to provide interactive 
classroom and personalized instruction to the Senate community. These 
valuable programs give staff a variety of preparedness and life-safety 
awareness information to enhance personnel and office protection. This 
year, 274 training sessions were conducted in which more than 5,600 
staff were trained on a variety of preparedness topics. We initiated an 
OEC certificate program in 2008 for staff that completed requisite 
emergency preparedness courses and were pleased to issue 25 
certificates this year. This certificate recognizes an OEC's 
willingness and commitment to enhance their professional knowledge in 
emergency preparedness and to be ready to support any emergency action 
that may occur on Capitol Hill.
    The culmination of our emergency preparedness training and outreach 
programs is the Senate's National Preparedness Day event held each 
September as part of National Preparedness Month. This event invites 
members of the emergency management community throughout the National 
Capital Region to set up static equipment displays, provide program 
capability awareness training, and demonstrate new products. I had the 
pleasure of introducing USCP Chief Phillip D. Morse, Sr. and National 
Weather Service Director Dr. John Hayes as guest speakers to address 
our theme of ``One Minute--One Life: Are You Prepared?'' to more than 
100 staff members at this year's event.
    Our continued management and support of emergency protective and 
communication equipment caches in each Senate office has been a key 
preparedness posture. These caches allow offices to receive 
notifications from the USCP to shelter-in-place, deploy to their 
designated internal relocation site, or use specified equipment to 
evacuate the building. Each cache includes escape hoods, emergency 
supply kits, and wireless emergency annunciators. Our office ensures 
functionality through an annual inventory of assigned equipment and 
replacement of expired items. All swing spaces and permanent suites for 
freshmen Senators were supplied with equipment prior to occupancy at 
the beginning of the 112th Congress. More than 270 offices and more 
than 27,000 pieces of equipment were inventoried over the past year 
alone. Additions to the equipment program include emergency news radios 
for office supply kits, deployment of Victim Rescue Units to primary 
and alternate staging elevator caches, installation of portable comfort 
stations and lockers at internal relocation sites, and implementation 
and activation of an AIRCON warning and notification system for the 
fourth floor of the Capitol.
    We released an updated version of the Roadmap to Readiness in 2011 
and included an Emergency Response Guide, a condensed, portable version 
of critical emergency information. The Roadmap to Readiness is a 
comprehensive guide designed to equip offices with the necessary tools 
to create emergency plans for Washington, DC and State offices. It also 
suggests how to educate and train staff to respond appropriately in 
emergencies. Additionally, new Web-based training classes have been 
developed to provide staff with the means to educate themselves from 
the convenience of their desktops.
    We are improving audio and visual capabilities in rooms primarily 
used for training Senate staff, but are used as EOCs during special 
events or emergencies. The ability to display information on multiple 
screens is essential for EOC operations and will also greatly improve 
the capabilities needed to provide technical training to Senate staff. 
SAA is simultaneously working to improve similar capabilities at the 
Alternate Computing Facility (ACF) in Manassas in case the primary 
location is unavailable, and a briefing room in the CVC that may be 
used as a situation room or operations center during a shelter-in-
place. Upgrading capabilities at these locations will ensure senior 
staff is equipped to manage special events and emergency incidents 
through better information management and improved situational 
awareness.
Exercises
    A comprehensive exercise program is structured to ensure Senate 
plans are practiced and validated regularly. The SAA and Secretary of 
the Senate conduct several joint exercises annually with the USCP, AOC, 
Office of Attending Physician, party secretaries, and other key 
congressional stakeholders. A total of 15 exercises, tabletops, and 
guided discussions were completed in 2010, covering all aspects of 
emergency response including offsite alternate chamber, emergency 
operations center, chamber protective actions, briefing center, 
transportation, contingency telecommuting, accountability measures, 
internal relocation, mass casualty, and alternate office space. We 
successfully exercised a Chamber evacuation leading to Briefing Center 
activation to further test our abilities to quickly set up contingency 
facilities resulting in the most comprehensive Chamber exercise to 
date. A ``no-notice'' exercise was conducted to test the ability to 
activate an after-hours contingency site without warning. The general 
exercise format included functional capabilities demonstrations and 
tabletop scenarios designed to test the Senate's ability to function 
during an event that requires relocating to alternate facilities or 
contingency sites. After-action reports were generated to document 
lessons learned for future plan improvement. More than 15 exercises are 
scheduled for 2012 in addition to numerous training events and smaller-
scale tests and drills designed to maintain and strengthen existing 
capabilities while addressing emerging needs and solutions.
Continuity and Recovery
    This year Continuity and Emergency Preparedness Operations (CEPO) 
focused on developing contingency transportation and classified site 
plans as well as validating existing plans and procedures. We continued 
collaborating with Senate offices and committees to develop internal 
continuity of operations plans (COOP) and train staff accordingly. We 
acquired new transportation assets and developed accompanying 
activation and operations plans by leveraging our external support 
organization. We worked with our counterparts in the House to develop 
the Personnel Accountability System to enhance accountability during 
contingency transportation. The program is now in the final stages of 
development.
    As part of its plans to refine accommodations at unclassified 
continuity sites, CEPO updated the wiring in the Thurgood Marshall 
Building Briefing Center. A full-scale exercise at the Postal Square 
Briefing Center was conducted to validate movement of Senators to a 
safe and secure environment in the aftermath of an incident. We also 
improved plans to utilize the Government Accountability Office (GAO) 
building as an alternate office in the event the Senate is no longer 
able to occupy its regular work space. COOP materials and vital records 
were placed at these contingency facilities and on classified networks 
for convenient access. Finally, we collaborated with the Committee on 
Rules and Administration to develop new Fly Away Kits for committee 
hearings during continuity events. These materials are stored at 
classified locations and can be rapidly deployed after an incident.
         <greek-l>saa deg.intelligence and protective services
State Office Security and Preparedness
    State office programs make security and preparedness training 
available to Senators and staff in more than 450 State offices 
throughout the United States. Almost two-thirds of these offices are 
located in commercial buildings with no internal security. The rest are 
located in Federal buildings that generally have some level of building 
security, but are routinely targeted for disruptive activity. Numerous 
high-profile and contentious issues arose in 2010 and several violent 
incidents in and around State offices led to increased awareness and 
participation in this voluntary, but critical program. Participating 
offices are provided with secure reception areas in order to screen 
visitors for signs of hostility, aggression, or impairment. Offices are 
also outfitted with access controls, duress buttons, burglar alarm 
systems, and closed-circuit camera systems. The program covers 
installation, maintenance, and alarm monitoring services and also 
includes an annual inspection and equipment testing.
    During 2010, more than 300 State offices received direct assistance 
in completing or updating their Comprehensive Emergency Plan (CEP). The 
CEP combines security, emergency preparedness, and continuity of 
government processes into one document that meets the requirements of 
the CAA. Continuous outreach regarding the importance of establishing 
plans was conducted through the development of a streamlined template 
to assist small offices with no continuity of operations requirement, 
and an online method to enter preliminary plan information. State 
office hazard overviews were completed or updated for 218 offices to 
identify natural or man-made hazards to be considered during plan 
development. Additionally, 13 new State offices received program 
briefings and emergency equipment and supplies similar to DC offices. 
Pandemic information was promptly disseminated to all State offices and 
approval from the Committee on Rules and Administration allowed staff 
to procure supplies for combating the H1N1 virus. A monthly OEC 
bulletin is now regularly distributed to all State offices and a 
certificate path has been established for State OECs. The focus of the 
program this year will turn to Web site updates and providing 
additional preparedness classes online.
    We provided security enhancements in 57 State offices during 2010. 
These enhancements included building secure reception areas to screen 
visitors, and installing burglar alarms, duress buttons, and closed-
circuit cameras with digital video recorders. To date, the program has 
provided security enhancements in 80 percent of offices located in 
commercial spaces and 62 percent of offices located in Federal 
buildings, bringing the total amount of current offices with security 
enhancements to 75 percent. Additionally, more than 300 State office 
alarm systems were tested and inspected this year. This year, the focus 
will turn to utilizing a new all-hazard risk assessment to survey State 
offices and offer security enhancements to nonparticipating offices. 
Collaboration with representatives from the USCP, General Services 
Administration (GSA), Federal Protective Service, and the U.S. Marshals 
Service will continue.
USCP Operations
    The Senate Campus Access program that coordinates Member office and 
committee requests for vehicle access through the campus security 
perimeter processed 586 special requests for vehicle clearances, 
deliveries, and bus access during fiscal year 2010, an increase of more 
than 130 percent from fiscal year 2009. Additionally, we developed an 
electronic request form via Webster for USCP coverage at subcommittee 
hearings.
    We collaborated with the USCP and external law enforcement agencies 
to monitor and secure special events such as the State of the Union 
Address, Democratic Senatorial Retreat, various joint sessions of the 
Congress, Summer Concert Series, Supreme Court nomination hearing for 
Associate Justice Elena Kagan, and memorial services for Senators 
Robert C. Byrd and Edward Kennedy.
    The Duty Desk in the USCP Command Center continues to ensure SAA 
representation and provide communication between the USCP and the 
Senate community during special events, critical incidents, and routine 
operations. The Duty Desk is manned by SAA personnel during business 
hours and while the Senate is in session. SAA staff receives routine 
training and updated operating procedures to fulfill the 
responsibility.
    Our recently hired Assistant Sergeant at Arms for Intelligence and 
Protective Services Mike Stenger maintains excellent working 
relationships with a multitude of components within the intelligence 
and law enforcement communities. Such trusted partnerships allow for 
the timely and accurate sharing of all-source intelligence and law 
enforcement-sensitive threat information when breaking situations 
occur. Furthermore, it provides the opportunity to collect all-source 
intelligence from appropriate partners and assess, integrate, and brief 
essential information to senior SAA staff that can then make sound, 
timely decisions for the safety and security of the U.S. Senate.
    Finally, recent events in Arizona led our office to greatly expand 
monitoring law enforcement investigations involving threats to Senators 
and provide updates to the SAA and affected Senators, from case opening 
through adjudication. We receive Senate office requests for local law 
enforcement assistance at public events and coordinate evaluation and 
assessment through the USCP. We are collaborating with the USCP 
Uniformed Services Bureau to develop a consistent and seamless 
community outreach program regarding safety and security for Senate 
offices.
                          <greek-l>saa deg.it
Enhancing Service, Security, and Stewardship
    We continue to provide a wide range of effective IT solutions to 
facilitate the Senate's ability to perform its legislative, constituent 
service, and administrative duties; to safeguard the information and 
systems the Senate relies upon; and to be ready to respond to 
emergencies and disruptions. As in our other areas, we also emphasize 
stewardship--the careful use of all of our resources, including the 
funding we are provided, our personnel and the external resources that 
we consume--in all aspects of our IT operation.
    As we do each year, we have updated, and are performing under, our 
2-year Information Technology Strategic Plan. The current version, 
under which we will be operating in fiscal year 2012, continues to 
emphasize our five strategic IT goals and their supporting objectives 
that drive our programmatic and budgetary decisions:
      Secure.--A secure Senate information infrastructure;
      Customer Service Focused.--A customer service culture top-to-
        bottom;
      Effective.--IT solutions driven by business requirements;
      Accessible, Flexible, and Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances;
      Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our fourth IT strategic goal--accessible, flexible, and reliable--
may be the most impactful of the five goals. This goal undergirds 
everything we do from a technology standpoint. We must ensure that 
almost every system and every service we deploy can withstand 
disruptions to our operating environment, can be reconfigured if 
necessary to cope with disruptions, and can be used regardless of 
whether the person trying to use it is located within one of our spaces 
or elsewhere. We continuously re-evaluate existing services and systems 
to identify areas for improvement and make those improvements as soon 
as we can, in an effort to ensure the Senate can continue to do its 
work under any circumstances.
    From a budgetary standpoint, more than one-half of the Chief 
Information Officer organization's fiscal year 2012 request will cover 
the installation and support of the equipment acquired by Senate 
personal offices through the economic allocation, and for other 
programs that benefit offices directly. One-third will be devoted to 
providing services at the enterprise level, such as information 
security, the Senate data network, electronic mail infrastructure, and 
telephone systems. The remainder is almost equally divided between 
supporting the office of the Secretary of the Senate with payroll, 
financial management, legislative information, and disclosure systems; 
and our own administrative and management systems.
            <greek-l>saa deg.enhancing service to the senate
Customer Service, Satisfaction, and Communications
    Our Information Technology Strategic Plan stresses customer service 
as a top priority, and we actively solicit feedback from all levels and 
for all types of services. For instance, we solicit customer feedback 
for every help desk ticket opened. In major contracts that affect our 
customers, we include strict service levels that are tied to the 
contractors' compensation--if they do well, they get paid more; if they 
do poorly, they get paid less. For instance, during the past year, the 
percentage of on-time arrivals for the IT installation team never 
dropped below 99 percent. The percentage of help desk calls that were 
resolved during the initial call averaged 56 percent, and 96 percent of 
customer surveys rated the IT help desk and installation services as 
either ``very satisfactory'' or ``excellent''. We expect this excellent 
level of performance to continue through fiscal year 2012.
    In fiscal year 2012 we will continue to communicate effectively 
with our customers through a well-developed outreach program that 
includes IT newsletters, periodic project status reviews, IT working 
groups, weekly technology and business process review meetings with 
customers, and joint project and policy meetings with the Committee on 
Rules and Administration, the Senate Systems Administrators 
Association, and the administrative managers steering group.
Robust, Reliable, and Modern Communications
    We provide modern, robust, and reliable data network and network-
based services that the Senate relies upon to communicate 
electronically within and among offices on Capitol Hill and in the 50 
States, to and from other legislative branch agencies, and through the 
Internet to the public, other agencies and organizations.
    We continue to keep our mobile communications offerings up to date 
with the latest technology. Last year, we added the Apple iPhone, the 
RIM 9800 Torch BlackBerry, the RIM 9330 Curve BlackBerry, and the RIM 
9650 Bold BlackBerry to the technology catalog. Currently, we are 
testing Android devices for support. We will continue to offer the 
Senate community the latest smartphone technology in fiscal year 2012.
    Following a migration to a new contract vehicle for our wide area 
network services in fiscal year 2010, we are better poised to realize 
the cost savings for this service compared to our previous contract 
with AT&T. Our cost for this service has gone from $5.2 million in 
fiscal year 2009 to $4.3 million in fiscal year 2010, and is on target 
to cost $3.8 million in fiscal year 2011. Given the election cycle and 
the additional moves, adds, and changes associated with incoming and 
outgoing Senators, the fiscal year 2011 costs could increase, but 
should remain less than fiscal year 2010 levels. We have also increased 
our service levels to approximately 50 State office locations and 
installed network optimization equipment in more than 90 locations 
overall. The cost of wide area network services will increase slightly 
in fiscal year 2012, to $4 million to allow us to continue our 
investments in enhancing network services to more State office 
locations.
    We are working with the other legislative branch agencies to 
improve interagency communication technology by implementing and 
securing an upgraded Capnet network that connects all the legislative 
branch agencies, with the goal of making this network the preferred 
path for all interagency communication.
    In addition to our robust messaging infrastructure that processed 
approximately 257 million Internet email messages during the past 
calendar year, we also support effective communication through the use 
of videoconferencing. During the last and current fiscal years, we have 
enhanced our videoconferencing infrastructure to allow participation in 
a high-definition video conference from virtually anywhere in the world 
using an inexpensive Web camera on a desktop or portable computer via 
the Internet. We are adding new capabilities, including a Web interface 
to allow an outside participant without a standards-based 
videoconferencing system to participate via a Web client, as well as 
the ability to escalate a point-to-point call to a multipoint call 
regardless of bandwidth or whether the system has multipoint capability 
installed.
    We also delivered a solution to the problem of transferring large 
files which allows media-based and other large files to be moved within 
the Senate and between the Senate and others in a secure and reliable 
fashion. We continue to expand the ways and tools for staff to be 
connected. This year we delivered iPhone and iPad email and tools 
integration and support. CIO staff worked extensively with a third-
party software provider to develop a secure, reliable, and manageable 
iPhone corporate email client which met our requirements.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily and emergency operations, and to take 
advantage of technological advances to provide a more flexible and 
robust infrastructure. Toward that end, we will be replacing systems 
such as the cloakroom alerts, operational support and directory and 
billing systems over the coming year, while we continue to move forward 
with the replacement of the main telephone switch.
Web-based and Customer-focused Business Applications
    As in past years, we continue to add functionality to TranSAAct, 
which is our platform for moving business online. Based on the business 
requirements of offices and the Committee on Rules and Administration, 
we continue to develop TranSAAct to eliminate paper-based manual 
processes and move them to the Web. Because it is built on an 
extensible modern database framework, TranSAAct allows indefinite 
expansion as new requirements are identified and fulfilled. This year 
we completed enhancements to TranSAAct including online parking 
services (e.g., request a parking assignment, reassign vehicles, add 
vehicles, etc.) and a forms depot featuring 117 forms and links to 
forms often used by administrative managers and chief clerks. We are 
completing work on adding the ability to make telecommunications 
service requests online.
    We look forward over the coming months and years to moving 
additional business processes to the Web, delivering increasing 
functionality to administrative staff, and reducing the time, paper, 
and errors associated with the current manual processes.
    We delivered an enterprise class SharePoint data collaboration site 
to provide a common access point for sharing information between 
offices that do not have direct access to one another. For example, 
subcommittee staff and staff in their Senate offices are using the site 
to view, comment on, and edit committee documents.
    We enhanced other Web-based applications such as a program that 
more than 60 offices use on their Web sites for accepting service 
academy nomination requests, intern requests, and other types of 
applications and requests. Constituents have submitted more than 
500,000 individual requests through this system. We also updated the 
committee hearing scheduling application to make it more robust and 
useful.
Showcasing and Promoting Modern IT in the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through demo days, which have been 
well-attended in the past. After products are tested and validated in 
our technology assessment laboratory, they are then available for staff 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the Technology 
Advisory Group, consisting of CIO staff and our customers, performs 
high-level requirements analysis and prioritizes new technologies and 
solutions for consideration for deployment in the Senate. Among the 
technologies that we look forward to supporting over the next few 
months is support for additional smartphones based on the Android 
operating system as well as Smart Cards. Smart Cards will enable a 
range of applications based upon Public Key Infrastructure (PKI) 
certificates included on the Smart Cards, including access to GSA-
controlled buildings, encryption and decryption of email and BlackBerry 
messages, digital signatures for email and vouchers, and log-on 
authentication.
    We will continue or intensify these efforts in fiscal year 2012 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
           <greek-l>saa deg.enhancing security for the senate
Enhancing Security With Accessible, Flexible, and Reliable Systems
    As I mentioned earlier, we build security, accessibility, 
flexibility, and reliability into every system and service. In addition 
to those efforts, there are two projects that I would specifically like 
to mention.
    This past year our, CIO organization enhanced copier security by 
moving beyond the traditional safeguards of buying equipment that 
writes data to random, noncontiguous hard disk drive locations, to 
completely erasing or removing copier hard disk drives prior to 
disposal. We also reconfigured our copier baseline configurations to 
include hard disk drive overwrite systems that conform to National 
Security Agency security specifications without requiring user 
intervention. We continued our BlackBerry scanning program designed to 
detect security intrusions on wireless devices used during 
international travel. In fiscal year 2010 we scanned more than 300 
BlackBerrys, some multiple times. Fortunately, we found no major 
discrepancies. In fiscal year 2011 and fiscal year 2012 we will 
continue to seek ways to improve and enhance our scanning program.
    We have also installed the second and third components of the 
secure voice conferencing system to provide Secret-level conferencing 
to accommodate 40 additional participants once we obtain additional 
phone lines as part of our telephone system upgrade. In fiscal year 
2012, we plan to upgrade the system with a Web-based interface, making 
it more user-friendly.
Enhancing System and Information Resiliency
    We continue to test our technology in scenarios in which our 
primary infrastructure and primary work locations have become 
inaccessible. This includes the simulated loss of our primary data and 
network facilities, as well as simulated loss of staff work spaces. All 
mission-essential Senate enterprise information systems continue to be 
replicated at our ACF, using our upgraded optical network and storage 
area network technology. We conduct a variety of exercises to ensure we 
are prepared to cope with events ranging from a burst water pipe, to a 
pandemic, to an evacuation of Capitol Hill. These exercises demonstrate 
our ability to support mission-essential systems under adverse 
conditions, and the ability to support substantial numbers of people 
working from home. We continue to exercise the ability to support our 
Senate customers in the event of an emergency situation which may limit 
our ability to arrive at work. This includes weekly and monthly COOP/
pandemic exercises designed to ensure technical support is available 
from the ACF and other remote locations. Our diligence to this 
initiative proved worthwhile during the snow events of last year. With 
the knowledge that the business of the Senate continued and that State 
office locations were not affected by the weather in Washington, DC, 
our staff continued to support the Senate community remotely throughout 
these events. This included answering the phones from home-based 
locations, highlighting the capabilities that our migration to IP 
telephony may bring to the rest of the Senate.
    We also will continue to invest in and modernize storage systems 
that automatically replicate information from our primary site to our 
alternate site. These storage systems support our mission-critical 
systems as well as individual offices.
Securing our Information Infrastructure
    As described in previous testimony, active and aggressive 
adversaries continue to target Senate information and technology 
assets. These adversaries use increasingly sophisticated tools, 
techniques, and procedures; rapidly shift their attack methods in 
response to new countermeasures; and continually refine their targeting 
of Senate information. Our key strategy to meet this threat has been to 
improve our coordination with other Federal agencies to share and adopt 
current best practices. We have greatly improved and expanded our 
relationships with other agencies, due in large part to the outreach 
efforts of IT Security staff over the past year. As a result, we are 
now better able to quickly adjust our countermeasures as adversaries 
shift their tactics. Our efforts and interactions with our Federal 
partners are comparable to DOD's evolving doctrine of ``active computer 
network defense'', a framework for defending military networks. We are 
working to incorporate five key elements of this doctrine into our IT 
Security operating model:
  --training and equipping SAA staff and contractors with specialized 
        cyber security skills;
  --employing and continuously monitoring a strong core of layered 
        defenses;
  --communicating current threat information to offices and providing 
        knowledge and expert advice to help them secure their 
        information;
  --sharing current best practices with our Federal agency partners; 
        and
  --investing in rapid development, testing, and implementation of 
        additional cyber defense capabilities.
    We describe each of these elements and provide implementation 
examples as follows: As an example of the first element, specialized 
skills development, our IT security branch undergoes continual, 
rigorous training on newly discovered threats and vulnerabilities.
    They attend industry and government conferences, complete online 
and classroom courses, host industry experts, conduct in-house classes 
and seminars, and share knowledge among their peers on the latest 
advances in cyberspace threats and defensive measures. This training 
helps us quickly put into operation and benefit from new defensive 
technologies. For example, we recently acquired new analysis tools that 
enable more precise identification of potential attacks and faster 
incident response times. These newly acquired skills were quickly 
deployed and put to practical use in our daily operations, producing 
demonstrable results and saving taxpayer dollars.
    The second element, layered defenses, requires us to develop 
multiple capabilities to prevent and detect intrusions at every point 
in our network and we have worked this past year to introduce and 
encourage widespread adoption of new defensive capabilities. As an 
example, our voluntary vulnerability assessment service has grown to 
include 43 Member offices and five committees, with more offices 
enrolling. The new Systems Management Service (SMS), an automated means 
for offices to automatically apply critical security patches to non-
Microsoft software, has also grown rapidly since we introduced it in 
December 2010. Fifty-two offices are now using the service, which 
provides a significant (up to 68 percent) reduction in software 
vulnerability risk as measured by vulnerability assessment results. SMS 
serves as an excellent complement to our vulnerability assessment 
program and to Windows Server Update Services (WSUS), which 
automatically patches Microsoft software. The vulnerability assessment 
program, SMS, and WSUS combine well to serve as a ``success enabler'' 
for offices by giving them the tools they need to continuously assess 
and improve their IT security posture.
    In addition to our vulnerability assessment and patch management 
services, we continue to monitor and improve our other centrally 
managed security services. One major initiative is our ongoing effort 
to enhance email security by establishing mutual trust mechanisms with 
other Federal agencies based on email source validation and encryption 
technologies. These trust mechanisms assure us and our participating 
Federal partners that messages exchanged are encrypted while traversing 
the Internet and are actually coming from an authorized mail server at 
each respective agency. As a result, Senate staff can have confidence 
that the messages they exchange with one of our trusted partners have 
not been read or manipulated by a third party while in transit and have 
come from a legitimate contact instead of a malicious actor using a 
forged sender address. We expect to continue expanding the number of 
agencies involved in this effort.
    The third element is reflected in our initiative to provide 
improved and varied training and awareness programs for offices. Over 
the past year, we have developed and conducted individual threat 
briefings for system administrators, office leadership, and other staff 
to educate them on the evolving threat environment and recommended 
freely available services that we provide to help them reduce their 
risk. We have also incorporated current effective practices into our 
general awareness materials that we provide through Webster and in-
office presentations. We share our awareness material with other 
agencies and adopt useful material they share with us. Furthermore, we 
have incorporated an IT security briefing into the new system 
administrator training process to inform them of our services and to 
help them enroll and make the best use of our offerings soon after they 
are hired. Finally, we help system administrators identify critical 
systems that our adversaries would consider high-value targets and 
facilitate enhanced protection for these systems to assure continuity 
of operations.
    The fourth element involves sharing new threat information, trends, 
and effective practices with other Federal agencies. We do not share 
specific information concerning offices or staffs involved, but 
coordinate with these agencies to help establish a common information 
base and defensive posture. The relationships that we have built, and 
continue to build, are mutually beneficial and have paid great 
dividends in terms of improved security services for our offices. We 
can now provide offices more timely and detailed threat and 
vulnerability information, more reliable countermeasures, and more 
efficient identification and mitigation of many of our higher-priority 
incidents.
    The fifth and final element is rapid development, testing, and 
implementation of additional cyber defense capabilities. We recently 
tested and implemented a new log analysis tool that has reduced the 
time required to identify and notify offices of attacks from a matter 
of hours to just a matter of minutes. We are also looking forward to 
implementing a new monitoring tool in the next few months that will 
improve our ability to rate the severity of security incidents, reduce 
false positives, and provide offices with better guidance for 
recovering from incidents. Finally, we are currently researching 
potential solutions that will augment our anti-virus systems by 
blocking malicious or compromised Web sites, which are a primary cause 
of many of our security incidents.
    Adopting the elements of the Department of Defense's Active 
Computer Network Defense doctrine helps us work toward our strategic 
goal to provide a secure Senate information infrastructure. We will 
continue to adopt useful elements of the doctrine to further our 
efforts. We are continually changing and improving our tactics and 
operational processes to meet the rapidly changing cyber threat 
environment while supporting the Senate's mission.
                 <greek-l>saa deg.enhancing stewardship
Enhancing Stewardship Through Fiscal and Environmental Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We are always 
looking for ways to improve our processes or technologies so that we 
save time, money, electricity, paper, or other resources. Our CIO 
organization is a good steward of the fiscal resources of the Senate, 
consistently and continuously improving on the services offered to our 
customers while seeking only modest increases in funding. Many 
initiatives save an office hundreds or thousands of dollars in costs 
that would otherwise be borne out of their official accounts. As most 
of these initiatives save money due to a reduction in the purchase of 
some commodity, they also fit in with our efforts toward environmental 
stewardship. Some examples of our efforts to enhance fiscal and 
environmental stewardship are:
  --Continuation of our virtualization efforts, where we now reduce 
        energy, maintenance, and support costs by running more than 379 
        of our servers in a virtual environment. We will continue an 
        aggressive campaign to virtualize servers until every server 
        that can be virtualized is virtual.
  --Offices, especially those of the new Senators, have taken great 
        advantage of our virtual machine infrastructure that allows us 
        to centrally host their file and application servers on shared 
        hardware at our primary and alternate facilities, which greatly 
        increases server hardware efficiency, and, through system 
        duplication and data replication, offers enterprise class data 
        redundancy and recovery in the event of a critical local 
        failure or crisis. The virtual solution also relieves offices 
        of considerable noise, excess heat, and increases usable 
        working areas for staff. It removes the single point of failure 
        from existing office servers and meets continuity of operations 
        and data replication requirements for approximately half the 
        cost of existing solutions. To date we are hosting 86 Member 
        and committee office file servers on our virtual 
        infrastructure. Virtual servers running in the data center 
        consume only 15 percent of the energy of a comparable number of 
        physical servers. This means a reduction in power consumption 
        and air conditioning requirements, saving Senate funds, while 
        enhancing our ability to provide reliable and redundant 
        services. Fewer servers used by the Senate also means fewer 
        servers that need to be manufactured and therefore have to be 
        disposed of at their end of life, which is greening on a 
        national scale.
  --Work is well under way to offer offices the ability to host their 
        constituent support systems and SharePoint collaboration 
        systems in a virtual environment, which will provide offices 
        the opportunity to operate without any physical servers in 
        their offices.
  --We continue to use our catalog to highlight the energy-efficient 
        aspects of our supported IT and general office equipment, and 
        we conducted ``green demo days'' where vendors could answer 
        questions about their products' environmental friendliness.
  --We continue our efforts to dispose of surplus electronic equipment 
        through such programs as Computers for Schools. Last year we 
        fulfilled 36 Member office requests and packed and shipped 900 
        surplus computers to eligible public schools. We send other 
        surplus equipment to the GSA for redistribution or resale.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable ENERGYSTAR guidelines, and where feasible, the 
        guidelines for the responsible manufacture of IT equipment.
                      operations
PGDM
    The PGDM branch provides high-level, direct customer support to the 
Senate community through photocopying, graphic design, printing, 
mailing, archiving, logistics, and security.
    During fiscal year 2010, PGDM continued to improve operations and 
respond to demand for producing documents from digital files. By 
utilizing the latest technology in digital printing, the Publishing 
Section produced 7.8 million pages, an increase of 81 percent more than 
fiscal year 2009. PGDM continued to meet the demand for Constituent 
Services System (CSS) imaging by scanning, digitizing, and 
electronically transferring 1.1 million pages of constituent mail 
responses during fiscal year 2010. Another area of high demand during 
fiscal year 2010 was production of charts. By upgrading software to 
process files quicker, PGDM produced 9,273 large format charts, an 
increase of 15 percent more than fiscal year 2009.
    PGDM is customer-focused and achieved high levels of customer 
satisfaction. Reliable, user-friendly copiers in convenient satellite 
copy centers produced more than 7.6 million copies in fiscal year 2010. 
Utilizing traditional offset and digital printing, PGDM met customer 
requests for color printing, producing more than 21.8 million color 
pages. Combined printing volumes in all sections of PGDM during fiscal 
year 2010 totaled 52.4 million, a 6 percent increase more than fiscal 
year 2009. PGDM continued to improve services to meet the demand for 
archiving Senate office documents during fiscal year 2010.
    Through software and hardware upgrades, PGDM produced 511 rolls of 
microfilm, a 156 percent increase more than fiscal year 2009, and 
scanned and digitized more than 3.2 million pages, a 10 percent 
increase more than fiscal year 2009.
    As a good steward of its own resources and that of others, PGDM 
saved the Senate more than $1.8 million in postage costs by pre-sorting 
9.5 million pieces of outgoing Senate franked mail. New software 
systems have been integrated in a number of processes to validate, 
correct, or remove bad addresses prior to mailing. In fiscal year 2009, 
a system was put in place to validate addresses on constituent letters. 
The number of offices utilizing this process has grown from 14 in 
fiscal year 2009 to 97 in fiscal year 2010. PGDM has also upgraded 
software in the mail-sorting process. By implementing the new United 
States Postal Service (USPS) mandated intelligent barcode and moving 
updated software ahead of schedule, PGDM has ensured that Senate 
offices continue to receive maximum postage discounts. PGDM is 
continuing to work with a vendor to modify and test a Web-based 
application to provide address correction, validation, and delivery 
tracking for shipping of constituent flag requests.
    PGDM's commitment to teamwork and excellent customer service 
extends to our legislative branch partners as well. Our collaborative 
work with the AOC fulfilled 82,828 flag requests during fiscal year 
2010, and in tandem with GPO, delivered more than 2 million documents 
(Pocket Constitutions, Our Flag, Our American Government, etc.) to 
requestors. PGDM has also been working with the AOC to relocate the 
PGDM Logistics operations from SR-B31F to the Hart loading dock area. 
Construction of the Hart location is planned to be completed this 
spring which will allow for structural renovation on the lower level of 
the southwest corner of the Russell building. In early fiscal year 
2010, PGDM provided a tour of our CSS imaging operation to the White 
House Office of Presidential Correspondence staff, which was 
considering implementation of a similar operation.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security in fiscal year 
2010 by receiving 1,045,153 items from the USCP off-site inspection 
facility and transferring them to the Senate Support Facility. This 
process eliminated 561 truck deliveries to the Capitol complex while 
reducing traffic and allowing the USCP to focus on other aspects of 
safety.
    In fiscal year 2010, the subcommittee approved the use of prior 
year unobligated funding to relocate the Postal Square printing and 
mailing operations to a modern, efficient, secure, and safe facility. 
This relocation will ensure PGDM operations continue without 
interruptions in service from facility failures which have plagued the 
Postal Square building over the years. In collaboration with the AOC, a 
facility located in the same complex as the Senate Support Facility and 
the Senate Post Office Inspection Facility was selected and put under 
contract. The relocation project has a projected net positive cash flow 
of $2.8 million and 3.6 percent return on investment over 20 years. 
Design plans have been approved for the build-out of the facility, and 
the SAA has contracts in place to support moving equipment and 
installing data communications and security systems. Construction 
started in January 2011, and PGDM will begin moving equipment in July 
2011 and take occupancy in September 2011.
                  <greek-l>saa deg.central operations
Smart Card Programs--ID Office
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12--Policy for a Common Identification Standard for Federal 
Employees and Contractors will significantly impact Senators and their 
staff whose State offices are located in Federal buildings across the 
country. While legislative branch adoption of HSPD-12 is optional, 
compliance will allow Senators and staff unhindered access to work 
freely within these facilities. Staff from the ID Office and Technology 
Development Services is currently collaborating with executive branch 
counterparts to implement compatible access cards to paid staff within 
the 112th Congress.
    Although a substantial cost is associated with system architecture, 
there are continued efforts to explore advantages of Smart Card 
deployment. Sophisticated Smart Card credentials can provide multiple 
functions beyond current ``flash pass'' identification badges. While 
maintaining proximity technology used in the USCP's current physical 
access control system, digital certificates on Smart Cards may in the 
future be used for encryption of personally identifiable information 
exchanged with executive branch agencies in the processing of 
constituent casework. Other future benefits within the Senate community 
for digital certificates include digital signatures on financial 
documents and secure, single network sign-on.
                  <greek-l>saa deg.parking operations
    The Parking Operations team continues to update policies and 
procedures to better serve the Senate community. For the first time, 
all Senate parking spaces were defined producing an accurate count of 
3,100 spaces (600 spaces greater than previous estimates). Beginning 
with the 112th Congress, Parking Operations streamlined policy and 
procedures to allow for greater customer understanding:
  --the number of permit types was reduced by 17 percent;
  --color was used on the parking map to better communicate parking 
        area definitions; and
  --new signage was installed to clearly label parking areas.
    Parking Specialists continued to enjoy amplified visibility to 
customers as new kiosks were installed on Lots 12 and 16. Increased 
Segway use and wearing of reflective vests and gloves have also 
increased recognition of the specialists by customers and visitors. 
Employee retention has been superb; there has been only one vacancy in 
the last 18 months and that was due to a promotion.
          <greek-l>saa deg.transportation and fleet operations
    Transportation and Fleet Operations safely and securely procures, 
manages, maintains, and disposes of SAA vehicles; provides 
transportation information to offices; and manages the Senate Parking 
Shuttle Service. The SAA fleet includes trucks, vans, buses, and SUVs 
used to support the Senate community. Senate leadership vehicles are 
leased and administered by Fleet Operations under the Executive Lease 
Plan on a biannual basis. Transportation and Fleet Operations is 
responsible for completing work orders, equipment installations, tag/
registration renewals, and vehicle inspections for all fleet vehicles, 
performing more than 448 of these services in fiscal year 2010. Fleet 
staff scheduled more than 350 transportation requests and transported 
more than 20,000 passengers through the SAA Parking Shuttle Service in 
fiscal year 2010.
    Transportation and Fleet Operations offers several driver training 
programs including an online software training course developed by the 
National Safety Council (NSC), an in-house Professional Truck Driver 
Safety Certification Course also developed by NSC using a fleet staff 
certified instructor, and Segway Certification Training using fleet 
certified instructors.
    Transportation and Fleet Operations is a leader in ``Go Green'' 
initiatives with 25 flex E-85 fuel vehicles, 5 hybrids, 2 electric 
vehicles, and 2 Diesel Exhaust Fluid-certified trucks. Fleet Operations 
will continue to explore the use of alternative fuel vehicles as 
replacements for older vehicles as they are rotated out of the fleet.
                  <greek-l>saa deg.photography studio
    The photography studio provides photography and imaging services 
for Senate offices, capturing more than 75,000 photo images and 
producing more than 95,000 photo prints in fiscal year 2010. The 
studio's popular image archiving service was used to scan, organize, 
and transfer more than 80,000 photo images for archiving purposes in 
fiscal year 2010. The photo browser application provides Senate offices 
a secure location to store and organize photos and the ability to 
download and upload photos or place orders for photo prints from their 
desktop through a Web interface.
                   <greek-l>saa deg.senate hair care
    Senate hair care serves customers by offering the latest trends in 
hair styling to Senators and thousands of customers, including staff 
and the general public. In fiscal year 2010, revenue increased by 
approximately $40,000 (9 percent), the highest in 10 years. Continuing 
to build on the diverse customer base and supplying additional retail 
products and services, Senate Hair Care will remain a profitable and 
indispensable service offered by the SAA.
                  <greek-l>saa deg.senate post office
    Mail remains a primary medium for constituents to communicate with 
Senators and their staff. During 2010, the total volume of mail 
addressed to the Senate Washington, DC offices was significant. Our 
Senate Post Office received, tested, and delivered 17,710,648 safe 
items to Senate offices, including 10,935,830 pieces of USPS mail; more 
than 6,234,000 pieces of internal mail routed within the Senate or to 
or from other Government agencies; 75,000 packages; and 465,777 courier 
items. The total number of mail and packages received and processed in 
2010 represented the second largest yearly total this decade, surpassed 
only by 2009. Mail received by the Senate has increased substantially 
over the past 2 years, bucking the nationwide trend that shows overall 
USPS mail volumes declining.
Processing Mail Safely
    Protecting the Senate and its staff is my highest priority. We have 
worked collaboratively with this subcommittee, the Committee on Rules 
and Administration, our science advisors, the USCP, USPS, the White 
House Office of Science and Technology Policy, and the Department of 
Homeland Security in developing safe and secure mail protocols and in 
creating two of the best mail processing facilities of their type in 
the world.
    All mail and packages addressed to the Senate's Washington, DC 
offices are tested and delivered by Senate Post Office employees. 
During 2010, our highly trained off-site mail staff intercepted 221 
suspicious pieces of mail that were addressed to Senators with the 
intent to terrorize and disrupt Senate business. The USCP immediately 
responded to these threatening items at our off-site mail processing 
facility thereby preventing their delivery to any Senate office.
    We also worked with this subcommittee and the Committee on Rules 
and Administration to build and operate one of the best facilities 
within the Government to process time-sensitive documents that are 
delivered to the Senate. Our Congressional Acceptance Site ensures that 
all same-day documents are x rayed, opened, tested, and safe for 
delivery to Senate offices. The 465,777 items that we processed during 
2010 represented the most documents processed at this facility since it 
opened in August 2006, which was a 68 percent increase more than 2009's 
courier items. We were able to absorb this additional volume through 
cross-training our existing staff and by instituting process 
improvements rather than increasing our workforce.
    The Senate's method for processing mail has become the model for 
others. We have been asked to demonstrate our procedures and showcase 
our facilities for some of our Nation's allies and for other Government 
agencies, including the Departments of Defense and Homeland Security. 
The organizations that know the most about mail safety cite our highly 
trained staff and the Senate mail facilities as among the most 
efficient and secure in existence.
State Office Mail
    Additionally, my office has worked collaboratively with our science 
advisors to introduce the first device designed to provide Senate staff 
who work in State offices with a level of protection when handling 
mail. Our science advisors believe that the Postal Sentry, if used 
properly, provides the best level of protection to State offices and 
their staff should they receive mail containing a potentially harmful 
substance. I have requested that all Senate State staff utilize the 
Postal Sentry mail processing system whenever mail is opened in their 
offices. All newly elected Senators' State offices have been equipped 
with the Postal Sentry and many other Senators have opted for the 
device as well. Currently, 238 State offices have the Postal Sentry, up 
from 66 State offices at the end of 2009. The Senate took the lead in 
providing State offices with a level of protection when handling mail. 
Recently, the House of Representatives ordered several Postal Sentrys 
for use in their district offices.
Improving Services Offered
    My office strives to provide exemplary service to the Senate 
community. Our Senate Post Office, in conjunction with the USPS, 
operates contract retail locations in the Dirksen and Russell Senate 
Office Buildings. To the frustration of many, patrons in past years 
have been unable to purchase postage stamps, Express and Priority mail 
postage, mail supplies, insurance, and money orders with the 
convenience of a credit or debit card, only with cash. After lengthy 
negotiations with the USPS, I was pleased to announce in February of 
this year that as an added convenience for our customers, the Senate 
Post Office accepts credit and debit cards. Feedback from our customers 
has been extremely positive with the new and additional service.
A Cost-effective Operation
    Even with the expansion of our capabilities, outreach efforts and 
the significant increases in mail volume, my office continues to be 
good stewards of taxpayer dollars. Technology and process improvements 
made since 2008 have enabled the Senate Post Office to reduce the 
number of its employees by 6 percent. Their achievement is even more 
impressive when you consider that the number of mail items received, 
tested, and safely delivered has increased by more than 25 percent 
annually during that same time period. We have compared our costs to 
other agencies and are pleased to report that we have one of the most 
efficient and cost-effective operations of its type. Some agencies with 
similar processes and mail volume spend millions more than the Senate 
in processing mail. A comparative analysis of similar organizations 
that contract out mail processing has determined that the Senate 
processes its mail for up to 62 percent less cost than others.
                  <greek-l>saa deg.capitol facilities
    SAA Capitol Facilities serves the Senate community by providing a 
clean and professional work environment through its Environmental 
Services branch. This branch cleans Capitol spaces, moves Capitol 
furniture, provides special event setups in the Capitol--including the 
10 event spaces in the CVC Senate expansion space--and completes other 
service requests. To meet cyclical customer demands during peak event 
setups and furniture moves, Capitol Facilities was able to improve 
labor cost efficiency by supplementing the full-time work force with 
contracted labor in place of additional FTEs. This resulted in a 
second-year cost savings of $150,000. Capitol Facilities completed 
3,127 special event setups in the CVC Senate expansion space and 
Capitol, a 24 percent increase from the previous year. Service requests 
from Capitol offices for moving furniture and supplies totaled 6,622, 
an increase of 11 percent more than the previous year.
    The Furnishings branch provides framing services to all Senators 
and committees. Demand for framing services increased by 6 percent more 
than the previous year with a total of 2,764 orders completed. The 
branch also provides custom cabinets and other high-quality furniture, 
carpeting, and draperies to Capitol offices. The Cabinet Shop designed, 
built, and installed 177 pieces of furniture, a 43 percent increase 
from the previous year. The Furnishings branch worked with the 
Committee on Appropriations on design and installation of custom 
carpet, construction of turrets for a new sound system, and 
installation of custom-built benches around the perimeter of the 
committee room (S-127). New furniture, draperies, and upholstery were 
provided for the Committee on Foreign Relations room and office (S-116/
117), the Vice President's office (S-212), and the Republican 
Secretary's office (S-335). Additionally, 20 new Senate Chamber chairs 
were built for incoming Senators.
                          <greek-l>saa deg.cvc
    My office has been involved with the CVC since its inception. We 
have worked collaboratively with others, including representatives of 
this subcommittee, to ensure that many of the operational aspects of 
the facility achieve desired results. Our participation and the 
challenges presented have been vast and varied, including, but not 
limited to, security, hours of operation, transitioning the Capitol 
Guide Service, emergency preparedness, IT, furnishings for the Senate 
side of the CVC, Senate meeting rooms setup and maintenance, bus 
routes, Capitol tour routes, coat checks, official appointments, 
accommodating visitors to the Senate Gallery, broadcast media 
infrastructure, ATM service, telephone service, and other 
communications infrastructure. I am pleased to report that all of the 
SAA departments involved with the CVC completed all of our tasks on 
time and within budget.
    More than 5 million visitors have experienced the CVC since its 
opening a little more than 2 years ago. Feedback from our guests has 
been extremely positive. The long lines of visitors waiting in the 
elements that were prevalent prior to the CVC's opening have been 
eliminated, as are the congested hallways in the Capitol. Visitor 
services professionals from across the country and around the world 
view the CVC, and its operation, as models of excellence in the visitor 
services arena.
    Each of our departments affected by the CVC adjusted its processes, 
thereby mitigating additional employees and costs when this magnificent 
addition to the Capitol opened. The impacts to their operations were 
significant, yet, by maximizing resources, we were able to achieve 
desired results.
               <greek-l>saa deg.senate appointment desks
Expanding and Improving our Services
    An objective of the CVC was to improve security and the flow of 
visitors to the Capitol. To facilitate this goal, we expanded the 
Senate Appointment Desks 100 percent by adding two desks in the CVC, 
one located near the main entrance and the other located outside of the 
Senate Meeting Rooms on the lower level. These two desks required four 
additional FTEs to staff the desks. Improved technology and process 
improvements achieved by the Senate Post Office enabled the transfer of 
four employees from the Senate Post Office to the Senate Appointment 
Desks in the CVC. This is another example where my office exercised 
fiscal responsibility by finding resources within our organization 
rather than increasing costs by adding to the complement of employees 
assigned to the SAA organization.
    To enhance our services to the Senate community, we were tasked 
with opening a Hart Senate Appointment Desk in May 2010. Again SAA 
staff accomplished this task with minimal expense and without adding 
employees. We restructured the duties of our existing appointment desk 
team and those of our Doorkeeper team, thereby freeing up the labor 
needed to support an appointment desk located in the Hart Senate Office 
Building. We worked collaboratively with the Committee on Rules and 
Administration, USCP, and the AOC in designing a secure and welcoming 
process for staff who escort Senate guests to the Capitol from the Hart 
Senate Office Building.
    Our five Senate Appointment Desks collectively processed 163,811 
guests during 2010. The total number of badges issued was the second 
highest in a given year since the appointment desks were created more 
than 26 years ago.
    A goal for opening the CVC was to improve security by reducing the 
number of guests who enter through the Capitol's north door. Last year 
47,956 guests entered the Capitol through the CVC with its state-of-
the-art security features and accommodations. Without the CVC, these 
guests would have entered through the north door of the Capitol, 
waiting in line and bearing the elements. The Capitol Appointment Desk 
reduced its number of guests processed through the north door to 37,577 
during 2010. The 2010 total number of visitors processed through the 
North Door represented a 40 percent reduction in the number of guests 
processed as compared to the year before the CVC opened. This reduction 
of guests in the Capitol improved safety, reduced wait time for 
entrance through the north door of the Capitol, improved visitor flow, 
and reduced congestion within the Capitol proper.
    Also in 2010, more than 72,000 guests entered the Capitol via the 
Russell Appointment Desk, including 60,550 who were destined for the 
CVC. This represented the most badges issued by the Russell Appointment 
Desk in its history.
                      <greek-l>saa deg.doorkeepers
Facilitating the Needs of the Senate
    Our Doorkeepers play an important role in supporting the Senate. 
This group of dedicated professionals remains on call to assist the 
Senate when needed. A primary role of our Doorkeepers is to support the 
Senate Chamber by providing access to those with Senate Floor 
privileges and enforcing the rules of the Senate. Additionally, our 
Doorkeeper team facilitates the needs of Senators, Senate Floor staff, 
and pages.
    The past 4 years have been extraordinary in that the Senate has 
been in session an average of 181 days from 2007 through 2010. This 
represents a 21 percent increase to the 150 average numbers of days the 
Senate was in session from 1996 through 2006.
    Our Doorkeepers provided exceptional support for special events 
during 2010, including the swearing-in of Senators elected during 2010 
and the re-enactment that followed in the Old Senate Chamber; Senator 
Byrd's laying in repose in the Senate Chamber; the confirmation of 
Supreme Court Justice Kagan; and the impeachment trials of Samuel B. 
Kent and G. Thomas Porteous.
    Our Doorkeepers facilitate the movement and seating of Senators 
during joint sessions of the Congress conducted in the House of 
Representatives. During 2010 there were two joint sessions:
  --the President's State of the Union Address; and
  --the Joint meeting of the Congress with the President of Mexico.
    Congressional tributes and Congressional Gold Medal ceremonies also 
require the services of Doorkeepers. In the past year, Doorkeepers 
facilitated Senators and guests for the 50th Anniversary of the 
Inaugural Address of President John F. Kennedy; Days of Remembrance; 
moment of silence in the Senate Galleries and on the House of 
Representatives steps in honor of the victims of the tragedy in Tucson, 
Arizona; Celebration of the Life of Congressman John Murtha; 
recognition of contributions of enslaved African Americans to the 
construction of the United States Capitol; September 11 Congressional 
Remembrance Ceremony; Peace Officers Memorial Day; and Women Service 
Pilots Congressional Gold Medal ceremony.
Improving the Senate Gallery Visitor Experience
    We improved the visitor experience for those who want to witness 
Senate proceedings from the Gallery. We now process these guests 
through the CVC, rather than through the Capitol's north door. This 
process enhancement improved security, as well as the visitor 
experience, by eliminating the long lines and congestion that had been 
commonplace throughout the Capitol prior to the opening of the CVC. Our 
Senate Doorkeepers manage a staging room in the CVC that facilitates 
the collection of prohibited items and the movement of people in a 
secure and efficient manner. The staging room and the surrounding areas 
offer our guests numerous comforts and educational opportunities.
    Last year, 224,925 visitors viewed the Senate Chamber from the 
Senate Gallery. 2010 represented the first full year since 2000 that 
the Senate Gallery was open for visitors during scheduled Senate 
recesses. We reopened the Senate Gallery during scheduled recesses 
beginning with the August 2009 recess and, since then, more than 90,000 
visitors have viewed the Senate Chamber from the Senate Gallery. 
Reopening the Gallery has provided an opportunity for thousands, who 
under the previous rule would not have enjoyed the opportunity to see 
the ``world's greatest deliberative body.'' Our Gallery remains open 
during scheduled recesses for 2011.
    The feedback that we have received from Senate Gallery visitors has 
been extremely positive. Senate Gallery visitors have complimented our 
processes, including the elimination of long lines, waiting in the 
elements, the speed of gaining access to the Gallery and the 
educational opportunities afforded by the CVC.
Leveraging Existing Resources
    The year 2010 proved to be one of the busiest and demanding in the 
history of the Senate Doorkeepers. Our Doorkeepers' work is yet another 
example where our process improvements and solid management principles 
have enabled us to do more with existing resources. Our Doorkeepers 
were able to make significant improvements with minimal expense and 
without additional employees.
    Despite the increases in workload--the 21 percent increase in the 
average number of days the Senate has been in session for the past 4 
years, the 70 percent increase in the footprint covered by Doorkeeper 
staff due to the opening of the CVC, and the increased number of 
special events and ceremonies requiring Doorkeeper support--we were 
able to improve our performance by utilizing existing resources, 
redefining our work processes, and refining our Doorkeepers' job 
descriptions.
                <greek-l>saa deg.senate recording studio
Expanded Broadcast Capability
    Our Senate Recording Studio was one of the first departments to 
move into the CVC. Our facility has received accolades from guests 
since its opening, including Senate leadership, Senators, and Senate 
staff. The convenience of the studio's location and proximity to the 
Senate Floor and Senate subway system provides convenience to Senators 
and staff.
    The studio is responsible for providing gavel-to-gavel coverage of 
Senate floor proceedings, broadcasting Senate committee hearings, and 
providing radio and television production studios and equipment for 
Senators' use. In 2010 represented another busy year for the recording 
studio. Last year, we provided 1,078 hours of gavel-to-gavel coverage 
of Senate Floor proceedings. We provided broadcast coverage of 723 
Senate committee hearings and 1,074 radio productions. Additionally, 
our team of seasoned professionals produced 1,066 shows for Senators 
from our television studios.
    The number of studio productions increased by 5 percent due largely 
to our Recording Studio producing the Democratic Media Center and 
Republican Conference shows while their respective studios were being 
renovated.
Groundbreaking Firsts
    This past year our recording studio broke new ground when we 
provided the land-based production and engineering support for an 
Appropriations Commerce, Justice, Science, and Related Agencies 
Subcommittee hearing which included a live videoconference with 
astronauts aboard the International Space Station.
    Another first for our recording studio was the Internet simulcast 
of a Senate Washington, DC event to all Senate staff who wanted to 
participate, including State office personnel. In the aftermath of the 
Tucson shooting tragedy, my office conducted a security briefing to 
provide an interactive forum for all participants and attendees. This 
capability facilitated our ability to answer questions and provide 
updated information to Member offices throughout the United States.
Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been ever 
increasing. In 2003, we began working with this subcommittee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee rooms. The project includes digital 
signal processing audio systems and broadcast-quality robotic camera 
systems. The Committee Hearing Room Upgrade Project continued during 
2010.
    To date, we have completed 30 rooms. Room enhancements include 
improved speech intelligibility and software-based systems that we can 
configure based on individual committee needs. The system is networked, 
which gives committee staff the ability to easily and automatically 
route audio from one hearing room to another when there are overflow 
crowds. Additionally, the system's backup will take over quickly if the 
primary electronics fail.
Reducing Costs by Leveraging Technology
    As part of the upgrades, we installed technologies in our new 
Recording Studio space in the CVC to enhance our ability to provide 
broadcast coverage of more hearings simultaneously without adding 
staff. For example, the Committee Hearing Room Upgrade Project allows 
us to cover a hearing with only one employee. Before the upgrades, 
three employees were required to adequately cover a single hearing. 
These technology enhancements, coupled with the expansion of the number 
of control rooms for committee broadcasts to 12, have enabled us to 
increase our simultaneous broadcast coverage of committee hearings from 
5 to as many as 12 without increasing our staff.
    Our Senate Recording Studio is another shining example of where we 
have enhanced our services and increased our productivity by utilizing 
process improvements and technology, rather than increasing our staff.
                    <greek-l>saa deg.media galleries
    The four Senate Media Galleries comprise the Senate Daily Press 
Gallery:
  --the Senate Periodical Press Gallery;
  --the Press Photographers' Gallery; and
  --the Senate Radio and Television Gallery.
    The unique structure of the four Media Galleries requires them to 
work closely with their respective Standing and Executive 
Correspondent's Committees, the Senate SAA, the USCP, and the Senate 
Committee on Rules and Administration in order to facilitate media 
arrangements and credentials for the more than 7,000 credentialed media 
who cover Senators, Senate committees, and related media events.
    In recent years the media industry has seen historic shifts in 
formats and structures of media outlets which appear to have caused a 
general decline in revenue and circulation for traditional media. 
However, the Media Galleries have seen a burgeoning population of new 
and emerging media. The staff of the Media Galleries has diligently 
worked to accommodate this new population through the current 
credentialing process.
    The growth of 24-hour news channels and Web sites has increased the 
demand for constant news. As a result, the Congress is being covered in 
more detail than ever before. In response to the changing needs of the 
reporters covering Capitol Hill, all four Media Galleries worked with 
the office of the SAA Chief Information Officer to upgrade their 
technical infrastructure including incorporating wi-fi in all four 
Media Galleries.
Senate Daily Press Gallery
    During 2009, a complete remodeling and rewiring of the Daily Press 
Gallery was completed. This was the first such renovation since the 
early 1980s. Restoring the suite of rooms that has been occupied by the 
press since before the Civil War was a mammoth undertaking that 
involved a number of SAA and AOC offices. Furniture was replaced, wires 
were completely redone, and the walls, ornate ceilings, Minton-tiled 
floors, and historic mirrors were completely restored down to the 
smallest detail. The renovation improved the gallery's appearance and 
working conditions for reporters.
    The past 2 years have been extraordinarily busy for the Daily Press 
Gallery. There are more reporters covering the Senate on a daily basis 
than ever. Organizations are covering the Senate in more detail than 
ever, with a constant demand for new information. As a result, our 
gallery is one of the busiest places in the Capitol complex. This year, 
the gallery was constantly filled with reporters covering issues.
    Our Daily Press Gallery staff keeps busy providing the swelling 
ranks of reporters with background information; monitoring Senate floor 
activities and schedule changes; preparing for big events and 
ceremonies; researching and assessing the flood of new credential 
applicants in conjunction with the Standing Committee of 
Correspondents; monitoring and assisting with access on the Capitol's 
second floor and other places where news is breaking; facilitating 
coverage of major hearings, answering press inquiries on legislation, 
floor action, parliamentary procedure; and generally assisting the 
press in covering the Congress, and assisting Senators and staff in 
making information available to the public.
    In addition to those basic duties, we implemented a new paperless 
credentialing system, updated continuity of operations and emergency 
preparedness plans, and put the finishing touches on a very successful 
Gallery renovation.
Senate Periodical Press Gallery
    While high-profile hearings garner the most attention by staff and 
media, the Senate periodical staff always strives to work with all 
Senate committees on their media arrangements for typical hearings and 
events. Senate Periodical Press Gallery staff worked with new committee 
and Senators' press secretaries in order to familiarize them with the 
Periodical Gallery's functions at committee hearings. Constant 
collaboration occurs allowing various Senate committees to set up media 
arrangements for a number of widely viewed hearings, including 
confirmation hearings for all Presidential nominations, Senate budget 
consideration, and Senate Appropriations Committee events.
Press Photographers' Gallery
    The primary role of the Press Photographers Gallery is to 
credential photographers and to assist at news events at the Senate. 
Our staff also has the unique responsibility of assisting at-large news 
events and hearings in the House of Representatives.
    The demand for news images has increased as Web publications expand 
and gain popularity. Also, deadlines for pictures have shifted from 
daily to immediate as organizations and publications strive to have the 
latest pictures available for online publications. These radical 
changes in how events are captured have increased the number of 
photographers covering Capitol Hill on a daily basis. The Press 
Photographers' Gallery has responded to these challenges by enhancing 
the technology infrastructure for gallery members.
Senate Radio and Television Gallery
    In an effort to address new requirements for electronic media 
coverage of Senate events, improvements were made in upgrading the 
technical infrastructure of Senate committee hearing rooms and other 
news event locations throughout the Senate campus. For example, in a 
collaborative effort with the Senate Committee on Rules and 
Administration, gallery staff oversaw the installation of fiber optic 
cable in 14 Senate committee rooms. Several meeting rooms in the 
Capitol and the Senate wing of the CVC were also outfitted with fiber 
optic cable.
    In 2009, the backdrop in the Senate Radio-TV Gallery studio was 
renovated to accommodate high-definition news broadcasts. The improved 
backdrop enhances Senators' appearance by incorporating several 
enriching elements such as columns and LED lighting.
    We improved this Gallery's work areas during the past year as well. 
The Radio-Television Gallery staff worked collaboratively with the 
Senate Committee on Rules and Administration, AOC, and media 
representatives to upgrade media connectivity in the Russell Rotunda 
media area. This team also led the efforts to completely renovate the 
Radio-Television Gallery mezzanine workspace which included modern 
workstations and updated infrastructure.
        <greek-l>saa deg.senate office of education and training
    The Senate Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, DC and the 
States. There are two branches within the office:
  --the Education and Training branch; and
  --the Health Promotion branch.
    The Education and Training branch provides training opportunities 
for all Senate staff in areas including management and leadership 
development, human resources issues and staff benefits, legislative and 
staff information, new staff and intern information, and training 
support for approved software packages and equipment used in 
Washington, DC and State offices. This branch also coordinates and 
provides major training events for State and DC staff.
    Training and education is provided through instructor-led classes; 
one-on-one coaching sessions; specialized vendor provided training; 
Internet and computer-based training; webinars; video teleconferencing; 
informal training and support services; documentation, job aides and 
quickcards.
    The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans blood drives 
every year.
Capitol Hill Training
    The Office of Education and Training offered 1,278 classes and 
events in 2010, drawing more than 10,000 participants. This office's 
registration desk handled more than 25,000 email and phone requests for 
training and documentation.
    The above total includes 438 customized training sessions for 1,937 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators to conflict resolution and organizational 
development. We provide individual consultation on Web site development 
and office systems training. We provided resume and interviewing skills 
building after the deaths and retirements of numerous Senators.
    The Senate's Intern Program is also a focus of the office. We 
provide training for intern coordinators as well as five orientation 
and training sessions for approximately 500 interns.
    Annually, we provide a Senate Services Expo for Senate office 
staff. This year we had 35 presenters from the offices of the Secretary 
of the Senate, SAA, AOC, USCP, and the Library of Congress providing an 
overview of their services to 250 staff. This is part of the 
orientation for new staff and the aides to the Senators-elect. This 
past November we held seven orientation sessions which were attended by 
30 aides.
State Office Training
    The Office of Education and Training provided 85 learning 
opportunities to State offices for which 2,813 State staff registered. 
Our office continues to offer the State Training Fair Program and video 
teleconferencing and webinars as a means to train State staff. In 2010, 
two sessions of the State Training Fairs were attended by 63 State 
staff. We also conducted the State Directors Forum, which was attended 
by 62 State administrative managers and directors and a Constituent 
Services Forum attended by 43 State staff. We also provided advanced 
all staff meeting facilitation to more than 20 offices that were 
attended by more than 650 staff. Additionally, the office offered 33 
video teleconferencing classes, for which 1,707 State staff registered 
and we offered 28 webinars that were attended by 288.
    We provide sources of Internet-based training covering technical, 
professional and language skills. This allows staff in both DC and 
State offices to take training at their convenience. To date, 692 DC 
and State staff have registered and accessed 1,534 different lessons 
and publications using this training option. Education and Training 
also provides 54 Senate-specific self-paced lessons that have been 
accessed more than 3,200 times.
Health Promotion
    In the Health Promotion area, 3,070 staff participated in 56 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day and seminars on health-related topics and the Annual Senate 
Health Fair. We also coordinate Weight Watchers, Yoga, and Pilates 
sessions using the revolving fund for health promotion. There were 11 
sessions that had 266 attendees.
           <greek-l>saa deg.employee assistance program (eap)
    Our EAP offered a variety of services to staff, Pages, interns, and 
family members. In 2010, 3.8 percent of Senate employees and/or their 
family members met with/spoke to an EAP counselor, 187 employees took a 
mental health on-line screening, 2,614 employees attended an EAP 
training activity, and 1,416 employees accessed resources for 
personalized information and referrals for childcare and parenting, 
adult care and aging, education, legal, and financial concerns.
    The EAP expanded outreach programs through updating materials on a 
wide variety of mental health topics; providing an interactive and 
informative Web page that includes confidential mental health 
screenings, an increased number of self-paced training modules and 
access to mental health, management and trauma response resources; and 
offering a variety of time- and community-sensitive training programs, 
including video teleconferencing training programs for State offices. 
The EAP continued to hone, expand, and utilize the skills of the 29 
members of the Senate Peer Support Team through a series of 
presentations, trainings, and informational lectures.
       <greek-l>saa deg.appendix--fiscal year 2012 budget request

                  FINANCIAL PLAN FOR FISCAL YEAR 2012

          Office of the Sergeant at Arms--United States Senate

                                                EXECUTIVE SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year 2012 vs. fiscal
                                                                                             year 2011
                                                    Fiscal year     Fiscal year  -------------------------------
                                                    2011 budget    2012 request                      Increase/
                                                                                      Amount         decrease
                                                                                                   (percentage)
----------------------------------------------------------------------------------------------------------------
General operations and maintenance:
    Salaries....................................         $76,846         $77,588            $742            +1.0
    Expenses....................................          86,067          84,429         (1,638)            -1.9
                                                 ---------------------------------------------------------------
      Total, general operations and maintenance.         162,913         162,017           (896)            -0.5
                                                 ===============================================================
Mandated allowances and allotments..............          50,174          49,663           (511)            -1.0
Capital investment..............................             700             684            (16)            -2.3
Nondiscretionary items..........................           5,175           6,812           1,637           +31.6
                                                 ---------------------------------------------------------------
      Total.....................................         218,962         219,176             214            +0.1
                                                 ===============================================================
Staffing                                                     956             956  ..............  ..............
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2012 
budget request of $219,176,000, an increase of $214,000 or 0.1 percent 
compared to fiscal year 2011. The salary budget request is $77,588,000, 
an increase of $742,000 or 1 percent, and the expense budget request is 
$141,588,000, a decrease of $528,000 or 0.4 percent. The staffing 
request remains flat at 956.
    We present our budget in four categories:
  --general operations and maintenance (salaries and expenses);
  --mandated allowances and allotments;
  --capital investment; and
  --nondiscretionary items.
    The general operations and maintenance salaries budget request is 
$77,588,000, an increase of $742,000 or 1 percent compared to fiscal 
year 2011. The salary budget increase is due to merit funding and other 
adjustments.
    The general operations and maintenance expenses budget request for 
existing and new services is $84,429,000, a decrease of $1,638,000 or 
1.9 percent compared to fiscal year 2011.
    The mandated allowances and allotments budget request is 
$49,663,000, a decrease of $511,000 or 1 percent compared to fiscal 
year 2011. This budget supports State office rents, $18,815,000; 
purchase of computer and office equipment, $13,894,000; voice and data 
communications for Washington, DC and State offices, $12,301,000; 
procurement and maintenance of office equipment for Member office 
constituent services systems, $4,500,000; State office security 
enhancements, $1,913,000; and wireless services and equipment, 
$1,500,000.
    The capital investment budget request is $684,000, a decrease of 
$16,000 or 2.3 percent compared to fiscal year 2011. The fiscal year 
2012 budget request includes funds for the Senate Chamber remote 
broadcast system replacement, $484,000; and data networking initiatives 
and expansions, $200,000.
    The nondiscretionary items budget request is $6,812,000, an 
increase of $1,637,000 or 31.6 percent compared to fiscal year 2011. 
The request funds projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$3,770,000; support for the payroll system, $2,182,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$860,000.

    Senator Nelson. Thank you.
    Chief Morse.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF
    Chief Morse. Thank you, Chairman Nelson, Ranking Member 
Hoeven, and members of the subcommittee. I'm honored to be here 
today, and I appreciate the opportunity to present the USCP 
budget for fiscal year 2012.
    I would like to request that my written testimony be 
entered into the record.
    Senator Nelson. It will be entered.
    Chief Morse. I would also like to thank the subcommittee 
for its sustained and unwavering support for the men and women 
of the USCP. Specifically, I would like to express our 
appreciation to the subcommittee, and the Congress, for 
providing the necessary salaries and general expenses funding 
for 2011 to support our personnel and operations.
    As I begin my testimony, I would like to emphasize that my 
management team and I are keenly aware of the economic 
situation our Nation faces today. I understand the 
responsibility I have to submit a budget request that is not 
only accurate, but is reasonable and based on the critical 
requirements necessary to mitigate and address threats and 
risks. The department's fiscal year 2012 budget request, after 
adjusting the fiscal year 2011 appropriated levels, totals $380 
million, and represents an overall increase of 12 percent. The 
department's fiscal year 2012 personnel request reflects our 
continuous efforts, at all levels of management, to effectively 
manage our existing resources to achieve the best possible 
balance of staff-to-mission requirements.
    With that in mind, our requested fiscal year 2012 personnel 
costs support the current authorized staffing levels of 2,243 
positions, as well as a request for three new civilian 
positions for the Office of Inspector General (IG). We're 
requesting an overall increase of 8 percent more than the 
fiscal year 2011 enacted funding level, with rescission.
    We have been very strategic in our hiring of civilian 
positions to best align our resources to our needs. In 
particular, we identified, through a position review, 22 
existent vacant civilian positions for repurposing to meet our 
additional mission requirements, such as the 9 sworn officers 
needed for the security of the new Federal Office Building 8 
(FOB8) and 13 civilian dispatcher positions needed for the 
radio project and mirror site requirements; at current staffing 
levels, the department's fiscal year 2012 overtime projection 
of approximately $36,500,000, to include support for the fiscal 
year 2012 political conventions and pre-Inauguration security 
planning, along with support for Library of Congress (LOC) 
nonreimbursable events, and overtime necessary to secure 
multiyear projects, to include the Capitol Dome skirt and the 
utility tunnel projects.
    The second area of detail is an overall net increase in our 
requested general expenses budget, which is an overall increase 
of 29 percent more than the fiscal year 2011 funding levels. 
The majority of the increase is attributed to the new 
initiatives to address identified threats and risks and for 
support of the 2012 political conventions and Presidential 
Inauguration planning. The increase in the request, just for 
normal annual needs of the Department, excluding the new 
initiatives and convention pre-Inauguration support, is about 5 
percent.
    The seven new initiatives included in our request address 
security and law enforcement services for FOB8; security 
enhancements for the alternate computer facility; security 
designs for utility tunnel systems; design and installation of 
security programs for the Capitol Dome skirt rehabilitation; 
design and installation of security management systems within 
the House and Senate parking garages; software upgrades for the 
Department's fixed-asset management; and departmentwide travel 
management systems. The total funding request for these 
initiatives is $11.8 million.
    With the direct assistance of the USCP Board, we provided 
advisors to assess financial management risk and to provide 
recommended improvements, as well as the oversight 
recommendations of the USCP IG. We have the foundation for 
sound fiscal practices, to include sound budget formulation 
that we are actively implementing and will continuously seek to 
improve.
    In particular, I'm pleased to report that we recently 
closed all eight audit findings related to the U.S. IG's audit 
of the Department's budget formulation process. Further, we're 
working on the resolution of a number of other recommendations 
in order to achieve efficiency and effectiveness in our 
administrative programs. The long-term resolution of the 
recommendations related to internal controls, business 
processes, and material weaknesses remain the highest 
importance to our management team.

                           PREPARED STATEMENT

    Finally, I'd like to thank all the men and women of the 
USCP, both sworn and civilian, for their dedicated service and 
their sacrifice to keep us all safe this past year.
    I appreciate the opportunity, today, that you've given me. 
And I'd be happy to answer any questions that you may have.
    [The statement follows:]
              Prepared Statement of Phillip D. Morse, Sr.
    Chairman Nelson, Ranking Member Hoeven and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police (USCP) budget 
request for fiscal year 2012.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support for the men and women of the USCP. You and your 
staffs have continued to generously support both our mission as well as 
our personnel--not just in a monetary way, but also in private and 
public recognition of our role and responsibilities. The security and 
protection of this great institution is not only our job, but we 
consider it a sacred duty and privilege to serve you, the congressional 
staff, and the millions of visitors from every corner of the world who 
come to the United States Capitol Complex every year. Due in large part 
to your support and that of the Capitol Police Board, the Department 
has had many successes in its continued efforts to become a premier 
security and law enforcement agency operating under established 
controls and efficiencies.
    Specifically, I would like to express our appreciation to the 
subcommittee and the Congress for providing the necessary salaries and 
general expenses funding for fiscal year 2011 to support our personnel 
and operations.
    This fiscal year 2011 appropriation level has allowed the 
Department to address critical salaries requirements, as well as Radio 
Modernization Project (RMP) needs, in fiscal year 2011, which thus 
results in a reduction of those items from our fiscal year 2012 budget 
request.
    As I begin my testimony, I would like to emphasize that my 
management team and I are keenly aware of the economic situation our 
Nation faces today. I understand the responsibility I have to submit a 
budget request that is not only accurate, but that is reasonable, based 
on only critical requirements necessary to mitigate and address threats 
and risks. Our fiscal year adjusted 2012 budget request provides for 
those mission-critical requirements necessary for the Department to 
address the security of the Congress, so that it may conduct it's 
constitutional responsibilities in an open and safe manner without 
disruption from crime or terrorism.
    Our mission-focused request is grounded in the USCP strategic goals 
that describe our mission and frame our budget planning:
  --assessing the threat to the Capitol community;
  --taking proactive measures to mitigate the threat so as to prevent 
        disruption to the legislative process;
  --responding in the event of a disruption so that the Congress can 
        continue to operate; and
  --supporting the USCP's mission through constructive internal 
        business processes and controls that foster effective and 
        efficient mission delivery.
    This budget is strong in support of those goals--with modest 
increases and initiatives to address identified risks and threats--yet 
it is flexible enough to achieve and maintain solid mission-critical 
results with efficient use of resources.
    The proposed fiscal year 2012 budget will address and mitigate 
identified security challenges that may potentially affect the safety 
of the Capitol Complex and our ability to keep up with the changing 
security environment and threat level. In addition, it contains 
requests for a few new initiatives that provide additional security for 
the Capitol Complex and it provides administrative systems to mitigate 
audit risks and findings.
    The Department's funding levels have grown in recent years, due to 
requirements set forth to support an expanding mission load. In the 
last several years, we have merged with the Library of Congress (LOC) 
police while absorbing the jurisdiction over LOC buildings and grounds, 
and upon the opening of the Capitol Visitor Center; we assumed 
additional protection responsibilities for the security operations of 
this critical addition to the Capitol. We will also be gaining an 
additional protective responsibility with the opening of the Federal 
Office Building 8 (FOB8) scheduled to reopen in fiscal year 2012. An 
additional fiscal dynamic we are managing is our implementation of a 
complex RMP.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2012 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2012 request totals $380 million and 
represents an overall increase of 12 percent, or $40 million more than 
the fiscal year 2011 enacted level with a rescission funding level of 
$340 million.
    The first subject area that I would like to provide more detail for 
is in the area of personnel salaries and overtime.
    The Department's fiscal year 2012 personnel request reflects our 
continuous efforts at all levels of management to effectively manage 
our existing resources to achieve the best possible balance of staff-
to-mission requirements. We are constantly analyzing our workforce to 
align job functions, assignments, workload, risk management, and 
organizational readiness along with the ever-changing threat 
assessments and mandatory mission requirements of a dynamic 
Congressional community.
    To operate within our current budget, we are currently carrying out 
our mission requirements with 1,775 of our 1,800 sworn positions, below 
our authorized 443 civilian positions, and with only limited training. 
We have received funding in fiscal year 2011 to increase our sworn 
levels to 1,800 at the end of the fiscal year, and to bring on an 
additional 13 civilians as well, but this partial year funding for 
these positions will need to be annualized in fiscal year 2012 in order 
to maintain this staffing strength. Much of our overall increase allows 
the Department to operate at our current authorized staffing levels.
    With regard to our funding request related to personnel, we are 
requesting an overall increase of 8 percent more than the fiscal year 
2011 enacted funding levels with rescission, which includes funding for 
only three new civilian positions for the Office of the Inspector 
General (OIG). The increase in 9 new sworn positions to address the 
additional operational requirements for FOB8 is offset by a net 
reduction of 9 civilian positions from within the Department current 
authorized strength of 443.
    Additionally, we have been very strategic in the hiring of civilian 
positions to best align our resources to our needs. In particular, we 
identified 22 existing vacant civilian positions based on a position 
review for repurposing to meet additional mission requirements such as, 
the 9 sworn officers needed for the security of the new FOB8 and 13 
civilian dispatcher positions needed for the RMP mirror site 
requirements.
    The Department's current authorized sworn strength does not 
entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as postcoverage, projected unscheduled events such as demonstrations, 
late sessions, holiday concerts, et cetera, and unfunded requirements 
that occur after the budget is enacted, such as unforeseen critical 
emergency situations.
    Thus, mission requirements in excess of available personnel must be 
addressed through the use of overtime, identification of efficiencies 
such as postrealignment and/or reductions, technology, and cutbacks 
within the utility, such as reductions in the number of hours provided 
for training. As a result, our oversight committees are reviewing such 
options to offset mission requirements where possible, such as closing 
lower-priority doors, which will reduce the total hours at posts and 
overtime costs.
    With that in mind, our requested fiscal year 2012 personnel costs 
support the current authorized staffing levels of 2,243 positions, as 
well as a request for 3 new civilian positions for the OIG. This will 
result in the increase of 3 personnel (from 2,243 to 2,246), while 
absorbing the mission requirements associated with FOB8 security and 
the dispatch operations.
    At current staffing levels, the Department's fiscal year 2012 basic 
overtime projection of approximately $33.9 million reflects an increase 
more than the $32 million that was provided for in fiscal year 2011 
with rescission.
    Other requested increases to overtime include an additional 
$215,000 in funding to cover LOC's nonreimbursable events, and $2.4 
million for overtime necessary to secure multi-year AOC initiatives, to 
include the Capitol Dome skirt, and utility tunnel projects. These 
items bring the total fiscal year 2012 overtime request to $36.5 
million which is an increase of $4.5 million.
    The second area of detail is an overall net increase in our 
requested general expenses budget, which includes protective travel; 
hiring, outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; et cetera. While we are requesting an 
overall increase of 29 percent more than the fiscal year 2011 funding 
levels, the majority of the increase request is for new initiatives to 
address identified threats and risks, and for support of the 2012 
political conventions and Presidential Inauguration planning. The 
increase in the request, just for the normal annual needs of the 
Department, excluding new initiatives, and convention and pre-
Inauguration support, is 5 percent.
    These seven new initiatives include:
  --security and law enforcement services for FOB8;
  --security enhancements for the Alternate Computer Facility;
  --security designs for the utility tunnel system;
  --design and installation of a security program for the Capitol Dome 
        Skirt Rehabilitation project;
  --design and installation of security management systems within House 
        and Senate parking garages;
  --software upgrades for the Department's fixed asset system; and
  --a Department-wide travel management system.
    The total funding requested for these new initiatives is $11.8 
million.
    Finally, we are requesting $3 million in general expense funding to 
support the 2012 political conventions and pre-Inauguration planning.
    With your support, the Department continues to successfully perform 
our operational mission and has achieved several key accomplishments 
over the last year that have resulted in greater efficiencies for the 
Department, which include addressing several administrative challenges 
and improving corresponding business practices.
    Operationally, so far this fiscal year, the Department has screened 
more than 3 million visitors to the Capitol Complex; affected more than 
200 arrests; conducted more than 75,000 K-9 sweeps; and screened nearly 
6,500 vehicles. In fiscal year 2010, the Department screened more than 
10 million visitors, affected more than 700 arrests; and conducted more 
than 160,000 K-9 sweeps. These are just a few examples of the many 
operational elements that are conducted daily to ensure the success of 
the Department's core mission.
    With the direct assistance of the Capitol Police Board, who 
provided advisors to assess financial management risks and to provide 
recommended improvements, we have the foundation for sound fiscal 
practices that we are actively implementing and will continuously seek 
to improve upon.
    Included in the sound fiscal practices recommended by the OIG 
through his budget formulation audit and the Board's financial advisors 
through their review of our financial management operations are the 
practices and processes we conducted to create the fiscal year 2012 
budget.
    The Department re-implemented an improved management and budget 
planning methodology which we call the ``Force Development Process''. 
It provides for a transparent decisionmaking process, including reviews 
and approvals by an Investment Review Board made up of key agency 
management, and provides a structure that is results-driven and based 
on meeting operational needs. We also formalized a process for program 
evaluations for selected existing programs, which we plan to expand for 
the fiscal year 2013 process. In addition, in order to ensure the 
accuracy of our budget request, this fiscal year 2012 budget went 
through multiple layers of review and validation by internal and 
external parties, and is traceable to supporting documentation for each 
budget element.
    Additionally, by transitioning our primary vehicle fleet to a 
General Services Administration (GSA)-based fleet leasing program, we 
now have a consistent 5-year life-cycle replacement plan, which saves 
taxpayer dollars over purchasing these primary fleet vehicles, reduces 
repair costs, gives us a predictable annual funding requirement and 
allows us to maintain a consistent state of operational readiness. In 
an effort to take advantage of cross servicing within the legislative 
branch, we also successfully migrated our financial management system 
to the LOC, which saves the Department not just in annual operational 
costs, but in future software upgrade costs through economies of scale 
within the legislative branch. Finally, as a result of programmatic 
efficiencies that enabled the reduction of 11 Hazardous Materials 
Response Team positions, we were able to use those vacant civilian 
positions for security control operators to monitor our alarm system 
which was previously handled by contractors. As a result, the security 
control positions were filled by utilizing USCP employees previously 
transferred to the Department of Labor (DOL) due to worker's 
compensation issues. Overall, this transformation allowed the 
Department to better use available resources to more efficiently 
achieve an operational requirement by returning employees to productive 
work, which allowed us to eliminate a $1.2 million contract for the 
previously contracted-operators and reduce our workers compensation 
charge backs to the DOL by returning employees to duty.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our OIG and the Government Accountability Office to address issues 
which have arisen and by providing the evidence necessary to close 
findings. In particular, I am pleased to report that we recently closed 
all eight audit findings related to the USCP OIG's audit of the 
Department's budget formulation process. Further, we are working on the 
resolution of a number of other recommendations in order to achieve 
efficiency and effectiveness of our administrative programs. The long-
term resolution of recommendations related to internal controls, 
business processes and material weaknesses remain of the highest 
importance to our management team.
    As I mentioned in the beginning of my testimony, we are well aware 
of and understand the economic climate that affects our country, the 
legislative branch and the entire Federal Government, and I want to 
assure you that the USCP will successfully adapt our resources and 
continue to safeguard the Congressional community.
    I appreciate the opportunity to appear before you today and would 
be glad to answer any questions you may have at this time.

    Senator Nelson. Thank you, Chief Morse. And thank you all.
    If it's okay, we can try 6-minute rounds of questions. And 
it looks like we'll--maybe I'll just finish that about the time 
the vote is called.
    Ms. Erickson, the fiscal year 2011 enacted level of funding 
for your office included the $4.2 million associated with the 
transfer of the SIS program. Your budget request for fiscal 
year 2012 includes the same level of funding for the SIS 
program. Can you update the subcommittee on the progress being 
made on the transfer of the SIS from the SAA to your office? 
And have you identified any improvements or efficiencies that 
you can find in the implementation of the system?
    Ms. Erickson. Well, the transition has gone very smoothly. 
And I think it's important to remind the subcommittee that the 
idea behind the SIS program was to make the services more 
efficient and cost effective for the Senate. Prior to 2000, 
each office was appropriated a sum of money to purchase online 
subscriptions. And a decision was made, by this subcommittee 
and the Rules Committee, to have one entity be the negotiator 
for these subscriptions, which can be quite costly, as you 
know.
    As part of our education and outreach efforts to Senate 
staff, I think it's fair to say that it was a surprise to some 
of the office administrators that we provided some of these 
services, and that offices were purchasing duplicate 
subscriptions. I think that you'll see some Senate offices will 
achieve cost savings by canceling these subscriptions and 
relying on SIS services.
    Last year, we had a surplus of 0.05 percent. And, with the 
0.2 percent rescission, it cut that amount roughly by half. 
We're currently entering a new procurement stage, and I'm 
pleased to report that we had recommended, based on usage 
statistics, to the Senate Rules Committee, that we eliminate 
one of the service vendors. And they have approved our request. 
We'll see some minor cost savings on that front.
    So, needless to say, with a flat budget, there's not a lot 
of room for error as we enter the procurement negotiations. 
But, I'm hopeful that these services will be maintained, 
because they're valued and used by Senate staff.
    Senator Nelson. Your testimony touches on the fact that 
during fiscal year 2010, the Disbursing Office, in tandem with 
SAA technical support, began implementing a new payroll system. 
What is the status of that Senate payroll replacement project? 
You indicated that phase I should be completed during fiscal 
year 2012. What are the necessary steps? And is everything 
progressing? The status of the replacement projects is what 
we're after.
    Ms. Erickson. The implementation is going well. I will say, 
as you can imagine, anytime you're dealing with payroll, it is 
a high- stakes project. We've been having implementation 
sessions with the vendor who was selected to help with the 
implementation. I've met periodically with the implementation 
group. They meet every 2 weeks for what we call ``fit-gap'' 
sessions. And I think it's fair to say that, so far, everything 
looks good. There's a great deal of work ahead of us.
    But, one thing that I was struck by in attending these 
sessions, is the relatively small number of people, not only 
from the Disbursing Office, but from Terry's shop, in payroll, 
who assist us every 2 weeks in getting the payroll out--the 
small group of people who are working on this project. And 
they're doing this job on top of their already very full-time 
duties of issuing payroll every 2 weeks. I'm pleased to report 
that everything is going well to date. And we will be sure to 
keep you and your staffs informed as we progress on the 
project.
    Senator Nelson. Okay. And what is the cost of the Senate 
Office Personnel System (SOPS)? And is that somehow tied to the 
payroll system? Is it more cost effective to do the personnel 
system in conjunction with the payroll system?
    Ms. Erickson. Sure.
    Senator Nelson [continuing]. In other words, are there 
additional costs associated with adding the personnel system 
later, rather than doing so now, as you're in the 
implementation phase?
    Ms. Erickson. The payroll project will be one that will 
take place in three phases. The first phase will be simply the 
replication of the current system, which we hope to have 
launched by February. The second phase of the project will 
include self-service options, which will allow Senate staff to, 
from their desktops, change their withholdings, their address. 
It will also mean the end of paper paycheck stubs that will be 
mailed to your offices. That will all be sent electronically. 
The third phase of the project will include the SOPS, or 
personnel system, for Senate offices.
    The SAA had asked the vendor who's helping us with the 
implementation, as well as an outside consultant, to do an 
analysis of the risks associated with doing the personnel 
system at the same time as the current payroll system. And they 
recommended that it was too high risk for us to implement at 
this time. So, that will be the third phase of this project.
    Senator Nelson. You mentioned what the new personnel system 
will offer the offices, among other things, interactive ability 
to change certain information would there be some other 
services that would come to the various Senate offices from 
that change?
    Ms. Erickson. Pardon.
    Senator Nelson. Would there be some other benefits, other 
than services, that will come to the Senate offices from this 
changeover?
    Ms. Erickson. Yes, there will. It'll be a much more 
efficient system. And I'd be happy to follow up with the 
subcommittee in more detail on some of the options that would--
--
    Senator Nelson. Sure.
    Ms. Erickson [continuing]. Will be available.
    Senator Nelson. Okay. Thank you. I think that is my time.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Again, thank you for the hard work that you've done on 
these budgets. And, as you know, we're in challenging times, 
financially, in terms of the Federal budget. So, we're going to 
have to continue to work to find savings where we can. And in 
that effort, we've got our personnel costs, which, in all your 
cases, is obviously a very big part of your budget. It's very 
people intensive. And then we have other expenses. Anticipating 
that, we're going to have to continue to find savings, just 
based on what I expect the overall budget requirements to be, 
there's been discussion of even going back to 2008 funding 
levels.
    So, what I'd like to engage in a little bit is how we would 
go about finding some savings and how we would balance that 
between people and projects. Now, for both Secretary of the 
Senate, SAA, you essentially have flat budgets, and have been 
from, basically, 2010, 2011, now looking at 2012; in the case 
of the USCP, we need to talk a little bit about the 14 percent 
increase you are requesting. I recognize the need for security; 
and, of course, with the tragic event that occurred with 
Representative Gabrielle Giffords, we know that's not only a 
security issue here in Washington, DC, but around the country. 
So, we have to be mindful of those security requirements, too.
    But, let's start, if we could, with the Secretary of the 
Senate. In terms of people and projects now, if we have to hold 
these budgets flat, or even compress them further, talk a 
little bit in terms of what you're realistically able to do 
between people versus some of your other general expenses 
versus any kind of projects that you have going now. How would 
you start to--and I know it may be a little hard for you to get 
into specifics, but that's not what I'm looking for, so much as 
to how you would approach this budgeting process in that 
balance between people, general expenses, and project type 
costs.
    Ms. Erickson. Well, in terms of our operational budget, 
we'll be in great shape if you hold us to our 2008 level of 
funding. Our 2012 budget request is the same level as our 2008 
level of funding on the operations front. With respect to 
staffing, the Secretary of the Senate, over the years, has been 
capped at a level of 253 employees. And I'm pleased to say that 
I think that we're well--we're below that cap on purpose 
because I'm mindful that there may be statutory requirements 
that require me to add full-time equivalents to our budget. An 
example of that would be, in the last Congress there were two 
bills that were proposed, dealing with earmarks, and one that 
would have required us to hire staff who had budgetary 
expertise. I would have had to add staff to my budgets to do 
that.
    Every vacancy that we have, through retirement or 
attrition, we scrutinize carefully to make sure that it's 
necessary to fill it. And at the top of my head right now, I 
can think, in the last few months, that there are four 
vacancies that we currently have that we plan to, hopefully, do 
without by using existing staff.
    Senator Hoeven. Okay.
    Terry.
    Mr. Gainer. We've done some analysis of what it would take 
if we had to reduce the budget by 5, 7, or 10 percent, and then 
tried to analyze what we'd do, from a head count and operations 
perspective. And we do have plans in our mind, if we had to do 
that. I think the head count reduction would come through 
eventual attrition as you stop some programs. So, it is really 
the program area that we'd have to adjust to.
    And I'll give you some ``for-instances''. About 27 percent 
of our operational budget goes for the support of the State 
offices. So, when we've looked at reducing funding, generally 
it's something on the Hill that we change. And if we have to 
reduce substantially, I would really respectfully request, of 
this subcommittee and others, that we take a look at the 454 
offices that we have around the United States, and see if there 
isn't some cost-cutting we could do there. That is a 
substantial portion of our operational budget.
    But, when we look at expenses we've deferred much, as I've 
indicated. And at some point, that bill is going to come due 
potentially slowing things down. The turnover of getting new 
computers or buying new equipment could change dramatically. 
While we keep a high level of response to the Senate community 
to install a computer, move a computer, change a computer, all 
that could change, similar to what we've probably done in our 
own homes if it breaks down; we're not able to pick the phone 
up and have someone there in 15 minutes. So, if the Members and 
the staff could adjust to slower response times, there would be 
money to save. But, operating like that would eventually 
adversely impact your ability to interact with your 
constituents. But, we've at least planned out how we would do 
that, if push came to shove.
    Senator Hoeven. I think that you're thinking in the right 
terms, both of you. You know, we'll see what this number boils 
down to. I'm expecting we're going to end up with some top line 
number for 2012, at some point, here, maybe even as we go 
through these discussions with the administration, in terms of 
the whole debt ceiling issue. We may end up with some top line 
number. We'll see. And then, out of that top line number, of 
course, through the Appropriations Committee, then that puts us 
in a position to actually boil down numbers to some of these 
different budgets. It's tough, from the standpoint that we 
don't have a lot of dollars, obviously, and we're going to have 
to find savings. But, the good part is that we may then have a 
number to come back to you and say, ``Okay, we're going to have 
to try to, you know, live within certain numbers, but then 
you've got some ability to make those decisions.'' And we would 
do everything we could within that number, then, to try to help 
you make it work in the best way possible.
    I think some of the things that you talked about and 
identified-- whether they're exactly the right things to do, or 
not, is something we can work through--but, I think you're 
thinking exactly in the right terms, as far as how we would 
approach the challenge. And, like I said, I think we'll have a 
better idea of what that has to be, as we go forward.
    Chief, you know, obviously, with the security situation, 
that's a tough proposition. And I referenced Representative 
Giffords and the challenge that creates, not only for you, here 
in Washington, DC, but then around the country. How do we--with 
the need for security, not just for Members, but for the 
public--how are you going to approach this? Just start at a 
high level----
    Chief Morse. Sure.
    Senator Hoeven [continuing]. And then get down in some more 
specifics.

               <greek-l>USCP deg.ENVIRONMENTAL ASSESSMENT

    Chief Morse. One thing we do when we formulate our budget 
is, we look at threat and risk. So, we do an environmental 
assessment, and then we do what's called ``force development.'' 
We look at those risks and threats, and we look at what we 
currently do and what we may need to do.
    I'm going to give you one example of where--in the 2012 
budget, when you're looking at a program or operation, how we 
were able to meet a new mission, with respect to threat and 
risk, by not increasing the staffing level of our police 
department. What we did for the FOB8, where we needed eight 
additional officers, we scrubbed vacant civilian positions that 
we had not hired for yet. We reallocated those positions to 
fill those vacancies. That's an example of where we scrubbed a 
program, we were able to utilize vacant positions to reallocate 
for a new mission without asking for an increase in authorized 
strength.
    Another example of where we look at a program or operation 
is with respect to our truck interdiction and monitoring 
program. We've taken information technology, camera systems, 
and new technology, with respect to the lights and the 
intersections, and we will be able to reduce that program by 
reducing officers, reducing vehicles, which then becomes less 
maintenance, less gas, less overtime, and we're able to 
reallocate those officers to other missions.
    So, we will continue to do those scrubs of programs and 
operations to find savings, both in how we do what we do and 
the number of people that we need to do it with.
    Senator Hoeven. Okay. I actually was going to try and see 
if I could work this so the Chairman was back before I went to 
the vote. But, I think, given the time, that I'm going to have 
to excuse myself so that I can go vote. And then, I expect both 
the Chairman and myself will be back pretty shortly.
    Thank you.
    Senator Nelson. I think we can reconvene, here.
    And this is still to Ms. Erickson. Aside from the SIS 
program request, your fiscal year 2012 budget is very 
conservative. What measures are you using, internally within 
your agency, to control the costs?
    Ms. Erickson. Well, with a relatively small budget of $2 
million, I have to say that we're vigilant, on a daily basis, 
of watching our budget.
    Just a few examples. Our Senate library staff, every year, 
review the subscriptions and the database of subscriptions that 
we have. And this year, they were able to find $38,000 in 
savings over the next 3 years. Another example, our Senate 
chief employment counsel staff have eliminated the purchase of 
hardbound legal books, and have achieved $6,000 in annual 
savings. Our Senate Stationery Room tackled a project, at the 
request of Senate office administrators, to provide online 
ordering services to offices. Initially, we thought we would 
contract that out, and then, looking at the costs, we decided 
we'd do it internally, using the resources we have here, 
relying heavily on our Senate Webmaster to achieve some cost 
savings. Now, it may not have all the bells and whistles that 
an outside contractor would have provided us, but I'm confident 
it'll get the job done for Senate offices.
    Other small things we do: Not every staff member has a cell 
phone and BlackBerry. We limit those to individuals who are 
department directors or those who have emergency operation 
responsibilities. In the last 2 years, we've limited staff 
travel to attend training and conferences. So, those are just 
small ways that we try to achieve cost savings for our 
operational budget.
    With respect to salaries, as I mentioned to Senator Hoeven 
earlier, every time we have a vacancy, we scrutinize it to make 
sure that it's one that we really need to fill. And, in 
recognizing the tight economic times that we're in, I can think 
of, off the top of my head, four vacancies that we currently 
have had, in the last few months, that we plan to keep open and 
rely on existing staff to assume those duties.
    Senator Nelson. Well, thank you. And I commend you for the 
steps that you've taken to control costs, and submitting such a 
lean budget. And after giving you all those compliments, I 
guess it might come as a shock that I will ask the question: If 
you had to submit a 5-percent reduction from fiscal year 2011, 
do you have any thoughts about where you might make those kinds 
of reductions?
    Ms. Erickson. Well, we have a lean budget, so it would be 
tough. And many of the services that we provide are ones that 
we have statutory mandates to provide. But, we would do our 
best to scrutinize the budget to come up with those savings. We 
would do as directed by the Appropriations Committee.
    With respect to the SIS program, I have to say that, if we 
took a 5-percent cut, it would bring the level of funding for 
that program back to 2008 levels. And it would require us to 
make drastic cuts in the services provided to Senate offices.
    Senator Nelson. And the Senate offices don't want those 
drastic cuts in their service, do they?
    Ms. Erickson. They do not.
    Senator Nelson. I know.
    Ms. Erickson. In fact, recently, the leadership 
directories, which is one of the services under the SIS 
program, went dark for a few hours, and the phones in our 
Senate library were ringing off the hook with complaints from 
Senate staff. We like to keep them happy.
    Senator Nelson. Well, thank you. I appreciate it very much.
    As we look at the Senate SAA budget, your request, Mr. 
Gainer, is only slightly above 2011 enacted level. And I note 
that you would have been below, except for the 2.2 percent 
across-the-board cut that was applied to that bill. And once 
again, I'd like to commend you for submitting a budget that 
basically reflects a freeze in spending. And I have a couple of 
questions about your request and the current funding levels.
    Number one, does your increase in salary funding for fiscal 
year 2012 include a request for additional staff?
    Mr. Gainer. No, Sir, there are no additional staff 
requests.
    Senator Nelson. How much do you currently have in remaining 
prior year unobligated balances, which you have said you would 
like to see applied?
    Mr. Gainer. There is approximately $10 million of 
unobligated balances, Senator. And we have a plan for that 
money. Part of it goes to completing the work that we're doing 
with the Secretary of the Senate on the payroll system. We 
don't know if we have allocated enough to complete the project, 
so we are reserving some funds, in case there are additional 
requirements. We're reserving some funds that are related to 
the question you had about the personnel system, one large item 
that benefits the entire Senate community. And then, we'd have 
to prioritize those projects that we've deferred over these 
last couple years, and see how we would best use the funds.
    Senator Nelson. Right. And how much of those unobligated 
balances would expire at the end of fiscal year 2011 if not 
used?
    Mr. Gainer. Approximately $5 million will expire.
    Senator Nelson. All right. Unfortunately, if we're going to 
get our fiscal house in order, it's going to take a bit more 
than a freeze. So, I'd like to ask you the same question that I 
asked Ms. Erickson, just a minute ago. Do you have any areas 
that you might identify if you were looking at a 5-percent 
reduction from the previous number?
    Mr. Gainer. Five percent would be about $11 million for us, 
and we have considered that. Again, I believe we've deferred 
all that we should defer. And what we would do, Senator, is 
look to the State offices. Twenty-seven percent our operational 
costs go to support the 454 State offices, including computers, 
installation, network storage, etc. I think we'd have to go 
back to you and the other respective committees to say, ``Is it 
time to take another look at the number of statewide offices we 
have--454--and how they're staffed?'' That would be one way to 
spread the reductions.
    Then, I did mention to Senator Hoeven, if we can change the 
expectations of the Senators and their staff, and 
concomitantly, what your constituents want, we could the slow 
process down. We have a rapid response time on service 
requests. And, like people who have computers at home, it may 
be 3 or 4 years between the time I replace computers. We update 
and replace equipment more quickly here, so our movement toward 
virtual computers and cloud computing would look different. 
Every time a vendor comes out with a new device, we put it in 
our catalog. You pay for it out of your funds, but we have to 
have the systems to support it. We'd have to rethink all that.
    Senator Nelson. And, as a result of preparing for the 
threat in the Government shutdown last month, were you able to 
identify any efficiencies in services that, if implemented now, 
could potentially lead to future savings? I know we all had to 
take a look, internally, at the offices, and ask the basic 
questions about what was essential--not what was unnecessary, 
but what was essential. Did you find anything, in that 
exercise?
    Mr. Gainer. Well, one thing I found is we lost a lot of 
productivity preparing for the shutdown: the cost of about 
$200,000. But, I do not think that we had the ah-ha moment to 
say, ``We can do without that'', because the demand slows down.
    Senator Nelson. Yes. You're subject to whatever demand 
there is out there.
    And that is the same thing for you, Ms. Erickson. Did you 
find the same thing, the slowdown in demand, because everybody 
was busy doing their own thing internally in their own office?
    Ms. Erickson. Well, I'll chime in with Terry, that a lot of 
lost productivity was----
    Senator Nelson. Absolutely.
    Ms. Erickson [continuing]. Lost, that week, prior to the 
potential Government shutdown.
    We took the Antideficiency Act requirements very seriously 
in our operation. And we simply planned to keep open the small 
staff, in the Disbursing Office, that would have to issue the 
payroll during that period. And then, we planned, of course, to 
have our legislative staff here to maintain floor operations. 
But, the rest of our departments were closed, as required by 
the Antideficiency Act.
    Mr. Gainer. Senator, can I have make one remark----
    Senator Nelson. Sure.
    Mr. Gainer [continuing]. On that question?
    Senator Nelson. Sure.
    Mr. Gainer. It did dawn on me that during that whole shut 
down evolution, Christy Prietsch, who runs the Senate-wide 
Employee Assistance Program, saw the work in her office 
magnified 10 times. So, there was no small amount of angst on 
everyone's part. But, I'd also like, when we have an 
opportunity, to talk about some things that might make us all 
more efficient as we go through some of these exercises.
    Senator Nelson. Thank you.
    Terry, can you update us on the progress of the telecom 
modernization project?
    Mr. Gainer. Senator, I can. The good news is, we anticipate 
that the pilot project will be out not much later than the end 
of September. And the pilot project to roll out the new phone 
system that will continue to build on the Watson Program will 
involve a couple of the Senate offices, a portion of my own 
office, and some of the committees.
    It has taken us longer than expected. There have been some 
knockdown drag-out meetings, in my own office, about us being 
behind schedule on that. It's not because of a lack of will, 
but it's due to the evolving and complex nature of the project.
    So, we are now on track to get the pilot up that will have 
some of the other savings that go along with putting in that 
new system, the ease with moving around a phone, changing 
phones, and people being able to get their messages on their 
BlackBerrys. There are all sorts of enhancements that are 
efficiency-oriented. So, by the end of this calendar year, and 
into the beginning of the next calendar year, we'll move 
steadily through the Senate community, replacing all the 
phones.
    Senator Nelson. Do you anticipate the need for any 
additional funding for the project, or do you think we have it 
adequately funded, at the moment?
    Mr. Gainer. I do believe the funding is sufficient now, 
Senator.
    Senator Nelson. Good. Okay.
    Has the Senate community been receptive to the new Watson 
voice messaging system that was necessary that you got put in 
place?
    Mr. Gainer. Very much so. There were the initial hiccups as 
with any new system, but I think we quickly responded to those. 
We've worked with the Rules Committee and others. The response 
to that has been very good. It's helped with call waiting and 
call volume. The other real unique feature is the ability to 
get voicemail messages on your BlackBerry, or from your phone 
to your BlackBerry and your computer.
    Senator Nelson. I understand you're going to be issuing 
smart identification cards. What will the benefit be to that? 
And is there any unusual cost associated with it?
    Mr. Gainer. About one-third of those 454 statewide offices 
are in Federal buildings. And the Federal buildings are rapidly 
moving toward those ID cards. So, to make it more efficient for 
State staff members to get in and out of their offices, it will 
be very important. We've been after smart ID cards since my 
days as the Chief of the USCP. If we all had them, it would be 
a lot easier and more efficient for people to get in and out of 
the building. So, we have spent about $1.4 million on the 
project, so far. I think the annualized cost is somewhere in 
the range of $110,000-a-year; but, as the executive branch 
moves to these, we need to keep up.

     <greek-l>USCP deg.VALIDATING THE USCP FISCAL YEAR 2012 REQUEST

    Senator Nelson. Thank you.
    Chief Morse, your agency and the CBO were the only two 
accounts that received an increased funding from fiscal year 
2010 level in the fiscal year 2011 continuing resolution. And 
it was done to annualize that funding correction due to the 
salary miscalculation at the Department in fiscal year 2010. 
Now, based on the work done by the outside contractors which 
were hired by the USCP Board last year, what steps have you 
taken to validate the accuracy of your fiscal year 2012 budget 
request? And how confident are you that we won't see, or have 
to adjust for, another shortfall at some point in the future?
    Chief Morse. With working with the Board's contractors, 
we've done a number of things. One is, as reported in my 
opening remarks, we have closed all eight recommendations 
associated with the audit of the budget formulation process. 
That enabled us to do several things. One is to go back to what 
had worked very well for us in implementing our Force 
Development Program, our environmental assessment, where we 
have a very responsible and reasonable approach, with respect 
to threats and risks. And that's what our budget is designed 
around.
    We also have implemented a top-down review of our budget to 
include the Investment Review Board, that we have done in the 
past, which includes our managers in the review of the process. 
We have started writing all standard operation procedures (SOP) 
related to the budget formulation process.
    And as an example, what we did, with respect to the 
formulation process itself, was have the people who actually 
work in those positions be a part of the formulation of those 
SOPs so that we would not only know the exact steps to take, 
but we would be a part of writing those SOPs for anyone in the 
future who may come in.
    Another step that we took was to ensure that we reviewed 
our positions there, our position descriptions, and then filled 
the most critical positions within that organization. And, as I 
said, I'm happy to report, we closed all those recommendations. 
The SOPs have been formulated for the process. They continue to 
be done as we move through the execution of our budget. We are 
very confident that we have produced a very solid and accurate 
budget, and one that we will continue to do into the future.
    Senator Nelson. Did the outside contractors coordinate with 
the GAO on the previous work done by the GAO on your budget? In 
other words, was there cooperation, corroboration back and 
forth?
    Chief Morse. We've had very good cooperation, not only with 
the GAO, but with the IG, with respect to the audit findings, 
previous recommendations that have been made. One of the things 
that we wanted to do, and they have been very helpful in doing, 
is ensuring that we're not duplicating any recommendations, 
that we're all on the same page, and that we're doing the most 
important things first, and that were ensuring that the things 
we do are the most efficient and effective for the formulation 
of our budget and the execution of it.

  <greek-l>USCP deg.BUDGET REQUEST AND ITS IMPACT ON THE LEGISLATIVE 
                                 BRANCH

    Senator Nelson. In addition to the increased funding that I 
just mentioned, your department's asking for an additional 
$47.5 million, or 14 percent, in fiscal year 2012. To put it in 
further perspective, this $47.5 million increase is the 
equivalent to 1 percent of the legislative branch bill, as a 
whole. If this bill were held at a freeze, we'd need to cut 
every other agency by 1 percent, which I'm sure makes them very 
pleased, to make up for the increase in funding for the USCP. 
However, it's my goal that we reduce the funding by an 
additional 5 percent, if we can. But, if we fully fund the 
USCP, it means a 6-percent cut to everybody else. So, what do 
you say to your colleagues sitting at the table?
    Chief Morse. Well, you left me in a pretty bad position, 
didn't you? What I would say is, you're safe, and we intend to 
keep it that way.
    Senator Nelson. And you're packing, too.
    Chief Morse. Yes. There you go.
    Well, I would say that--look, I'm very humble, and I took 
responsibility for the miscalculations of 2010. And I take 
responsibility for anything that the USCP, unless it's good; 
and that's where I give the credit to the people that support 
me, like the USCP Board, this subcommittee, and the people that 
are sitting behind me today that work for me.
    I think it's important to say that a lot of our budget 
increases--you know, we have an explanation behind it that's 
very important to get out. One of the things I wanted to say 
was and with Senator Hoeven, I mentioned, too is that, we're 
not all about increases. We're also about, really, effectively 
and efficiently running our police department. We've worked 
with the Senate Sergeant at Arms Rules Committee, as the 
example was given in Mr. Gainer's opening remarks, where we 
saved well more than a half a million dollars. We are working 
with technology, in one of our programs currently, that will 
reduce the number of vehicles, people, gas, and maintenance. We 
scrubbed our open civilian vacancies and were able to 
reallocate those to other mission requirements that were placed 
on us so that we wouldn't have to raise the cost of or, raise 
the size of our police department. We've done a fleet vehicle 
leasing program that this subcommittee reviewed and approved, 
and, over a course of time, saved several million dollars, over 
the next 10 years, with regard to purchasing, which enables us 
to have a refreshed fleet, it enables us to do our mission more 
carefully. We've scrubbed programs within our police 
department, where we have improved the efficiency and 
effectiveness. We were able to save 11 positions. We were then 
able to get rid of a multimillion-dollar contract for alarm 
monitoring, bring that in-house. We looked at USCP employees 
previously transferred to the Department of Labor, and brought 
them back and gave them positions.
    So, we have worked very, very hard to save money, be 
creative in saving money. But, the mission comes first for us, 
and sometimes the mission continues to grow.
    And with respect to the question I heard earlier, with 
respect to a 5-percent cut from the 2011 to the 2008 levels, as 
an example, after the 2008 budget, we incurred two very large 
mission requirements. One was the merger with the LOC, and the 
other was the opening of the Capitol Visitor Center.
    So, all those types of things have to be considered, with 
respect to our budget. And I appreciate all my partners in the 
room, and their contribution and support to our police 
department. But, I also wanted them to know that we work very, 
very hard not to increase our costs, but to find ways to save 
money.
    Senator Nelson. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thanks, Mr. Chairman.
    You know, I think you may be covering the same point that I 
want to explore for just a minute. I thought both Nancy and 
Terry did a very good job of expressing how they would approach 
any further reductions that we may need to make, and I agree 
with that approach.
    In the security area, it's challenging, to say the least, 
because, on the one hand, we can tell Members of Congress and 
the Senators, ``Look, if we have to compress some budgets, 
you're going to have to do without some services. I mean, just 
understand that's what this means. So, that means you may not 
have as many constituent offices in your State, and the 
associated personnel, and so forth, that goes with them.'' But, 
I think, in a very direct way, we can go back to the Members 
and say--and obviously, on the House side, they do it, and, on 
the Senate side, we do it--but, go back to our Members and say, 
``Look, these are the kinds of changes we're going to have to 
make. What do you want? What don't you want? And there's an 
associated cost or reduction that goes with it.'' And I think 
that's how we would, in all likelihood, have to approach most 
of it, other than to the extent we can defer projects or defer 
maintenance, which, as you rightfully said, catches up with 
you. But, I think that's how we'll have to approach these 
things.
    In the security area, it seems to me that is a particularly 
challenging proposition, just given the nature of both the 
additional projects you've been asked to take on and just the 
nature of security, in general, both for elected individuals, 
but also for the public that's here and in these facilities and 
around the country.
    So, we started to get into it a little bit before I left 
for the vote, but I just want you, Chief, to explore for me for 
a minute what realistic possibilities does that give us? Now, I 
notice, right now, it appears that you have a number of vacancy 
positions, relative to your full-time authorized, and you are 
asking for nine more positions for 2012. So, maybe just, if you 
haven't already touched on both your roughly 25 or so vacant 
positions now, and the 9 additional. But then, if you would, 
really touch on--how would I go back to the Members, or how 
would the chairman go back to his Members and say, ``If you 
want some reductions these are the things that are going to 
have to happen?'' What would that dialogue look like?

             <greek-l>USCP deg.FISCAL YEAR 2012 REDUCTIONS

    Chief Morse. Okay, well, with respect to the authorized 
strength, we did take--we have an authorized strength of 443, 
with our civilians. We scrubbed 22 of those positions that are 
currently vacant and said, ``Let's reallocate those instead of 
growing the sworn--or, growing the overall strength of the 
department, let's just reallocate those--nine of those 
positions to the sworn positions, and ask for the funding for 
those, in order to accomplish that new mission of opening a new 
building.'' So, that is where we reallocated, from within, to 
not grow, overall.
    But, with respect to security, it's ever-evolving. The 
threat continuously changes. They're trying to stay one step 
ahead of us, and it's important for us to stay ahead of them. 
Therefore, it's sometimes hard to predict, you know, what the 
next type of emerging threat may be, so we have to, obviously, 
maintain the highest level of technology. So, when you look at 
cutting general expenses, and you look at the agency trying to 
stay within the budget constraints provided, we get into 
deferring life-cycle replacement. You can do that for a time, 
but then it does start to adversely affect security, because 
now you're behind in technology, or the technology you have 
starts to break down on you. So, deferring those costs is not 
something that you want to do to--for too many cycles. You have 
to constantly, as I said, think ahead of the adversary. 
Sometimes that means the responsibility of securing things that 
may be temporary, like some of these projects. These are not 
permanent increases, they're temporary increases, but they're 
needed in order to reduce the risk and threat that those can 
pose while those projects are ongoing.
    So, the only other way, without cutting security, is to cut 
mission. And cut mission is one thing that we worked on, with 
respect to the door-closure plan.
    Senator Hoeven. All right.
    Chief Morse. We simply looked at hours of operation, the 
number of people that are screened through those locations, and 
we looked at the impact that may have on the institution's 
responsibility to be able to work freely. So, we measured that, 
and we were able to find savings. I think we have to continue 
to do that.
    Senator Hoeven. Yes.
    Chief Morse. And I would not recommend that we cut 
security, but that we look at mission, and find other 
innovative ways to reduce the amount of mission that we have, 
which then results in a reduction in overtime, a reduction in 
people; and you are not sacrificing security for that.
    Senator Hoeven. Right. But--and I think that--with your 
indulgence, Mr. Chairman--that does make sense, both in terms 
of timelines--how long facilities are open, the number of 
facilities that are open--that makes sense.
    Chief Morse. Yes. Yes, Sir.
    Mr. Gainer. One of the things that the USCP Board--the 
House SAA, myself, and the AOC--is doing under the Chief's 
leadership, is to reach out to Homeland Security and the Secret 
Service. For instance, we each have an entire operation that 
does screening of vehicles and trucks. So, we said, ``Is there 
efficiency in trying to do something together?'' And the 
Chief's staff have been working very hard with Director 
Sullivan's staff to see how we can merge the systems. We're 
nearing completion. The Congress has given the USCP Board and 
the AOC property where we plan to build the model offsite 
delivery facility. We've entered into discussions with Homeland 
Security and the Secret Service to make that a joint project. 
So, while it doesn't help your numbers here, if the Office of 
Management and Budget were giving credit for something being 
done, this is a way we're trying to minimize stovepipes here in 
the District.
    Senator Hoeven. I think that's right on. I mean, I would 
have to see your reaction across the board. I think it is right 
on. And there may be some opportunities here. And, of course, 
we would give some credit for those savings that we help 
generate with others in any kind of joint endeavor. But, I do 
have to say that I appreciate, very much, your responses to my 
questions. And I agree, I think you're looking at things the 
right way. And so, thank you, again, for the good work that you 
do.

      <greek-l>USCP deg.CONVENTION AND PRE-INAUGURAL SUPPORT COSTS

    Senator Nelson. Thank you, Senator Hoeven.
    Chief, you have $3 million, I think it is, for the coverage 
of conventions and pre-Inaugural support planning. How did you 
arrive at that $3 million? Is it based on prior experience, 
within--that in mind? Or, how did you do that?
    Chief Morse. Yes, we use historical data, and also, site 
location drives the cost. But, in those costs, obviously, are, 
you know, travel, transportation, rental, per diem, et cetera. 
And those costs are derived from previous conventions and, 
obviously, Inauguration support.

                     <greek-l>USCP deg.IG INCREASES

    Senator Nelson. I noticed, on the IG increase, that you 
asked for three additional FTEs for the IG's staff. How many 
staff does the IG currently have, at the present time?
    Chief Morse. Including the IG, four.
    Senator Nelson. Four? Now, you're almost doubling the IG 
staff there. What is the basis for determining that you need to 
add three additional to the current staffing?
    Chief Morse. The request for increase comes from the IG and 
his justifications to the USCP Board. And with their approval, 
those numbers were derived. So, it's not based on my 
justification for increase.
    Senator Nelson. And you'd rather not make him mad.
    Mr. Gainer. Senator, from a USCP Board perspective, of 
which I am the chairman this year--Bill Livingood, the House 
SAA, and I rotate that each year--the Inspector General has 
steadily asked for additional staff over the years, and we've 
steadily said no, except we now see that we're missing some 
opportunities to conduct audits. With the help of those audits 
and investigations, Phil's operation could be more efficient.
    Senator Nelson. So, we could realize some savings, 
ultimately, with more efficiency being pointed out through the 
IG's audits? Is that part of our justification?
    Chief Morse. Yes. I welcome help----
    Senator Nelson. Sure.
    Chief Morse [continuing]. And assistance and 
recommendations. And the ones that I've been getting from the 
USCP Board, obviously, the IG's and the GAO, all have led to 
productive, efficient outcomes.

             <greek-l>USCP deg.RADIO MODERNIZATION PROJECT

    Senator Nelson. How's the radio modernization project 
working out for us?
    Chief Morse. Well, currently--there are five phases in the 
radio modernization project--currently, we're in a combined 
phase 3 and 4. That phase is the acquisition, procurement, and 
testing, and some installation and construction that's ongoing.
    We have two mirror sites. The one mirror site is about 97 
percent complete and on target for its completion date. The 
second mirror site is about 18 percent complete and on target 
for its completion date.
    There are requests for proposals associated with this with 
the money that's been obligated. Those RFPs, a total of five. 
One was released and awarded. The other two have been released 
and are in a phase of either closure or technical inspection. 
And then, the other two are pending release either this month 
or next month.
    Senator Nelson. Do you think that the $7.2 million being 
requested in fiscal year 2012 represents the last installment 
for the project?
    Chief Morse. In the 2011 appropriation that you provided 
us, we were on a diet in our general expenses. By enabling us 
to not change the enacted general expense from the previous 
year, we'll be able to derive the $7.2 million from that 
general expense and, therefore, will rescind that from our 2012 
budget request.
    Senator Nelson. All right.
    I believe that's all the questions that I have.
    Senator Hoeven.
    Senator Hoeven. I don't have any additional questions, 
unless there's any other comment, as a result of this hearing, 
that anybody would like to make.
    Mr. Gainer. Would you mind if I just opined two things?
    We would hope you might consider a single salary and 
expense appropriation for us, as the majority of executive 
branch agencies do, and some of the legislative branch. We have 
about 10 accounts that my Chief Financial Officer says, ``If I 
were dreaming, it would be nice to reduce the number of funds, 
and have the flexibility in the movement of funds, with all the 
appropriate oversight.'' But, maybe take another look at that.
    This one may be more of a stretch. I've long thought, as I 
did in State government, that I wish we could do biennial 
appropriations so that we could do a little better planning on 
the purchase and replacement of equipment and securing 
contracts. In 10 years in State government, I never had any 
success to do that, but, it's a dream, from an agency 
perspective. I don't know how much more of a headache it gives 
your staff, but it makes our job a little bit easier.
    Senator Hoeven. Well, we'll ask the budget analysts to look 
into the salary line.
    And again, Mr. Chairman, as long as it is with your 
agreement.
    Senator Nelson. Sure.
    Senator Hoeven. I agree on the 2-year--matter of fact, I'm 
cosponsoring legislation to go to a 2-year budget cycle. So, I 
absolutely agree with you. And anything we can do, in the 
interim, without legislation, to look at that, I agree. I think 
they're both good ideas. We'll see what we can do.
    Mr. Gainer. Thank you.
    Senator Nelson. I would agree. And I'm looking at perhaps 
sponsoring that legislation, myself. We're looking at it 
internally. But, having gone through biennial budgeting in the 
past, it certainly would avoid having us make a pie a piece at 
a time around here, the way we have to. We would have a more 
comprehensive approach. I think you're absolutely on target. 
And I hope many of my colleagues will feel the same way.
    Mr. Gainer. Thank you, Sir.

                         CONCLUSION OF HEARINGS

    Senator Nelson. Thank you.
    Well, thanks, all of you. I appreciate it very much.
    And we're recessed. Thank you.
    [Whereupon, at 3 p.m., Thursday, May 12, the hearings were 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
